<html>
<title> - S. 817, THE PACIFIC SALMON STRONGHOLD CONSERVATION ACT</title>
<body><pre>[Senate Hearing 111-833]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-833
 
         S. 817, THE PACIFIC SALMON STRONGHOLD CONSERVATION ACT

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 15, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
64-140                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5d4a557a594f494e525f564a1459555714">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman Republican Staff Director
              Brian Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         ROGER F. WICKER, Mississippi
DANIEL K. INOUYE, Hawaii             GEORGE S. LeMIEUX, Florida
JOHN F. KERRY, Massachusetts         JOHNNY ISAKSON, Georgia
BARBARA BOXER, California            DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 15, 2010...................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Begich......................................    25

                               Witnesses

Reeves, Dr. Gordon H., Research Fish Biologist and Team Leader, 
  Pacific Northwest Research Station, U.S. Forest Service, U.S. 
  Department of Agriculture......................................     3
    Prepared statement...........................................     4
Rahr, Guido, President and Chief Executive, Wild Salmon Center...     8
    Prepared statement...........................................     9
LaBorde, Sara, Special Assistant to the Director, Washington 
  Department of Fish and Wildlife; and Chair, Salmon Stronghold 
  Partnership....................................................    16
    Prepared statement...........................................    17
Childers, Joe, President, United Fishermen of Alaska.............    20
    Prepared statement...........................................    22

                                Appendix

Response to written questions submitted to Dr. Gordon H. Reeves 
  by:
    Hon. Maria Cantwell..........................................    35
    Hon. Olympia J. Snowe........................................    38
Response to written questions submitted to Guido Rahr by:
    Hon. Maria Cantwell..........................................    39
    Hon. Olympia J. Snowe........................................    44
Response to written questions submitted to Joe Childers by:
    Hon. Maria Cantwell..........................................    50
    Hon. Olympia J. Snowe........................................    52
Response to written questions submitted to Ms. Sara LaBorde by:
    Hon. Maria Cantwell..........................................    53
    Hon. Olympia J. Snowe........................................    58


         S. 817, THE PACIFIC SALMON STRONGHOLD CONSERVATION ACT

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good morning. The Senate Committee on 
Commerce, Science, and Transportation, Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard will come to order.
    Welcome, everyone. We are glad you are here today to have a 
hearing on the Pacific Salmon Stronghold Conservation Act, and 
we appreciate all of you being here today to give testimony on 
that important piece of legislation.
    Wild Pacific salmon are central to the culture, economy, 
and environment and identity of the Pacific Northwest and have 
played a key role in our region's history. For centuries, 
American Indian tribes of western northern America have relied 
on salmon for their livelihood, well-being, cultural and 
spiritual connection that today remains as strong as ever.
    As an icon of the Pacific Northwest, wild salmon are at the 
heart of what identifies my home State of Washington and the 
surrounding region. And today salmon continue to be a vital 
part of our communities up and down the Pacific coast providing 
billions of dollars of economic activity and thousands of jobs. 
In Washington State, commercial fishing for salmon generated 
over $26 million in revenue and supported over 500 jobs in 
2006. That same year, Washington's sport fishing generated $130 
million in economic activity. And in Alaska, the salmon 
stronghold runs in Bristol Bay alone are estimated to support 
over 5,500 full-time jobs and direct economic expenditures of 
over $3 million each year.
    That is why I have worked so hard for the salmon recovery 
programs and funding, including the increase in the Pacific 
Coastal Salmon Recovery Fund. Since its inception in 2000, the 
Pacific Coastal Salmon Recovery Fund has allowed us to focus 
our efforts in various counties, conservation districts, and on 
average, remove over 200 barriers to fish passage and open up 
nearly 500 miles of habitat each year. That is 2,200 barriers 
removed and over 4,000 miles of habitat restored. I will 
continue to fight to protect and increase the salmon recovery 
fund, but more needs to be done.
    Current Federal salmon recovery efforts are focused heavily 
on salmon listed on the Endangered Species Act, basically 
seeking to restore what we have lost. While recovering depleted 
populations is essential, we cannot forget that it is also 
important to protect the healthy salmon populations we still 
have. For salmon stocks that are still healthy today, it is 
much smarter, more cost effective to preserve them now before 
their populations dip low and trigger the Endangered Species 
Act and their protections. Rather than waiting until after they 
have run into trouble, act now.
    Ultimately, saving the Pacific salmon is not just about 
recovering threatened and endangered stocks, it is also about 
protecting healthy populations. That is why last year I 
introduced legislation that we are here to discuss today, the 
Pacific Salmon Stronghold Conservation Act of 2009. And I am 
proud to say that this legislation was introduced and 
cosponsored by every Senator from the Pacific coast states, 
including Senator Murkowski, Senator Murray, Senator Wyden, 
Senator Boxer, Senator Feinstein, Senator Merkley, and Senator 
Begich.
    I am also pleased that a companion bill is making its way 
through the House of Representatives with Representative Mike 
Thompson as the lead sponsor and support of 42 cosponsors.
    The Pacific Salmon Stronghold Conservation Act was written 
to achieve a simple goal: to ensure the survival of the Pacific 
salmon by making sure that our healthy salmon populations get 
the protection they deserve.
    It is a stunning fact that the States of California, Idaho, 
Oregon, and Washington are roughly 20 percent of the salmon 
habit and support the salmon abundance. The State of Alaska, as 
a regional stronghold, produces more than one-third of all 
Pacific salmon in North America.
    This legislation will protect these critically important 
wild salmon strongholds. By establishing a cooperative public/
private salmon stronghold partnership, this bill will break 
down the old barriers between Federal, State, and tribal 
governments, private landowners, and non-governmental 
organizations. It will streamline and coordinate our efforts 
toward a unified, clearly defined, science-based approach for 
conservation of salmon stronghold populations. And it will 
establish a much-needed grant and technical assistance program 
to leverage private dollars in support of targeted, high-impact 
projects in the stronghold watersheds. Establishing this kind 
of voluntary, incentive-based program will bring people 
together to accelerate the highest priority conservation 
actions needed to shore up our network of healthy salmon 
populations, serving as a buffer against our future losses 
among vulnerable stock. Restoring the threatened and endangered 
salmon in the Pacific Northwest is an imperative as wild 
Pacific salmon are a true icon of western northern America. It 
is time to increase funding for recovery efforts but also 
essential that we bring into focus prevention. And it is time 
to adopt the kind of comprehensive solution that can solidify 
wild Pacific salmon's rightful place for generations to come.
    We are going to turn to our witnesses. We are glad that Dr. 
Gordon Reeves, a Research Fish Biologist for the U.S. 
Department of Agriculture, Forest Service, Pacific Northwest 
Research Station from Corvallis, Oregon is with us. Welcome. 
Mr. Guido Rahr, President and CEO of Wild Salmon Center, 
Portland, Oregon; Ms. Sara LaBorde, Special Assistant to the 
Director for the Washington Department of Fish and Wildlife; 
and Mr. Joe Childers, Immediate Past President of United 
Fishermen of Alaska and the Co-Vice Chair of the Advisory Panel 
for the North Pacific Fishery Management Council. Welcome to 
you all and we are glad you are here.
    I see my colleague and a cosponsor of this legislation. 
Senator Begich from Alaska is here. Senator Begich, would you 
like to make a statement before we turn to our witnesses?
    Senator Begich. Thank you very much, Madam Chair. No. Let 
us go right to the witnesses. I think you summarized very well 
the importance of the legislation. And it is exciting to see 
this step moving down the road. So I will just look forward to 
witnesses and then some questions from that point, if that is 
OK.
    Senator Cantwell. Great. Thank you.
    Dr. Reeves, welcome, and please pull the microphone up.

               STATEMENT OF DR. GORDON H. REEVES,

            RESEARCH FISH BIOLOGIST AND TEAM LEADER,

              PACIFIC NORTHWEST RESEARCH STATION,

      U.S. FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Dr. Reeves. Thank you, Madam Chair, and members of the 
Committee. My name is Gordon Reeves, and I appreciate the 
opportunity to appear before you today to discuss the science 
that underlies the Salmon Stronghold Conservation Act of 2009.
    I am a Research Fish Biologist with the PNW Research 
Station in Corvallis, and I have held that position for 27 
years. I have published 75 papers on the freshwater ecology of 
Pacific salmon and trout in the Northwest and Alaska. I also 
had a short career as a commercial fisherman while I was in 
graduate school at Humboldt State University.
    The primary focus of my testimony is on the science that 
underlies the salmon stronghold concept. Therefore, I will not 
be speaking to the bill itself.
    Protecting populations and their ecosystems is a primary 
principle of conservation biology. Depressed populations and 
degraded ecosystems are much more difficult to conserve and 
recover than are productive, intact ones. Conservation, 
therefore, is most successful when proactive actions are 
directed at populations before they decline and ecosystems 
before they are degraded.
    The establishment of a stronghold network is premised upon 
principles of systematic conservation design, and these 
principles include comprehensiveness, which is the extent to 
which the network protects the desired level of biodiversity 
and abundance; irreplaceability, the inclusion of areas or 
populations that are necessary to achieve the conservation 
goal; and efficiency, which is meeting the desired goals in the 
most effective manner while minimizing the amount of area 
involved.
    Tools based on these principles have been developed by 
scientists from the Forest Service, the Wild Salmon Center, 
other NGO's, and universities. And they will provide the 
ability to identify and develop a scientifically sound 
stronghold network.
    In dealing with climate change, the potential effects of 
climate change are relatively minor compared to environmental 
variations native fish have faced historically. However, change 
is now occurring more rapidly than in the past and follows a 
period of extensive and fairly rapid ecosystem alteration. 
Consequently, these fish no longer have the intact network and 
the associated diversity of habitats and environmental 
conditions or the genetic and life history diversity potential 
to respond to changes that they did historically.
    Creating networks of watersheds across large spatial scales 
could be a key component of providing opportunities for native 
salmon and trout to respond to these stressors. Salmonids are 
most likely to persist in such networks because they will 
provide a diverse habitat that allows for greater species, 
genetic and phenotypic diversity, and they will have the 
ability to absorb catastrophic disturbances without the loss of 
entire populations.
    A network of strongholds that is distributed across the 
Pacific Northwest and Alaska will also provide important 
ecological services to the local communities and other areas.
    The foundation of the salmon network approach is well 
embedded in principles of conservation biology and has the 
potential to help prevent further declines of native salmon and 
trout and the ecosystems in which they reside. Additional 
strongholds would complement and expand the existing network of 
strongholds which are generally limited in size and 
distribution and would increase the overall effectiveness of a 
network system. In the longer term, such a network would have a 
good potential to contribute to the persistence of strong 
populations, the recovery of depressed populations, and to 
provide a suite of ecological services to the local 
communities.
    Thank you for this opportunity to testify, and I would be 
happy to answer any questions you might have.
    [The prepared statement of Dr. Reeves follows:]

Prepared Statement of Dr. Gordon H. Reeves, Research Fish Biologist and 
 Team Leader, Pacific Northwest Research Station, U.S. Forest Service, 
                     U.S. Department of Agriculture

    Madam Chairwoman, Ranking Member and members of the Subcommittee, 
my name is Gordon Reeves. I very much appreciate the opportunity to 
appear before you today to discuss the science that underlies the 
Salmon Stronghold Conservation Act of 2009. I am a research fish 
biologist with the Pacific Northwest Research Station of the U.S. 
Forest Service in Corvallis, OR and have held this position for 27 
years. I have a Ph.D. in fisheries science from Oregon State University 
and a Master of Science in fisheries from Humboldt State University. I 
also worked as a commercial salmon fisherman in northern California 
while I was in graduate school. I have published more than 75 papers on 
the freshwater ecology of various species of Pacific salmon in the 
Pacific Northwest and Alaska and on the impacts of land management 
activities on the freshwater habitats of these fish. I was involved 
with the development of options for managing Federal lands in the 
Pacific Northwest and Alaska and evaluating their effects on Pacific 
salmon (Oncorhynchus spp.) and other aquatic organisms.
    The primary focus of my testimony is on the science that underlies 
the salmon stronghold concept therefore, I will not be speaking to the 
S. 817 itself. More than 29 percent of the estimated 1400 populations 
of native salmon and trout in the contiguous western United States have 
been lost (Gustafson et al. 2007). Currently, about one third are 
listed as threatened or endangered under the Endangered Species Act. As 
a result, the conservation of these fish is the focus of much effort by 
scientists in Federal and state agencies, universities, NGO's, and 
private industry. Initial conservation efforts were directed at habitat 
units, such as pools and riffles, and small segments of streams. 
However, no fish species or population unit was recovered sufficiently 
to be removed from the Endangered Species list and these approaches 
were judged to be ineffective (Williams et al. 1989). In the early 
1990s, Moyle and Yoshiyama (1994) advocated for the focus shifting to 
watersheds with a particular emphasis on intact watersheds. It was also 
recognized that recovery and protection efforts should focus on 
ecological processes, and not solely on in-channel conditions (e.g., 
Reeves et al. 1995, Gustafson et al. 2007). These approaches have been 
echoed by several researchers and managers since that time, but there 
are few examples of where this approach has actually been applied, 
particularly on a large spatial scale. Perhaps the best examples are 
the key watersheds, which are part of the Aquatic Conservation Strategy 
of the Northwest Forest Plan (NWFP) that guides management on Federal 
lands within the range of the northern spotted owl (Strix occidentalis 
caurina). Key watersheds had currently good habitat, the best potential 
to respond to restoration, or were municipal water supplies (Reeves et 
al. 2006). The purpose of the former two types was to aid in the 
recovery of listed fish. Ten years after the implementation of the 
NWFP, the proportion of key watersheds (70 percent) whose condition 
improved at a greater rate than that of non-key watersheds (50 
percent). The primary reasons for this were: (1) restoration efforts 
were focused in the key watersheds rather than dispersed; and (2) 
watershed analyses provided a basis for any management activities 
undertaken and helped reduce the risk of negative consequences.

Principles of Conservation Biology
    Protecting populations and their ecosystems is a primary principle 
of conservation biology. Conservation is most successful when proactive 
actions are directed at protecting populations before they decline, and 
protecting ecosystems before they are degraded (McGurrin and Forsgren 
1997), which is the foundation of a stronghold strategy. Populations 
that are in decline are much more difficult to conserve and to recover 
than are productive, intact ones. Focusing efforts on intact 
populations, where they exist, is a prudent component for the long-term 
conservation of native salmon and trout (Gustafson et al. 2007).
    The identification and selection of a stronghold network is 
premised on principles of systematic conservation design, which are 
well established in the scientific literature (see Soule and Terborgh 
1999). These include: (1) comprehensiveness--the extent to which the 
network protects the desired level of biodiversity and abundance; (2) 
irreplaceability--the inclusion of areas or populations that are 
necessary to achieve the conservation goals; and (3) efficiency--the 
network is designed to be the most efficient manner that achieves the 
conservation goals while minimizing the area involved. An integrated 
suite of planning tools based on these principles has been developed by 
scientists from the Wild Salmon Center, other NGO's, the Forest 
Service, and universities. These tools can provide stakeholders and 
other interested parties the ability to identify and develop a 
scientifically sound stronghold network.
    Native salmon and trout in the Pacific Northwest and Alaska occupy 
a wide geographic range over a wide variety of environmental 
conditions. The fish are uniquely adapted to local conditions, and it 
is difficult for populations from one area to survive in other areas 
(Waples 1991). Examples of local adaptation include resistance to 
disease, timing of return to freshwater, and size and age at maturity 
(Hodgson et al. 2009, Quinn 2005). These differences among populations 
are recognized by responsible management and regulatory agencies and in 
the status designation under the Endangered Species Act. As a result, 
it is important that the design and establishment of a stronghold 
network be focused at ecoregional levels in order to maintain this 
variability of locally adapted populations and to have the greatest 
chance of success.

The Challenge of Climate Change
    The potential impacts of climate change pose a threat to native 
salmon and trout, particularly weak populations, in the Pacific 
Northwest and Alaska. These fish are particularly vulnerable because of 
their dependence on both freshwater and marine ecosystems. Potential 
impacts in the marine environment include: (1) changes in the thermal 
regime and timing and intensity of upwelling; and (2) increased 
acidification. Likely impacts on freshwater ecosystems include: (1) 
alteration of flow and temperature patterns; and (2) more frequent 
disturbances such as wildfire and drought (Hamlet and Lettenmaier 
2007). The primary cause of decreasing summer flow is increasing air 
temperatures, which are decreasing snowpacks and melting existing 
accumulations earlier in the spring (Regonda et al. 2005; Stewart et 
al. 2005). As a result, streams runoff 1--3 weeks sooner than they did 
historically (Regonda et al. 2005; Stewart et al. 2005) and subsurface 
aquifers provide less groundwater for stream flow late in the summer 
and early fall (Hamlet et al. 2005). There will be wide variation in 
the expression of potential impacts of climate change within and among 
watersheds in any given area. Additionally, there will be large 
variation among regions. The average annual air temperature increase in 
the West has been 0.8+C; warming rates have been faster at higher 
elevations and more northerly latitudes, and slower at lower elevations 
and southern latitudes (Diaz and Eischeid 2007).
    The likely consequences of climate change for salmon and trout 
include changes in the: (1) behavior and growth of individuals 
(Neuheimer and Taggart 2007); (2) phenology, growth, dynamics, and 
distribution of populations (Hari et al. 2006; Rieman et al. 2007); (3) 
persistence of species and fish communities (Hilborn et al. 2003); and 
(4) functioning of whole ecosystems (Moore et al. 2009). The 
vulnerability of salmon and trout species and population units to 
climate change will depend on the characteristics of the species or 
population, and local environmental conditions, as well as past habitat 
alteration, fragmentation, and loss (Hodgson et al. 2009). Larger, more 
productive populations have a better likelihood of adapting to climate 
change, in part, because of the inherent genetic and phenotypic 
diversity within them (Hodgson et al. 2009).
    The potential effects of climate change are relatively minor 
compared to the environmental variation native fish have faced over 
time (Waples et al. 2009). However, change is occurring more rapidly 
than many of the past changes (IPCC 2007) and is following a period of 
extensive and fairly rapid ecosystem alteration. Consequently, these 
fish no longer have the historical intact networks and diversity of 
habitats and have reduced genetic, life-history, and evolutionary 
potential to respond to the impacts of climate change.
    Conserving and creating networks of watersheds across large spatial 
scales could be a key component of providing opportunities for native 
salmon and trout to respond to a number of stressors. Salmonids are 
most likely to persist in larger and more complex habitat networks 
(Fausch et al. 2006, Greene et al. 2009). Large networks are more 
likely to provide diverse habitat required over the life span of these 
fish, the complexity and area to absorb catastrophic disturbances 
without loss of entire populations, and greater species, genetic and 
phenotypic diversity (Fausch et al. 2009).
    A network of strongholds that is distributed across the Pacific 
Northwest and Alaska will also likely provide important ecological 
services to the local communities. These include protection of other 
aquatic species, production of clean water for drinking and irrigation, 
natural flood control, sites of carbon sequestration, and opportunities 
for recreation.

Conclusion
    The foundation of the salmon stronghold network approach is well 
embedded in the principles of conservation biology and has the 
potential to help prevent further declines of native populations of 
salmon and trout and the ecosystems in which they reside. Additional 
strongholds would complement and expand the existing network of 
strongholds, which are generally limited in size and distribution, and 
would increase the overall effectiveness of the network. In the longer 
term, such a network would have good potential to contribute to the 
recovery of populations that are currently depressed. This network 
would likely be the base for Pacific salmon and other native fishes to 
respond to the challenges of adapting to climate change and where 
important ecological services are provided to local communities, the 
region, and the Nation.
    Thank you for this opportunity to testify. I would be happy to 
answer any questions.

References
    Diaz, H.F. and J. K. Eischeid. 2007. Disappearing ``alpine tundra'' 
Koppen climatic type in the western United States. Geophysical Research 
Letters 34: L18707, doi:10.1029/2007GL031253.
    Fausch, K.D., B.E. Rieman, M.K. Young, and J.B. Dunham. 2006. 
Strategies for conserving native salmonid populations at risk from 
nonnative invasions: tradeoffs using barriers to upstream movement. 
General Technical Report RMRS-GTR-174. USDA Forest Service, Rocky 
Mountain Research Station, Fort Collins, CO.
    Fausch, K.D., B.E. Rieman, J.B. Dunham, M.K. Young, and D.P. 
Peterson. 2009. Invasion versus isolation: Trade-offs in managing 
native salmonids with barriers to upstream movement. Conservation 
Biology 23: 859-870.
    Greene, C.M., J.E. Hall, K.R. Guilbault, and T.P. Quinn. 2009. 
Improved variability of populations with diverse live-history 
portfolios. Biology Letters doi: 10.1098/rsbl.2009.0780.
    Gustafson, R.G., R.S. Waples, J.M. Myers, L.A. Weitkamp, G.J. 
Bryant, O.W. Johnson, and J.J. Hard. 2007. Pacific salmon extinctions: 
quantifying lost and remaining diversity. Conservation Biology 21: 
1009-1020.
    Hamlet, A.F. and D.P. Lettenmaier. 2007. Effects of climate change 
on hydrology and water resources in the Columbia River basin. Journal 
of the American Water Resources Association 35: 1597-1623.
    Hamlet, A., P.W. Mote, M.P. Clark, and D.P. Lettenmaier. 2005. 
Effects of temperature and precipitation variability on snowpack trends 
in the western United States. Journal of climate 18: 4545-4561.
    Hari, R.E., D.M. Livingstone, Siber, R. Burkhardt-Holm, P., and H. 
Guttinger. 2006. Consequences of climate change for water temperature 
and brown trout in Alpine rivers and streams. Global Change Biology 12: 
10-26 doi: 10.1111/j.1365-2486.2005.01051.x.
    Hilborn, R., T.P. Quinn, D.E. Schindler, and D.E. Rogers. 2003. 
Biocomplexity and fisheries sustainability. Proceedings of the National 
Academy of Sciences 100: 6564-6568.
    Hodgson, J.A., C.D. Thomas, B.A.Wintle, and A. Moilanen. 2009. 
Climate change, connectivity and conservation decisionmaking: back to 
basics. Journal of Applied Ecology 46: 964-969.
    IPCC (Intergovernmental Panel on Climate Change). 2007. Climate 
change 2007: the physical science basis. (http://www.ipcc.ch).
    Moore, M.V., S.E. Hampton, L.R. Izmest'eva, E.A. Silow, E.V. 
Peshkova, and B.K. Pavlov. 2009. Climate change and the world's sacred 
sea-Lake Baikal, Siberia. BioScience 59: 405-417.
    McGurrin, J. and H. Forsgren. 1997. What works, what doesn't, and 
why? Pp. 459-471. In: J.E. Williams, C.A. Wood, and M. P. Dombeck, 
editors. Watershed Restoration: Principles and Practices. American 
Fisheries Society, Bethesda, MD.
    Moyle, P.B. and R.M. Yoshiyama. 1994. Protection of aquatic 
biodiversity in California: five-tiered approach. Fisheries 19920; 6-
19.
    Neuheimer, A.B. and C.T. Taggart. 2007. The growing degree-day and 
fish size-at-age: the overlooked metric. Canadian Journal of Fisheries 
and Aquatic Sciences 64: 375-385.
    Quinn, T.P. 2005. The behavior and ecology of Pacific salmon and 
trout. American Fisheries Society, Bethesda, MD.
    Reeves, G.H., J.E. Williams, K.M. Burnett, and K. Gallo. 2006. The 
aquatic conservation strategy of the Northwest Forest Plan. 
Conservation Biology 20: 319-329.
    Reeves, G.H., L.E. Benda, K.M. Burnett, P.A. Bisson, and J.R. 
Sedell. 1995. A disturbance-based ecosystem approach to maintaining and 
restoring freshwater habitats of evolutionarily significant units of 
anadromous salmonids in the Pacific Northwest. American Fisheries 
Society Symposium 17: 334-349.
    Regonda, S.K., B. Rajagopalan, M. Clark, and J. Pitlick. 2005. 
Seasonal cycle shifts in hydroclimatology over the Western United 
States. Journal of Climate 18: 372-384.
    Rieman, B.E., D. Isaak, S. Adams, D. Horan, D. Nage, and C. Luce. 
2007. Anticipated climate warming effects on bull trout habitats and 
populations across the interior Columbia River basin. Transactions of 
the American Fisheries Society 136: 1552-1565.
    Stewart, I.T., D.R. Cayan, and M.D.Dettinger. 2005. Changes toward 
earlier streamflow timing across western North America. Journal of 
Climate 18: 1136-1155.
    Soule, M.E. and J. Terborgh. 1999. Continental conservation: 
scientific foundations of regional reserve networks. Island Press, 
Washington, D.C.
    Waples, R.S. 1991. Pacific salmon, Oncorhynchus spp., and the 
definition of ``species'' under the Endangered Species Act. Marine 
Fisheries Review 53: 11-22.
    Waples, R., Beechie, T., and Pess, G.R. 2009. Evolutionary history, 
habitat disturbance regimes, and anthropogenic changes: what do these 
mean for resilience of Pacific Salmon Populations? Ecology and Society 
14(1): 3. [online] URL: http://www.ecologyandsociety.org/vol14/iss11/
art13/.
    Williams, J.E. and 7 co-authors. 1989. Fishes of North America: 
endangered, threatened, and of special concern. Fisheries 14(6): 2-21.

    Senator Cantwell. Thank you, Dr. Reeves.
    We will just go down the line, and we will wait until all 
the witnesses have given their testimony. Then we will go to 
questions.
    So, Mr. Rahr, welcome. Thank you for being here. Thanks for 
all the work that the center has been doing, and we look 
forward to your comments.

            STATEMENT OF GUIDO RAHR, PRESIDENT AND 
              CHIEF EXECUTIVE, WILD SALMON CENTER

    Mr. Rahr. Madam Chair, members of the Subcommittee, I very 
much appreciate the chance to testify today. In my testimony, 
my views are of the President of the Wild Salmon Center. We are 
an international, science-based conservation organization.
    The Chairman. Mr. Rahr, just bring the microphone a little 
closer to you. Thank you.
    Mr. Rahr. My name is Guido Rahr. I am the President of the 
Wild Salmon Center, an international, science-based 
conservation organization dedicated to protecting wild salmon 
ecosystems across the north Pacific.
    In my testimony today, I will briefly explain why enacting 
the Salmon Stronghold Act is necessary for the survival and 
health of wild salmon.
    First of all, I want to emphasize that there are many 
important endangered species in the Pacific Northwest, but wild 
salmon have a disproportionate impact on the health of both the 
ecological and social human communities where they live. 
Scientists have a term for species that have this kind of 
impact, and it is called the ``keystone species.'' Wild salmon 
are a keystone species for the watersheds that flow into the 
north Pacific. They bring in tremendous amounts of marine 
nutrients which support over 100 species that depend upon wild 
salmon, the runs that have come in and spawned. They are also 
one of the top three revenue-generating seafood products, 
supporting tens of thousands of jobs and generating $3 billion 
in personal income. So salmon are really important for the 
health of the ecological and economic systems of the north 
Pacific.
    Also, salmon really unite the people of the north Pacific. 
We and our fellow nations across the north Pacific are part of 
the salmon ecosystem. We identify ourselves with salmon. They 
are part of our way of life and they really represent the north 
Pacific. They are very much an important icon in our lives.
    Now, currently globally we are losing the battle to save 
wild salmon populations over much of their range. Wild salmon 
have disappeared from much of Europe and the eastern United 
States. Japan has no more healthy wild salmon runs. It appears 
that the Korean peninsula is in the same shape. And now 
southern British Columbia is seeing their populations in some 
cases faltering. The Fraser River sockeye collapsed last year, 
for example. In the western United States, salmon have 
disappeared from 40 percent of their native range, and one-
third of our populations are now listed for protection under 
the Endangered Species Act.
    Despite a concerted effort to recover salmon, no species 
has been removed yet from the Endangered Species list.
    Now, today in the Pacific Northwest, we are at a 
crossroads. There are two big driving forces that are going to 
determine our ability to protect salmon over the long run, and 
one is the impacts of climate change and the other is the fact 
that our human population is doubling roughly every 40 years. 
So in 40 years, we could have twice the impacts and competition 
for the resources that salmon need.
    Unless we are able to implement a realistic, long-range 
strategy to protect our rivers from these and other threats, we 
will likely join a growing number of places in the world where 
wild salmon and all that they symbolize are just a memory.
    But we still have some healthy wild salmon populations, and 
these are the strongholds, places like Alaska's Bristol Bay, 
the Olympic Peninsula of Oregon, and northern California, the 
Smith River, for example, in northern California.
    The key is going to be prevention, being able to anticipate 
the threats that these watersheds face and implement programs 
to protect them over the long term.
    Unfortunately, our current governance structure, which is 
constructed to respond mostly to the crises of the day, is ill-
equipped to invest and lead us to prevent the threats that we 
see before us. The main direction to the agencies is driven by 
the Endangered Species Act. We need, in addition to that work, 
an additional approach to protect the strongholds, a 
preventative approach. The Salmon Stronghold Act represents 
precisely the leadership that we need. The Act establishes a 
critical missing component in Federal salmon policy, providing 
Congressional direction to focus Federal resources on the 
conservation of these strongholds.
    History has shown that it will be less expensive to act now 
than to invest heavily later in having to recover these 
populations. If we succeed, we will be leaving our children 
some of the most beautiful rivers and a miracle of healthy wild 
salmon runs and something they will be very grateful for.
    In conclusion, I want to express my support for the 
leadership of Senator Cantwell in introducing the Salmon 
Stronghold Conservation Act, which has broad support throughout 
the western United States, and we stand ready to do anything we 
can to help pass this Act into law.
    Thank you very much.
    [The prepared statement of Mr. Rahr follows:]

   Prepared Statement of Guido Rahr, President and Chief Executive, 
                           Wild Salmon Center

    Madam Chairman, members of the Committee, I appreciate the 
opportunity to appear before you today to provide my views on the 
Pacific Salmon Stronghold Conservation Act (``Salmon Stronghold Act''). 
My name is Guido Rahr and I am the President and Chief Executive of the 
Wild Salmon Center, a science-based, international conservation 
organization dedicated to protecting the healthiest and most productive 
wild salmon ecosystems across the Pacific Rim. I was the first full-
time staff member of Wild Salmon Center at its inception in 1998 and 
initiated the organization's effort to identify and protect the 
remaining ``strongholds for native salmonid fish along the Pacific 
Rim,'' a very new concept in salmon conservation at the time. I have a 
Masters of Environmental Studies from Yale University and 22 years of 
experience developing programs for regional and international 
conservation organizations, including Oregon Trout, the Rainforest 
Alliance, the United Nations Development Programme, and Conservation 
International. I am the founder of the World Conservation Union Salmon 
Specialist Group, led the creation of new salmon and river conservation 
organizations in the United States and Russia, and have written 
numerous publications on salmon conservation, most notably ``A 
Proactive Sanctuary Strategy to Anchor and Restore High Priority Wild 
Salmon Ecosystems'' (Rahr, et al. 2006).
    In my testimony today, I will explain: (1) why enacting the Pacific 
Salmon Stronghold Conservation Act is critical to maintaining and 
increasing the long-term abundance and diversity of wild Pacific salmon 
in North America, and (2) how U.S. leadership can stimulate action from 
other Pacific Rim salmon-bearing nations, whose cooperation is vital to 
protect our salmon fisheries. If there is one message from my testimony 
today that I hope stays with you, it is this: Congressional direction 
is absolutely necessary to implement a winning, science-based salmon 
conservation strategy. Enacting the Pacific Salmon Stronghold 
Conservation Act (``Salmon Stronghold Act'') will provide the critical 
missing link in current salmon conservation and management policies by 
harnessing public and private efforts to protect North America's 
healthiest wild salmon rivers, and the communities and wildlife that 
depend on them.
    I want to acknowledge the extraordinary leadership and support of 
the bill's co-sponsors, Chairwoman Cantwell and Senator Murkowski--two 
Senators who were among the first to recognize the value of 
preventative action to avoid paying billions of dollars in watershed 
restoration costs down the road. I also want to commend the other six 
original co-sponsors of the bill, which included each and every West 
Coast Senator.

The Economics, Ecology and Culture of Wild Salmon Ecosystems
    Healthy wild salmon ecosystems provide myriad ecological, economic 
and cultural benefits. Ecologically, salmon are what is known as a 
``keystone'' species, a key link in the food web upon which over 137 
other species depend, including bears, eagles, orcas, and other 
wildlife (Cedarholm, et al. 2000). Salmon even provide valuable 
nutrients to our forests and plants through the decomposition of their 
nitrogen-rich carcasses.
    Salmon are also an ``indicator'' species, informing us about the 
health of our freshwater and marine systems. Not coincidentally, many 
of our most productive salmon rivers provide our communities with 
critical ecological services, such as clean drinking water, flood 
control, irrigation and pollution filtration. Abundant and diverse 
salmon populations tell us that our system is healthy and will continue 
to provide those and other valuable services.
    Salmon are a highly migratory and transboundary species, which have 
a tremendous impact on the ecological health of communities around the 
northern Pacific Rim. They create thousands of truly sustainable jobs, 
generating billions of dollars of economic value, while providing an 
important component of food security as they are a nutritious and 
natural source of protein for local consumption and export. 
Accordingly, salmon require international cooperation with other 
salmon-bearing nations across the Pacific Rim.
    Finally, more than any other species, salmon connect the people to 
the oceans and rivers of the Pacific Rim. They are deeply embedded in 
our identity, and are a primary source of food and cultural identify 
for native peoples across the Pacific Rim.

A More Strategic Approach to Salmon Conservation
    Today, in the western United States, we are at a crossroads. Salmon 
are now extinct over 40 percent of their native range, and many other 
salmon populations have declined to the point that they are protected 
under the Federal Endangered Species Act. Fortunately, there are still 
river systems that are home to relatively healthy wild salmon and 
steelhead populations. These are the ``salmon strongholds'': the crown 
jewels of productive salmon ecosystems. While they are the best of what 
we have left, without pro-active planning and management, they may be 
next in line to suffer the threats that have caused the decline of so 
many other salmon populations.
    Scientists predict that the impacts of climate change will both 
decrease the flow of water in our rivers, and heat them to the point 
that many systems will not be habitable for salmon and steelhead. In 
addition to the effects of climate change, the human population of the 
Pacific Northwest is predicted to double by the year 2040, potentially 
doubling not just the demand for the fish themselves, but doubling the 
demands on the clean water and healthy forests needed to support wild 
salmon runs.
    Unless we are able to implement a realistic long-range strategy to 
protect our rivers from these and other threats, we likely will join 
the growing number of places in the world where wild salmon and all 
that they symbolize and provide are just a memory. Our ability to learn 
from the past and establish a comprehensive and strategic approach to 
salmon conservation will likely determine whether future generations 
can continue to enjoy the many values these extraordinary species 
embody.

The Pacific Salmon Stronghold Conservation Act of 2009
    Today, our scientists have a deeper understanding of what wild 
salmon need to thrive and prosper than ever before. Reduced to its most 
elemental components, salmon require:

        1. Sufficient natural and healthy functioning river systems, 
        estuaries, and marine habitat to live out their life cycle;

        2. Harvest management that enables enough wild salmon to return 
        to the spawning grounds of their home rivers, and protection 
        from the ecological impacts of large scale releases of juvenile 
        salmon from hatcheries; and

        3. Genetic diversity to build resilience, adapt to 
        environmental conditions, and evolve.

    Current Federal salmon policy only partially addresses these basic 
needs, largely through the Endangered Species Act (recovery of salmon 
populations listed as threatened or endangered; implemented through the 
Pacific Coastal Salmon Recovery Fund), the Magnuson Stevens Fisheries 
and Management Reauthorization Act (setting national standards to 
conserve and manage anadromous and other high seas migratory species to 
prevent overfishing, rebuild overfished stocks, and facilitate long-
term protection of essential fish habitats), and the U.S.-Canada 
Pacific Salmon Treaty (promoting international cooperation for bi-
national salmon harvest allocations and a ban on high seas salmon 
fishing).
    One critical missing component in this policy is a Federal focus on 
the conservation of healthy wild salmon ecosystems--salmon 
strongholds--as a preventative, proactive approach. We have invested 
millions of dollars in salmon recovery efforts, but these efforts alone 
will not be sufficient to prevent the need for future listings or 
safeguard against future declines. It is also important to note that 
while salmon recovery is a vital element of our Federal salmon 
conservation strategy, no salmon population to date has been recovered 
and removed from the Endangered Species list. While recovery proceeds, 
we must ensure that our healthy wild salmon populations remain intact. 
This approach will save hundreds of millions of dollars in future 
restoration costs and emergency funding.
    The Pacific Salmon Stronghold Conservation Act of 2009 creates this 
essential policy by directing Federal resources toward conservation of 
the healthiest and most productive wild Pacific salmon strongholds in 
North America.

Protecting Strongholds Implements a Key Principle of Conservation 
        Biology--
        Safeguard Core Centers of Abundance and Diversity
    Approximately two-thirds of historic salmon populations persist 
around the Pacific rim, and wild Pacific salmon remain incredibly 
diverse, with at least 50 evolutionary significant units in just the 
lower 48 (Augerot, 2005). Yet, only a small percentage of globally 
significant wild salmon rivers currently enjoy protection. For those 
that remain unprotected, a wide range of conservation strategies must 
be employed to sustain their productivity (Pinsky, et al. 2009).
    The Salmon Stronghold strategy applies rigorous scientific analyses 
to the following three steps:

        1. Identifying ``stronghold'' rivers based on levels of 
        abundance and diversity of wild salmon and steelhead 
        populations within each salmon ``ecoregion'' throughout the 
        species North American range;

        2. Optimizing the most efficient combination of rivers 
        necessary to conserve the greatest range-wide abundance and 
        diversity; and

        3. Investing in the ``highest conservation value'' actions in 
        strongholds to maintain ecological function by addressing 
        factors that limit the salmon population health and prevent 
        emerging threats.

    There is broad agreement among scientific colleagues in and outside 
of government that the identification and protection of a portfolio of 
salmon strongholds represents a critical plank in any broader salmon 
conservation and management strategy.
Cooperative Conservation--a Public-Private Model for Maintaining 
        Healthy 
        Watersheds
    Federal land managers and regulators often have responsibilities or 
interests in coastal watersheds, but seldom does a single government 
entity have jurisdiction or management authority over an entire 
watershed or salmon ecosystem. It is more often the case that 
watersheds are ``managed'' by multiple entities, including Federal and 
state agencies, Tribes, and, of course, private landowners and water 
management authorities. Coordinating these entities for a shared 
purpose is complex, but absolutely necessary to ensure watershed 
function and resilience.
    The Salmon Stronghold Act brings all of these players to the table 
around voluntary, incentive-based efforts to ensure that salmon 
strongholds retain and increase the benefits they currently produce. 
Wild Salmon Center and its conservation partners have worked closely 
with local communities to protect watersheds through many strategies 
and tools, including supporting sustainable fisheries and working 
landscapes. Leveraging the efforts of non-governmental bodies who 
champion these models will make Federal policy more effective and has 
the potential to generate significant private resources.
    Several conservation organizations, including those participating 
in the North American Salmon Stronghold Partnership (Stronghold 
Partnership), have worked closely with cities, towns, Tribes, timber 
companies, farmers, ranchers, and commercial and recreational fishers 
to find mutually beneficial solutions to complex land management and 
resource issues. This approach is producing encouraging results in 
areas once paralyzed by dispute and mistrust.
    Expanding these efforts beyond their current recovery focus to find 
voluntary solutions to conserve healthy wild salmon rivers should be 
encouraged and enabled by Federal policymaking. The Salmon Stronghold 
Act will create the framework enabling key stakeholders to coordinate, 
cooperate, and innovate to implement science-based conservation and 
management plans in salmon strongholds.

The Model Works--The North American Salmon Stronghold Partnership
    Now in its fourth year, the Stronghold Partnership has demonstrated 
that a broad and diverse group of stakeholders is dedicated to ensuring 
that strongholds continue to provide valued ecological, economic, and 
cultural benefits. The first step in this partnership has been an 
ongoing effort among a diverse group of salmon experts to identify 
strongholds. Collaborating closely with Federal and state agencies and 
non-governmental organizations represented on the Stronghold 
Partnership Board, salmon experts operating at the watershed level have 
worked diligently to score and rank their wild populations. This 
collaborative effort, which continues to take place throughout the 
salmon bearing states, has not only ensured that strongholds are 
identified accurately but also yielded a broad understanding among 
local partners of the goals of the Salmon Stronghold Act.
    The ``watershed-level'' buy-in that this collaborative process has 
fostered allows stakeholders in identified strongholds to leverage 
stronghold designation, and access resources provided under the Act to 
achieve local conservation goals. This has already been demonstrated as 
partners in several pilot strongholds have actively sought to 
participate in the program, and begun to leverage stronghold status to 
identify critical needs, determine conservation strategies, and 
implement innovative projects. Technical and financial resources made 
available as a result of the Stronghold Act will provide vital support 
to these local and regional partners, ensuring that preventative 
strategies reach the ground.

The Salmon Stronghold Act--What Difference Will It Make On The Ground?
    Given the significant Federal resources already invested in salmon 
conservation, partners introduced to the Stronghold Partnership 
regularly ask what needs the Partnership--and the Act which supports 
it--meet that cannot be met through other programs.

  <bullet> First and foremost, the Board will focus resources provided 
        under the Act on activities that promote the development and 
        implementation of prevention-based strategies in strongholds. 
        These proactive approaches to salmon conservation will 
        explicitly complement the restoration-based principles advanced 
        through current Federal investments in recovery.

  <bullet> Second, the Salmon Stronghold Act authorizes technical and 
        financial support to advance cross-cutting, programmatic 
        initiatives. Programmatic initiatives include the development 
        and refinement of conservation policies and management 
        strategies that address threats and reduce limiting factors 
        across multiple strongholds.

  <bullet> Third, the Act will direct the Federal agencies to help lead 
        and coordinate the development and implementation of prevention 
        based strategies and programmatic initiatives.

Prevention-based Strategies in and across Strongholds
    In the Pacific Northwest, partners in several salmon stronghold 
river basins have already identified specific needs that must be met in 
order to prevent the decline of healthy watersheds and strong salmon 
populations. However, the very fact that these rivers are ``healthy'' 
today has made it extremely challenging for local partners to garner 
the resources necessary to meet these needs. For example, the 
magnificent Smith River in Northern California has united a broad and 
diverse group of stakeholders to maintain its outstanding water quality 
and habitat, yet the Smith rarely qualifies for Federal or state 
funding because it has few species (one) listed as endangered, and it 
is not included on the 303(d) list of impaired water bodies. As a 
result, because the basin is ``too healthy'', local stakeholders cannot 
obtain sufficient funding to even conduct baseline escapement 
monitoring, which is vital to determining the amount of salmon 
returning from the ocean to the river to spawn. This lack of funding 
impedes fish managers' ability to set conservation-minded harvest 
levels and establish science-based escapement targets. These conditions 
prohibit the State from ensuring that appropriate management strategies 
are in place to conserve strong populations.
    The extraordinary coastal rivers of Washington's Olympic Peninsula 
provide another example of this gap in Federal salmon policy. Home to 
five species of Pacific salmon, which inhabit some of the healthiest 
watersheds in the lower 48 states, no comprehensive watershed plan 
exists to conserve the Peninsula's salmon populations. Localized plans, 
such as those formulated by the Quileute and Quinault Tribes and local 
Lead Entities, are severely underfunded because partners cannot 
leverage the crisis conditions necessary to prompt Federal investment.
    Only through monitoring and careful planning can partners in 
strongholds identify the preventative measures necessary to safeguard 
the health of functioning watersheds. This Act will enable partners to 
garner sufficient funding to identify conservation needs in stronghold 
basins and ensure that the management strategies are in place to 
maintain currently strong salmon populations into the future. If 
prevention is not supported now, emerging threats like development and 
climate change will surely require that we pay more in the future to 
restore what has been lost.

Programmatic Initiatives to Address Challenges across Multiple Basins
    While watershed level conservation strategies are critical, many 
challenges faced by salmon managers are more effectively addressed 
through policies which accelerate the development and implementation of 
conservation strategies across a much larger range. This approach is 
sorely lacking within the current portfolio of Federal salmon 
conservation grant programs, which focus heavily on implementing 
strategies at the watershed scale (for example, PCSRF funds are 
allocated on a state by state basis, each state allocates funds to 
recovery basins for habitat protection and restoration actions, and 
priorities are determined by each recovery basin, e.g., Lead Entities 
in WA.) The Salmon Stronghold Act advances a broader range-wide 
approach through its support for programmatic initiatives. Programmatic 
initiatives catalyze innovative approaches to proactively respond to 
emerging threats, reform inefficient policies, and integrate management 
strategies. Three examples of these are described below. Note the broad 
range of challenges presented in these examples, which indicate the 
potential of programmatic initiatives to address both the root causes 
of conditions that limit populations today as well as threats to 
populations in the future.
    Climate Change. Perhaps no greater threat challenges the health of 
Pacific Salmon across their range than climate change. The 
establishment of a network of salmon strongholds supported under the 
Salmon Stronghold Act will ensure that strongholds are maintained as 
core centers of abundance and genetic diversity. Maintaining diversity, 
scientists tell us, may be the key to ensuring species' resilience over 
the long-term in the face of changing watershed conditions. Although 
the Federal Government currently supports climate change research, no 
forum and few resources exist to translate ongoing climate change 
research into policies that are targeted to wild salmon conservation. 
For example, current research into ``downscaling'' regional climate 
change impacts will be vital to helping researchers evaluate impacts 
across strongholds. Because of its focus on inter-agency coordination, 
the Stronghold Partnership provides an extraordinary forum to apply 
this emerging research to develop and recommend the policies necessary 
to safeguard strongholds and promote resilience among strong wild 
salmon populations.
    Innovative Demonstration Projects. Cross-cutting initiatives funded 
under the Act may include pilot projects that, if replicated 
successfully, would address challenges faced by multiple strongholds. 
On the north coast of Oregon, for example, strong salmon populations 
are threatened by unsustainable harvest levels in the Tillamook-Clatsop 
State Forest, an area encompassing over one half million acres of 
extraordinary salmon habitat. The high harvest is driven by the 
reliance of local county budgets on revenues derived from logging. A 
broad consortium of stakeholders convened by Wild Salmon Center is 
working with local and state leaders, industry, and NGO partners to 
identify revenue that could be generated from non-extractive uses of 
the forest. By recognizing the value of--and generating revenues from--
watershed services like clean water and carbon sequestration, local 
counties could offset decreases in timber receipts resulting from 
reductions in harvest to sustainable levels.
    This promising idea has been applied to other resource management 
challenges that have not involved salmon conservation. Unfortunately, 
funding to further develop the concept in Oregon and elsewhere is 
limited because few, if any, Federal or state grant programs can 
provide the funds necessary to demonstrate the concept. Because of the 
Stronghold Partnership's commitment to support policy innovations that 
address the root causes of watershed degradation, this approach could 
be demonstrated in Tillamook and have widespread applications across 
other strongholds.
    Policy Reform to Accelerate Conservation. Countless local, state, 
and Federal resource management policies have unintended adverse 
impacts on the stewardship of salmon strongholds. One example is the 
permitting process which seeks to protect aquatic and wetland resources 
from development but often impedes locally-led habitat protection and 
restoration efforts. Under provisions of Section 7 of the Endangered 
Species Act, a Federal agency that funds or authorizes activities that 
may affect a listed anadromous fish species must consult with the 
National Marine Fisheries Service to ensure that proposed actions are 
not likely to jeopardize the continued existence of the species. While 
this regulation is necessary, its one-size-fits-all approach makes no 
accommodation for thoroughly reviewed activities proposed to enhance 
ecosystem function. Consequently, the permitting process often 
obstructs restoration project implementation due to the added expense 
and/or unmanageable duration of the application and review processes. 
Likewise, sections 401 and 404 of the Clean Water Act, which govern 
projects impacting wetlands and water quality respectfully, similarly 
do little to distinguish between permitting for potentially harmful 
development activities and habitat enhancement projects. These 
permitting processes often lead to significant delays, cost over-runs, 
and sometimes cancellation of valuable ecosystem enhancement projects.
    In recent years, conservation organizations, Federal agency 
personnel, and even Members of Congress have proposed streamlining the 
permitting processes to support conservation projects. Similar to the 
challenge of funding the activities described above, however, these 
efforts have been difficult to sustain among local watershed groups who 
are critical to the success of the process. If deemed a priority by the 
Board, funds provided under the Stronghold Act could support 
cooperative efforts underway in the states to streamline permitting, 
thereby accelerating the rate of conservation in strongholds.

Enhanced Coordination
    Since the life cycle of salmonids crosses public and private 
ownerships, political jurisdictions, and diverse ecosystems, a 
coordinated approach among Federal, state, and tribal governments, 
landowners, and non-governmental organizations is critical to 
successfully conserving and managing strong salmon populations. 
Unfortunately, Federal partners in stronghold basins currently have 
little guidance or ability to lead strategies like those described 
above, focusing instead on the reactive approaches to salmon 
conservation due to current mandates. With congressional direction 
under this Act, Federal partners who are now participating 
enthusiastically in the Stronghold Partnership will not be forced to 
leave the table to address recovery priorities, as proactive 
conservation and management of healthy wild salmon populations will 
become a complementary mandate to recovery for the agencies.
    This Act, therefore, will make existing efforts to protect healthy 
salmon ecosystems more effective by coordinating the entire family of 
Federal agencies and departments to take actions compatible with 
maintaining core areas of wild salmon abundance and diversity. For 
example, in the Pacific Northwest, the U.S. Forest Service is 
implementing an innovative policy to identify and manage ``key 
watersheds'' to maximize and protect valued ecological and economic 
resources produced from these areas. Several key watershed designations 
include salmon strongholds, yet many of these watersheds encompass 
other Federal and state landowners which do not adopt such preventative 
and far sighted strategies. Coordinated Federal leadership in these 
basins would amplify the benefits of the Forest Service's policy over a 
broader scale, increasing the efficiency and effectiveness of basin-
wide conservation planning.
    In addition, many landowners in stronghold basins are faced with a 
complex and overlapping array of existing incentive-based programs 
administered by multiple Federal and state agencies. This legislation 
will provide a forum, the Stronghold Partnership Board, for partners to 
coordinate these programs to bundle and deliver incentives in a more 
efficient and results-oriented manner.

International Cooperation
    This legislation will also help the U.S. promote the stronghold 
approach across the Pacific Rim. This is extremely important since 
salmon are highly migratory, with some species spending portions of 
their life history in the waters of other Pacific Rim nations. Because 
environmental conditions or human actions across the Pacific can have 
an impact on Chinook returns in Alaska, for example, salmon represent a 
global ``canary in the coal mine,'' integrating freshwater, estuarine 
and marine habitats into one enormous ecosystem. These 
interdependencies are recognized by the North Pacific Anadromous Fish 
Commission and the U.S.-Canada Pacific Salmon Treaty.
    The Salmon Stronghold Act will complement these official government 
bodies by establishing a civil society-led initiative to coordinate the 
creation of a Pan-Pacific network of salmon strongholds, stretching 
from Japan through the Russian Far East across British Columbia to 
California. This network will ensure the long term viability of wild 
salmon over a much larger spatial scale and will serve as a forum to 
share lessons learned and leading edge conservation science tools and 
methodologies with other nations. With strong Federal, state, tribal 
and non-governmental participation, this network will share experiences 
directly with local citizens in stronghold basins throughout the North 
Pacific.
    Other Pacific salmon countries are beginning to recognize the need 
to protect salmon strongholds and engage in the Partnership's efforts 
to conserve them. For example, Canada's Pacific Fisheries Resource 
Conservation Council adopted the stronghold approach and officially 
joined the Stronghold Partnership Board. Voluntary, incentive-based 
protection efforts are now underway in British Columbia's Harrison 
River, which was recognized as a salmon stronghold pilot site in 
February 2010.
    U.S. leadership in establishing a stronghold policy and program 
will help recruit supporters from other salmon-bearing nations, 
including promising initiatives underway in the Russian Far East and 
northern Japan. At the triennial ``State of the Salmon'' international 
congress, several leading voices for salmon conservation and 
sustainable management from other nations showed great interest in 
pursuing similar policies based on the proposed Salmon Stronghold Act 
legislation, so its enactment would further those efforts.

Conclusion
    Salmon strongholds offer our greatest hope of preserving the long 
term viability of wild salmon populations and the economic, ecological, 
and cultural values they sustain. In the face of climate change, 
development, and countless other threats on the horizon, Federal 
leadership through the Salmon Stronghold Act presents a long overdue 
approach to stem the tide of species extinction and loss. If we 
succeed, we will be leaving our children some of the most beautiful 
rivers and the miracle of healthy wild salmon runs, returning to the 
clear waters of home as they have for millions of years.
    I would like to express my support and appreciation for the 
leadership of Senator Cantwell in sponsoring this important 
legislation. The Salmon Stronghold Act has broad support throughout the 
western United States and we stand ready to do anything we can to help 
pass this Act into law. Thank you very much.
References Cited
    Augerot, X. 2005. Atlas of Pacific Salmon: the first map-base 
status assessment of salmon in the north Pacific. University of 
California Press, Berkley, California.
    Cederholm, C.J., et. al. 2000. Pacific Salmon and Wildlife-
Ecological Contexts, Relationships, and Implications for Management. 
Special Edition Technical Report, Prepared for D.H. Johnson and T.A. 
O'Neil (Managing Directors) Wildlife-Habitat Relationships in Oregon 
and Washington. Washington Dept. of Fish and Wildlife, Olympia, WA.
    Pinsky, M.L., D.B. Springmeyer, M.N. Goslin, and X. Augerot. 2009. 
Range-Wide Selection of Catchments for Pacific Salmon Conservation. 
Conservation Biology. 23: 680-691.
    Rahr, G. and X. Augerot. 2006. A Proactive Sanctuary to Anchor and 
Restore High-Priority Wild Salmon Ecosystems. Pages 465-489 in R.T. 
Lackey, D.H. Lach, and S.L. Duncan, editors. Salmon 2100: the future of 
wild Pacific salmon. American Fisheries Society, Bethesda, Maryland.

    Senator Cantwell. Thank you, Mr. Rahr, and thank you for 
your testimony.
    Ms. LaBorde, thank you for being here, and we look forward 
to your comments.

                   STATEMENT OF SARA LaBORDE,

               SPECIAL ASSISTANT TO THE DIRECTOR,

          WASHINGTON DEPARTMENT OF FISH AND WILDLIFE;

            AND CHAIR, SALMON STRONGHOLD PARTNERSHIP

    Ms. LaBorde. Madam Chair and members of the Committee, I 
appreciate the opportunity to appear. My name is Sara LaBorde, 
and I serve as Special Assistant to the Director of Washington 
Department of Fish and Wildlife, and I chair the North American 
Salmon Stronghold Partnership.
    My primary responsibilities at the department include 
statewide salmon recovery and implementation of hatchery and 
harvest reform.
    Today, I would like to share with you my perspective as a 
state fish and wildlife manager and someone who is engaged in 
trying to ensure that we have healthy salmon populations into 
the future.
    Ten years ago, as you know, the State of Washington faced 
the listing of salmon and steelhead populations throughout both 
Puget Sound and the Columbia Basin. The listing set in motion 
the most comprehensive and challenging recovery planning effort 
every accomplished in the United States.
    And since then, much has been accomplished that we can be 
proud of and hopeful for. There are six NOAA-approved salmon 
recovery plans built from the ground up involving literally 
thousands of citizens, local governments, State agencies, 
Federal agencies, citizens, and tribes. There are local systems 
in place developing, prioritizing salmon recovery projects to 
improve their watersheds. And throughout the Northwest, 
communities have developed a hands-on understanding that it 
takes working landscapes of farms and forests, protected 
critical areas, smart growth to deliver economic ecological 
benefits to their citizens.
    But with all of that, these communities have shown that 
they remain determined to demonstrate that they can live side 
by side with wild salmon. And while Federal policy and 
implementation of recovery plans keeps the focus on rebuilding 
the weakest links, it assumes that our most productive and 
healthy rivers are in no need to help to continue their role of 
sustaining our greatest salmon populations.
    Now, the Stronghold Act calls us to move in front of the 
listing curve, to protect and ensure that our most productive 
and healthy rivers stay that way. It calls us to complement 
recovery with effective preventive measures to ensure current 
economic benefits continue and to avoid the additional costly 
restoration in the future.
    As Chair of the North American Salmon Stronghold 
Partnership, I would like to tell you firsthand how encouraged 
and optimistic I am after seeing the enthusiasm, the 
commitment, the broad-based support of uniting public and 
private efforts to keep strongholds productive and healthy. We 
have met with tribal leaders, farmers, ranchers, local 
government officials, commercial recreational fishermen, 
hunters, conservationists. We hear one constant theme, that 
these places are healthy because the vast majority of people 
who live, work, and recreate there value them.
    The Stronghold Act includes these important stronghold 
watersheds and communities in our salmon recovery picture. It 
builds the tools and support they need to be successful.
    We support the Act for a number of reasons.
    One, it is not duplicative. It builds on our history and 
capitalizes on the decade's work and the current delivery and 
accountability system.
    It works at the watershed level and requires local buy-in, 
using strong science and having local stakeholders opt in to 
participate.
    It establishes a multi-State organization to address issues 
that cannot be dealt with watershed by watershed, and it gets 
at larger more pervasive issues like climate changes, as well 
as what does it really take to keep landscapes working.
    It accelerates an integrated approach that we have learned 
is the only way to deal with salmon recovery, which is to 
involve habitat hatcheries, harvest, and hydro managers to 
develop solutions.
    It furthers the voluntary incentive-based approach that we 
know works and it leverages private dollars toward highest 
priority conservation actions.
    And last, it enacts Federal policy to identify and protect 
salmon strongholds. It completes the picture of salmon 
conservation and management.
    So I urge you to join every West Coast State and the 
diverse and growing number of local, regional, and national 
organizations in supporting the Pacific Salmon Stronghold 
Conservation Act of 2009 by passing this bipartisan bill out of 
subcommittee.
    Thank you for this opportunity to testify. I would be glad 
to answer any questions later.
    [The prepared statement of Ms. LaBorde follows:]

Prepared Statement of Sara LaBorde, Special Assistant to the Director, 
     Washington Department of Fish and Wildlife; and Chair, Salmon 
                         Stronghold Partnership

    Madam Chairman, members of the Committee, I appreciate the 
opportunity to appear before you today to provide my views on the 
Pacific Salmon Stronghold Conservation Act (S. 817).
    My name is Sara LaBorde and I serve as Special Assistant to the 
Director of Washington Department of Fish and Wildlife (``WDFW'') and 
Chair of the Salmon Stronghold Partnership. My primary responsibilities 
at the Department of Fish and Wildlife concern statewide salmon 
recovery and hatchery and harvest reform implementation. Prior to this, 
I served as Regional Director for WDFW's Coastal and Hood Canal region, 
Special Assistant to the WDFW Commission, as well as the Public 
Involvement Coordinator. I have worked for WDFW for over twenty years. 
However, I began my career with the Wisconsin Department of Natural 
Resources restoring trout streams and improving state forestlands. 
Before moving to Washington, I spent 3 years with the Oklahoma 
Department of Wildlife Conservation starting their wildlife education 
program and Project WILD.
    Today, I would like to share with you the perspective from a state 
fish and wildlife manager and someone who has been engaged with the 
Salmon Stronghold Partnership from the outset. Principally, I hope to 
address:

        1. The need and opportunity to ``complete the picture'' in 
        salmon management and conservation by explicitly supporting 
        voluntary, incentive-based protection and restoration of our 
        healthiest remaining wild salmon populations; and

        2. How the Pacific Salmon Stronghold Conservation Act of 2009 
        (``Salmon Stronghold Act'') will assist Washington State and 
        others' efforts to integrate fish management and conservation 
        into a comprehensive and holistic ``All H'' framework.

Federal Policy to Identify and Protect Salmon Strongholds Will 
        ``Complete the Picture'' of Salmon Conservation and Management
    Current Federal salmon policy recognizes the need for international 
cooperation on this highly transboundary species through the U.S.- 
Canada Pacific Salmon Treaty (creating the Pacific Salmon Commission to 
implement the treaty and advise on harvest allocation and related 
management issues) and the North Pacific Anadromous Fish Commission 
(ban on North Pacific high seas salmon fishing). Federal policy also 
shapes salmon conservation and management through the Endangered 
Species Act, funded in large part through the Pacific Coastal Salmon 
Recovery Fund.
    While each of these Federal mandates and authorities fulfills an 
important piece of national salmon policy, there is a compelling need 
to also enact a Federal policy to support the identification, 
protection and restoration of our healthiest remaining wild salmon 
ecosystems--``salmon strongholds.'' As I will explain, protecting our 
strong populations and the functioning watersheds they support restores 
to prominence a fundamental tenet of conservation biology--to conserve 
core centers of species abundance, productivity, and genetic diversity.

A Sharp Focus on Wild Salmon Strongholds
    The purpose of the Salmon Stronghold Partnership is to identify and 
protect a network of the healthiest remaining wild Pacific salmon 
ecosystems in North America to ensure the long-term survival of salmon 
and the many species that depend on them. The Stronghold Partnership is 
a voluntary, incentive-based initiative intended to complement ongoing 
ecosystem protection and restoration efforts by providing leadership, 
enhanced coordination, and public and private resources to support 
strategies that prevent declines in the health of salmon strongholds. 
The Partnership includes Federal, tribal, state, and local governments 
and nonprofit organizations who are working collaboratively on salmon 
conservation activities across Washington, Oregon, Idaho, California, 
and Alaska.
    The Salmon Stronghold Act will provide a high-level forum to 
improve coordination among key public and private actors, address 
cross-cutting issues affecting multiple strongholds, and leverage 
private funds to implement high value conservation actions within 
strongholds. Our goal is to improve policies affecting strong salmon 
populations and deliver public and private resources as efficiently as 
possible directly to local entities implementing protection and 
restoration actions.

        The Salmon Stronghold Act will assist state governments like 
        Washington State to accelerate implementation of a holistic, 
        comprehensive salmon conservation and management approach that 
        integrates all the ``H's'' (habitat, harvest, hatchery and 
        hydro).

    State and tribal salmon management has been focusing on developing 
ways to protect wild populations while harvesting hatchery fish. This 
focus on meeting conservation needs and harvest goals for a variety of 
stakeholders has led us to understand the importance of all the H's: 
habitat, hatcheries, harvest and hydropower--working together to 
implement ecosystem-based wild salmon goals. Washington's experience 
and experimentation in this area is instructive, with its tribal and 
state co-managed salmon fisheries and presence of both ESA-listed and 
non-listed wild salmon stocks.
    Recently, the Washington Department of Fish and Wildlife adopted an 
integrated ``All-H'' management framework to overcome the historic 
``silo'' approach to determining harvest, hatchery and habitat 
strategies and approaches. Identifying strongholds and coordinating 
Federal efforts with state, tribal and private ones will fill a hole in 
salmon protection and restoration for populations critical to 
maintaining the long term abundance and diversity of wild stocks. 
Stronghold sites, and the organizational capacity provided by the make-
up of public and private actors engaged in the Salmon Stronghold 
Partnership, provide an ideal venue to pilot salmon policy integration 
strategies, in addition to accelerating ongoing protection and 
restoration actions in these systems.
    In its recent review of all of Washington's hatchery programs, the 
Congressionally-sponsored Hatchery Scientific Review Group (HSRG) 
concluded that:

        (a) Hatchery and harvest reforms alone will not achieve 
        recovery of listed populations (habitat improvements are also 
        necessary), and

        (b) The effectiveness of habitat actions will be greatly 
        increased if they are combined with hatchery and harvest 
        reforms.

    Under the HSRG assumptions, analysis of the ``Primary'' populations 
in the Lower Columbia Chinook Evolutionary Significant Unit suggests 
that the benefits of habitat quality improvements would more than 
double if combined with hatchery reforms. The Salmon Stronghold Act 
will provide the focus and forum to bring these elements together for 
strong populations (see www.hatcheryreform.us; Columbia River Hatchery 
Reform Project; Final Systemwide Report, p. 12).

        Salmon Conservation and Management requires system-wide, cross-
        cutting policy coordination and harmonization. The Salmon 
        Stronghold Partnership provides a unique cooperative forum for 
        public and private stakeholders to improve our salmon 
        management and conservation policies.

    The salmon lifecycle crosses freshwater and marine domains, 
political boundaries, and land ownerships. Salmon challenge our 
commitment to ``eco-system based management'' in practical ways, not 
the least of which is to align the policies and approaches of our 
Federal land managers and regulatory bodies to ensure compatibility 
with state and local salmon conservation and management objectives. 
Existing Federal salmon policies and the important role that Federal 
land managers and regulators play in salmon strongholds makes the 
Federal Government a critical partner in this arena.
    State managers consider better Federal, state and local policy 
coordination and implementation at a broad, regional scale a major need 
and opportunity addressed by the Salmon Stronghold Act. Many challenges 
and threats exist that transcend watershed boundaries and exacerbate 
existing problems that limit populations within a particular basin. 
Unlike basin-specific limiting factors, however, which often require 
``on-the-ground'' solutions implemented at the watershed or reach 
scale, challenges like climate change can be more effectively addressed 
through ``programmatic remedies'' that can reach across multiple 
strongholds. In many cases, programmatic remedies can be tested and 
demonstrated in strongholds and then replicated in others.
    Because most Federal and state salmon conservation programs focus 
financial and technical support on specific watershed level restoration 
strategies, programmatic solutions are often difficult to design and 
finance under existing programs. This is especially true for new and 
innovative approaches or policies that are untested, but may be 
applicable and effective across multiple basins. This Act will enable 
the Salmon Stronghold Partnership to support programmatic remedies that 
reach across multiple strongholds by integrating government policies 
and programs while recommending specific reforms where appropriate. By 
facilitating improved policy integration, innovation, and targeted 
reforms, the Stronghold Partnership can remove obstacles to and 
increase the effectiveness of existing salmon conservation and recovery 
efforts. The ``All-H'' integration strategy described above is an 
excellent example of a broadly supported programmatic remedy that can 
be championed by the Stronghold Partnership. A few additional examples 
of necessary programmatic initiatives that have been raised by our 
partners include:

        1. Promote climate change mitigation strategies in salmon 
        strongholds

    Leading scientists tell us that intact, functioning ecosystems are 
critical to mitigating the impacts of climate change on wild salmon 
populations. Because salmon are an inherently resilient and adaptive 
species, strong populations provide the diverse genetic reservoirs 
necessary for the species to adapt to changing watershed conditions 
across their large region. However, in order to adapt, these 
populations require complex, intact habitats that maintain their 
diversity. The Salmon Stronghold Partnership provides an ideal 
voluntary, incentive-based vehicle to develop and pilot climate change 
mitigation strategies at a meaningful, multi-state regional scale. As 
climate change science continues to improve, mitigation strategies are 
being developed, but few if any of these focus directly on promoting 
salmon resilience. Because the Stronghold Partnership has explicitly 
recognized the role of strongholds in buffering the impacts of climate 
change on salmon, it is uniquely positioned to translate emergent 
climate change science into management and policy.

        2. Integrating working landscapes and salmon conservation

    In Washington and elsewhere in the West, public-private 
partnerships are emerging to devise new approaches to sustaining 
working landscapes while promoting watershed conservation. The 
Stronghold Partnership will support a variety of innovative approaches 
that advance this objective, ranging from those that leverage market 
forces to incentivize salmon conservation to those that reduce the 
adverse impacts of historic settlement and development patterns. In 
Washington's Wenatchee Basin, for example, land use is driven by a 
patchwork of local, state, Federal, and private land ownership. This 
ownership pattern and the inefficiencies it promotes present challenges 
for both private landowners--who struggle with inefficient fire 
management, invasive species control, and trespass--and the 
conservation community, which must contend with spatially inconsistent 
implementation of conservation plans. Because salmon use of a wide 
variety of aquatic habitats throughout a watershed, landscape 
fragmentation undermine both the watershed's restoration potential and 
the health of its wild salmon populations.
    Neither the agricultural community nor conservation interests in 
the Wenatchee basin have been able to address fragmentation. Under this 
Act, the Salmon Stronghold Partnership Board could both elevate this 
issue as a priority amongst Federal agencies and provide funding to 
local partners to initiate a project to work with local landowners, 
local, state and tribal governments to address this important issue. 
The Board could replicate this approach throughout strongholds. In 
doing so, the Board would not only address a key limitation to long 
term stronghold health, but also promote efficiencies across many of 
the west's working landscapes.

A Winning Strategy for Wild Salmon
    The Board and many partners of the Salmon Stronghold Partnership 
are enthusiastic about increasing our attention on the Nation's 
healthiest wild salmon populations. We all know that prevention will 
save money, avoiding costly restoration. We also know that success will 
require the sustained commitment and leadership from a diverse group of 
public and private interests, whose equal roles must be acknowledged 
and empowered by our Federal Government.
    The Salmon Stronghold Partnership program relies on science and 
conservation biology principles to identify healthy stronghold 
populations and high value conservation needs for these populations. 
While we use science to identify the stronghold populations, the 
allocation of project funding requires local buy-in and support. This 
is designed to ensure a true partnership among local, state, Federal 
and tribal governments, private landowners, and non-governmental 
organizations working together to successfully conserve healthy wild 
Pacific salmon populations.
    The Salmon Stronghold Act will demonstrate the Federal Government's 
recognition of this shared undertaking and the solid scientific 
foundation upon which it rests.
    I urge you to join me, every Pacific salmon state and a diverse and 
growing number of local, regional and national organizations in 
supporting the Pacific Salmon Stronghold Conservation Act of 2009 by 
passing this bipartisan bill. On behalf of the Washington Department of 
Fish and Wildlife and the Salmon Stronghold Partnership, I would like 
to thank you for the invitation to submit testimony and participate in 
today's hearing, and for your time in consideration of these issues.

    Senator Cantwell. Thank you very much.
    Mr. Childers, thank you for being here. Welcome.

             STATEMENT OF JOE CHILDERS, PRESIDENT, 
                   UNITED FISHERMEN OF ALASKA

    Mr. Childers. Thank you, Madam Chair, members of the 
Committee. I am Joe Childers, President of United Fishermen of 
Alaska. UFA is an umbrella association representing 37 member 
fishing associations that collectively represent every gear 
group and every species commercially fished in every region of 
Alaska.
    Commercial salmon fisheries employ approximately 20,000 
fishermen and crew who actively harvest five species of salmon. 
These salmon fisheries produce over $3 billion in first 
wholesale value and are the major employer in the broader 
Alaska seafood industry that all together provides 78,000 jobs 
and 60 percent of U.S. wild seafood production. There are 
salmon permit holders from 48 different States and over 2,300 
permitted salmon skippers from the States of Washington, 
Oregon, and California. Thousands more crew and processing 
workers from throughout the United States depend on the 
sustainability of Alaska's salmon fisheries. The summer salmon 
season provides the only opportunity in many communities of 
coastal Alaska for any sort of cash income. In addition, the 
shear volume of activity creates an economy of scale that 
provides for freight rates that allow for much-needed supplies 
and fuel to be brought into many of the remote places in 
Alaska. Indeed, salmon and other large fisheries in Alaska are 
largely responsible for keeping the cost of foodstuffs, 
consumer goods, and energy affordable throughout Alaska.
    Alaska produces over 44 percent of the total world 
production of wild salmon. There are thousands of pristine 
watersheds in Alaska that together produce this incredible 
volume of salmon with such tremendous biodiversity. Salmon 
returns support most of Alaska's wildlife. When bears, otters, 
wolves, and other animals bring fish ashore, the parts they 
leave behind are a primary source of nutrients for Alaska's 
forests. Without salmon, a major part of Alaska would have 
little value to Alaskans or to the rest of the Nation.
    Our pristine watersheds are the key to our long history of 
sustainability in our fisheries, but things may be on the brink 
of changing quickly. Right now, we are seeing a rapid expansion 
in our population in Alaska, coupled with a greatly expanded 
demand on resources. Alaska's river systems are used 
increasingly by personal use, subsistence, guided and unguided 
recreational fishermen.
    Requests for expanded fishing access in riparian and upland 
areas along previously remote watersheds is very worrisome to 
members of UFA. We hold that the long-term ability for our 
river systems and watersheds to sustain healthy returns of 
salmon relies in part on their ability to be protected from 
people's insatiable desire to access waterfront areas and 
harvest fish and use the waters for recreational, industrial, 
and municipal purposes.
    Climate change may have significant and potentially 
irreversible negative impacts. These impacts are not caused by 
fishermen or by the fishing industry and no amount of 
mitigation by the Alaska fishing industry can reverse the 
potential impacts of climate change.
    We are experiencing an increase in mining interest in 
Alaska. Mines are commonly located in salmon stronghold 
watersheds. The impact of developing mining infrastructure 
causes great concern by itself, but potentially more worrisome 
is the likelihood that mine development will provide expanded 
opportunity for our growing population to access more of the 
currently pristine waterways in Alaska. One such project is 
located at the very top of the watershed for one of the largest 
salmon watersheds in the world. Mine development may proceed 
because of the lure of hundreds and thousands of construction 
jobs and the associated increase in taxes, but the risk of 
expanding access for many thousands of people to the headwaters 
of Bristol Bay forever is truly frightening. The Bristol Bay 
watershed has sustained an active commercial fishery for over 
100 years, and in 2009 it was at all-time high levels of 
abundance.
    We must learn from other areas. It will be far more 
economical to protect salmon strongholds before we wreck them 
than it will be to try to fix and recover them.
    We support the concept of Senate Bill 817 of identifying 
salmon strongholds and the threats to them. We support creating 
a structure with funding to ensure that we are doing everything 
we can to sustain and restore salmon where necessary.
    UFA maintains firmly that the makeup of the Salmon 
Stronghold Partnership Board must include not less than four 
representatives of commercial fishing organizations, at least 
one from each of the Pacific states.
    UFA recommends that funding for potential future programs 
be appropriated in addition to and not at the expense of other 
ongoing management efforts.
    We applaud you, Madam Chair, for uniting the eight West 
Coast Senators in co-sponsorship of Senate Bill 817.
    We regret that only Alaska can be recognized as a regional 
stronghold in this legislation. We hope this bill will ensure 
that the regional stronghold status will not change in Alaska, 
and we also hope that remaining strongholds in Washington, 
Oregon, California, and Idaho can be conserved. We hope that 
this bill will help ensure that we learn from the past, and 
together we share in the bounty of Pacific salmon.
    Thank you.
    [The prepared statement of Mr. Childers follows:]

  Prepared Statement of Joe Childers, President, United Fishermen of 
                                 Alaska

    Good morning Madam Chair and members of the Committee.
    I am Joe Childers, President of the United Fishermen of Alaska 
(UFA). UFA is an umbrella association representing 37 member fishing 
organizations that collectively represent every gear group and every 
species commercially fished in every region of Alaska.
    Commercial salmon fisheries employ approximately 20,000 fishermen 
and crew who actively harvest five species of salmon, Chinook, Sockeye, 
Coho, Chum, and Pink. These salmon fisheries produce over $3 billion in 
first wholesale value and are the major employer in the broader Alaska 
seafood industry that altogether provides 78,000 jobs and 60 percent of 
U.S. wild seafood production. There are salmon permit holders from 48 
different states, and over 2300 permitted salmon skippers from the 
states of Washington, Oregon, and California. Thousands more crew and 
processor workers from throughout the U.S. states depend on the 
sustainability of Alaska's salmon fisheries. And the summer salmon 
season provides the only opportunity in many communities of coastal 
Alaska for any sort of cash income. In addition the shear volume of 
activity creates an economy of scale that provides for freight rates 
that allow for much needed supplies and fuel to be brought into many of 
the remote places in Alaska. Indeed salmon and the other large 
fisheries in Alaska are largely responsible for keeping the cost of 
foodstuffs, consumer goods, and energy, affordable throughout Alaska.
    Alaska produces over 44 percent of the total world production of 
wild salmon. There are thousands of pristine watersheds in Alaska that 
together produce this incredible volume of salmon with such tremendous 
biodiversity. Salmon returns support most of Alaska's wildlife. When 
bears, otters, wolves, and other animals bring fish ashore, the parts 
they leave behind are a primary source of nutrients for Alaska's 
forests. Without salmon, a major part of Alaska would have little value 
to Alaskan's or to the rest of the Nation.
    Our pristine watersheds are the key to our long history of 
sustainability in our fisheries, but things may be on the brink of 
changing quickly. Right now we are seeing a rapid expansion in our 
population in Alaska coupled with a greatly expanded demand on 
resources. Alaska's river systems are used increasing by personal use, 
subsistence, and guided and unguided recreational fishermen.
    Requests for expanded fishing access in riparian and upland areas 
along previously remote watersheds is very worrisome to members of UFA. 
We hold that the long term ability for our river systems and watersheds 
to sustain healthy returns of salmon relies in part on their ability to 
be protected from peoples' insatiable desire to access waterfront areas 
and harvest fish and use the waters for recreational, industrial, and 
municipal purposes.
    Climate change may have significant and potentially irreversible 
negative impacts. These impacts are not caused by fishermen or by the 
fishing industry and, no amount of mitigation by the Alaska fishing 
industry can reverse the potential impacts of climate change on salmon.
    We are experiencing an increase in mining interest in Alaska. Mines 
are commonly located in salmon stronghold watersheds. The impact of 
developing mining infrastructure causes great concern for us by itself, 
but potentially more worrisome is the likelihood that mine development 
will provide expanded opportunity for our growing population to access 
more of the currently pristine waterways in Alaska. One such project is 
located at the very headwaters of the single largest sustainable salmon 
watershed in the world. Mine development may proceed because of the 
lure of hundreds or thousands of mostly short term construction jobs, 
and the associated increase in taxes to local governments, but the risk 
of expanding access for many thousands of people to the headwaters of 
Bristol Bay forever, is truly frightening to many. The Bristol Bay 
watershed for example, has sustained an active commercial salmon 
fishery economy for over 100 years. The salmon returns there in 2009 
were at all-time high levels of abundance.
    We must learn from other areas--it will be far more economical to 
protect salmon strongholds before we wreck them, than it will be to try 
to fix and recover them.
    We support the concept within S. 817 of identifying salmon 
strongholds and the threats to them, and we support creating a 
structure with funding to ensure that we are doing everything we can to 
sustain or restore salmon where necessary, for the benefit of future 
generations.
    UFA maintains firmly, that the makeup of the Salmon Stronghold 
Partnership Board must include not less than four representatives of 
commercial fishing organizations--at least one from each of the Pacific 
states.
    UFA also recommends that funding for potential future programs be 
appropriated in addition to, and, not at the expense of, other ongoing 
management efforts for sustainable fisheries.
    We applaud you madam Chairman for uniting the eight west coast 
senators in co-sponsorship of S. 817.
    We regret that only Alaska can be recognized as a regional salmon 
stronghold in this legislation. We hope this bill will help to ensure 
that the regional stronghold status will not change in Alaska, and we 
also hope that remaining salmon strongholds in Washington, Oregon, 
California, and Idaho, can be conserved. We hope that this bill will 
help ensure that we learn from the past, and that together we share in 
the bounty of Pacific salmon.
    Thank you for this opportunity to testify, and I am available to 
answer any questions.
                                 ______
                                 
                               Attachment

            United Fishermen of Alaska Member Organizations
    Alaska Crab Coalition
    Alaska Independent Fishermen's Marketing Association
    Alaska Independent Tendermen's Association
    Alaska Longline Fishermen's Association
    Alaska Scallop Association
    Alaska Trollers Association
    Alaska Whitefish Trawlers Association
    Aleutian Pribilof Islands Community Development Association
    Armstrong Keta
    At-sea Processors Association
    Bristol Bay Reserve
    Bristol Bay Regional Seafood Development Association
    Cape Barnabas Inc.
    Concerned Area ``M'' Fishermen
    Cook Inlet Aquaculture Association
    Cordova District Fishermen United
    Crab Group of Independent Harvesters
    Douglas Island Pink and Chum
    Fishing Vessel Owners Association
    Groundfish Forum
    Kenai Peninsula Fishermen's Association
    Kodiak Regional Aquaculture Association
    North Pacific Fisheries Association
    Northern Southeast Regional Aquaculture Association
    Petersburg Vessel Owners Association
    Prince William Sound Aquaculture Corporation
    Purse Seine Vessel Owner Association
    Seafood Producers Cooperative
    Sitka Herring Association
    Southeast Alaska Fisherman's Alliance
    Southeast Alaska Regional Dive Fisheries Association
    Southeast Alaska Seiners
    Southern Southeast Regional Aquaculture Association
    United Catcher Boats
    United Cook Inlet Drift Association
    United Southeast Alaska Gillnetters
    Valdez Fisheries Development Association

    Senator Cantwell. Well, thank you all for your testimony 
and again for being here today and for your work in a 
comprehensive way to try to help tackle this important issue 
for us.
    I am going to start with you, Mr. Rahr, about this issue 
that you all kind of touched on about the endangered population 
and then the healthy population. Do you think that it is a 
fundamental flaw in our efforts to protect and restore wild 
salmon if we only focus on the endangered side of the equation?
    Mr. Rahr. I do not think that the Endangered Species Act 
alone is going to succeed in giving our kids the chance to have 
healthy wild salmon runs. I mean, it kicks in when the 
populations have already reached such low levels that many of 
the factors causing their decline are entrenched. So in 
addition to the ESA, we have to have a proactive strategy. 
History has shown--I mean, it is clear now that the cost of 
recovery is high. And so the cost of preventing those things 
that are driving the salmon down would be lower than the cost 
of having to recover them later.
    So, the ESA is important and necessary, but this is an 
important addition to that. It is almost like a stock portfolio 
where most of our stocks now are the high-risk and rather 
expensive and we need to balance that with a more strategic 
allocation of our resources. So an additional investment in 
protecting strongholds makes economic sense, and as Gordy 
mentioned, it is also a foundation of--it is supported firmly 
in science that you protect the best while you still can.
    I think that also it is worth adding that no matter what 
else we do, if we get this piece wrong, if we do not protect 
the strongholds, we will not succeed in having healthy wild 
salmon runs in 30 or 40 years. We have to get it right, and it 
is our best chance. So I think it is an important addition.
    Senator Cantwell. How is the stronghold addressing some of 
the specific root causes of the decline, as opposed to treating 
the symptoms?
    Mr. Rahr. Well, what it does is it basically protects--
gives you a chance to work with communities to protect forests 
and in-stream flow and wild populations. It enables you to 
identify and it gives us the chance to create those kind of 
partnerships to look into the future and see what is coming 
around the corner next and anticipate that, and, as Sara 
mentioned, while there still are people in the watershed that 
care a lot about it.
    So, for example, instead of having to replace the fish with 
a fish hatchery, if we succeed with the Stronghold Act, we will 
have free wild salmon coming back with a healthy wild salmon 
run. So it enables you to get ahead of the extinction curve.
    I am not sure if I am answering your question.
    Senator Cantwell. Well, Ms. LaBorde talked about not being 
able to address this watershed by watershed, that you needed a 
more comprehensive approach. Maybe she could elaborate on that.
    Ms. LaBorde. There are a number of issues that are bigger 
than watersheds like patchwork landscapes. You work with 
energy. You know how complex the county taxing systems and 
rural economies are in terms of what they depend on. So imagine 
these watersheds that have patchwork ownerships, large Federal 
owners, large state owners, large private owners, all with 
different mandates, all with different missions, with small, 
little local communities that depend on them and having those 
landscapes work. They are not always put together right for 
fire, for invasive species, for protecting critical natural 
resource areas. And the John Day, Wenatchee are all trying to 
grapple with this, but there is no elegant system that lets us 
look at that landscape and say how do we protect these areas, 
how do we deal with this ownership and still have a strong 
local economy, a tax base, a development piece, have critical 
areas protected.
    One of the priorities of the Stronghold Partnership is to 
look at that and come up with solutions that can elegantly work 
on all of those landscape properties and kind of rematch them 
in the right place. The State of Washington just did this with 
Washington DNR and Washington Fish and Wildlife, a 3-year 
process just to lay out what is forest lands, what is fish and 
wildlife lands, and how to work them correctly so that the 
landscape works better for both missions. That is one of the 
pieces that can go on here.
    Another big programmatic is climate change. How do we step 
back, bring the best science to the ground level? One little 
watershed cannot do that, and frankly, one state cannot.
    But this organization, when you put it together, has the 
right people at the table, every state agency, the Governors' 
offices, every state fish and wildlife agency, all the big 
Federal agencies, Forest Service, NOAA, U.S. Fish and Wildlife 
Service, USGS. They are all at the same table working on 
solutions to focus all of their priorities, and that is what we 
need to do if we are going to really tackle this idea of 
getting stronghold populations protected.
    Senator Cantwell. So you are saying coordination by 
interested parties on prevention.
    Ms. LaBorde. Yes.
    Senator Cantwell. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Madam Chair.
    Joe, if I can ask you a couple questions. Thank you very 
much for being here. Let me ask some Alaska-specific ones 
first.
    As we focus on preserving and prevention--actually I was 
very intrigued by the conversation that was just going on here. 
So I appreciated the idea of how we have responded to mostly a 
crisis moment rather than thinking long-term.
    But in Alaska, it is kind of an interesting situation. As 
we work to conserve our key production areas, what is the 
impact, do you think, to non-areas or areas we are not going to 
be highly focused on with this Act? Give me a feel. Will we 
create an imbalance or will we kind of be focused on one area 
and then forget about what is going on over here, Joe?
    Mr. Childers. Thank you, Madam Chair and Senator Begich.
    I am not certain I follow the question exactly, Senator, 
but I believe the question is since Alaska is all--basically 
all of our systems are salmon strongholds today--there are a 
few that we should probably be concerned about.
    Senator Begich. That is where I am trying to get to.
    Mr. Childers. I think that this legislation will provide 
the framework and the process for doing just that, I mean, to 
look at systems that are potentially at risk. I think that is 
what the value is.
    Senator Begich. I think you have answered it. Even though 
they are considered a stronghold, it is not necessarily that 
all are equal. Is that a fair statement?
    Mr. Childers. Madam Chair, Senator Begich, yes, that is 
exactly what it is. Not all systems are the same. Not all 
systems have the same degree of access or request for access.
    Senator Begich. In understanding that we have, again, a lot 
of strongholds and that our fishery is fairly strong in the 
sense of the quality and in the sense of the long-term ability 
for it to continue to move forward, how will this Act in your 
mind for Alaska's fisheries that I like to brag about--you had 
some good points in your commentary about the sustainability of 
it, as today, even though it is not salmon, we have read some 
more stuff about what is happening in Maine in some of their 
fisheries or their capacity. But in ours, which are very 
sustainable, how will this Act actually help us in the sense of 
moving forward? I think I know the answer to this, but I want 
to hear it from you. I mean, prevention is really the long term 
here.
    Mr. Childers. Well, Madam Chair, Senator Begich, Alaska 
depends to a great extent on its commercial fisheries. They 
have been ongoing for over 100 years, and they permeate the 
economy at levels that most people do not even recognize.
    The sustainability of the fisheries is what provides the 
predictability of the future for industry and for communities 
to build infrastructure and to make investments. And the 
predictability with the sustainability is what has allowed 
fishermen to buy into the very conservative management programs 
that we have in place and have had in place for Alaska for over 
50 years.
    Senator Begich. If I can, Madam Chair, just ask a couple 
more quick ones. Do you think as this Act moves forward, from 
Alaska's perspective and then in conjunction with the Northwest 
region, as you focus on the strongholds--and I actually like to 
use the word ``prevention'' because this is really what we are 
trying to do, is not get in the situation--you know, I turned 
on NPR today and I listened about the sardine industry, or no-
longer sardine industry in Maine closed its last plant today as 
an example--is the idea that as we work on kind of the crisis 
management, which will always be there in certain elements and 
certain species, that the long-term investment that we are 
going to make here and the cooperation, which I appreciated 
that conversation about all the different agencies and state 
layers and so forth working together, that the real goal here 
is to make sure that we have a balanced approach in our whole 
management of fisheries from a Federal level and not just on 
the ``wait until it turns into a crisis.'' Then throw tons of 
money at it and hope and pray it all works out. I am trying to 
summarize it in my own simplistic way to look at this.
    Mr. Childers. Madam Chair, Senator Begich, exactly. That is 
what it is. We have a great thing, and it is easy to overlook 
it sometimes I believe. The costs of letting it go away are 
incredible to Alaska.
    Senator Begich. And the last question and I will just leave 
it at this. Anyone who wants to comment on this, how you see 
this Act helping from an international perspective? As we 
develop and work on our strongholds here, how do we see the 
connection to the international fisheries? Because it is not 
just--I mean, obviously, we will be parochial for a moment 
here. Our fisheries are the most important. Of course, I would 
say Alaska's fisheries are the most important. But American 
fisheries are the most important. But how does it work from an 
international perspective? Whoever wants to respond to it.
    Mr. Rahr. I think I can speak to that. I think it is in our 
interest that the other nations of the north Pacific do not 
make some of the same mistakes we have made, not so much in 
Alaska, but other areas. I think we have an opportunity to help 
them learn from our successes and failures. We do not want 
history to keep repeating itself like it has along the Atlantic 
and much of the Pacific, especially in the Russian far east, 
for example, and even in Hokkaido and British Columbia to an 
extent also.
    So we have been engaging our partners in those nations to 
help them to create a kind of community of exchanging 
information, lessons learned. There are things we can learn 
from them. And it is in our interests, if not just for a food 
security issue, that they get it right. 40 percent or so of the 
salmon production comes from the Russian far east. You have got 
growing economies in Asia that are dependent on that protein 
and possibly us too. So I think we need to work with our 
neighbors and foster a sense of community. We share this great 
kind of arc, and I think they are exploring related strategies 
like the one we are talking about today.
    Senator Cantwell. Just to follow up on that question, Mr. 
Rahr, how in fact are at the center coordinating those efforts 
on an international basis, and what do you think their monetary 
contributions to this will be in the future?
    Mr. Rahr. Well, it is really early to be able to say. But 
we have been working with Russian scientists on helping them 
prioritize watersheds and set conservation goals and also 
learning some things from our Russian colleagues too. It has 
been a very fruitful exchange. One thing we have done--the 
concept of watershed councils that we developed in Oregon to 
help aid recovery, which could be an important part of the 
stronghold work--they are now exploring that on Sacland Island 
where they have a tremendous problem with poaching in the 
Russian far east. And so the communities are coming together to 
chase away the poachers.
    Now British Columbia is looking at adopting something 
similar to the Stronghold Act, recognizing that some systems 
are so important that they need to be elevated.
    Does that get to your question, Senator Cantwell? Were you 
looking from a strategic standpoint or more of a monetary 
standpoint?
    Senator Cantwell. A leveraged standpoint.
    Mr. Rahr. Yes, how we can leverage the conservation efforts 
in those nations.
    Senator Cantwell. Yes.
    Mr. Rahr. It has been very fruitful. By us doing this, it 
sends a clear example to those other nations that it is an 
opportunity for them too. I mean, they are watching us, and 
they see that some of the issues we have had to face over the 
last 50 years may be next for them. And so it is important that 
they can learn from that. This provides a useful model for 
them.
    Senator Cantwell. Do you have a question?
    Senator Begich. Just a quick thing on that just to follow 
up. Do you see them waiting for us to take an aggressive role 
before they--I think both getting at this is such a good method 
of thinking about the future rather than the crisis. Are they 
waiting for us to make the move to see how it works or does not 
before they make an aggressive move? I think that is where you 
were getting.
    Mr. Rahr. I cannot say that it is that explicit, but they 
are very interested in the approach and they are becoming 
increasingly aware of the danger of relying only on the 
endangered species approach. This is really relevant to Canada 
and the Russian far east. I have not heard any statements that 
they are waiting for us to move and then they will move. It is 
more, I would say--I mean, it is really a partnership.
    Senator Cantwell. Well, part of this is about leverage, and 
one of the things that the Pacific Coastal Salmon Recovery Fund 
has done is leveraged additional state dollars and local 
dollars. So do you think that this is the same way the 
stronghold would work in leveraging community and state support 
as far as dollars?
    Mr. Rahr. Oh, in the international context?
    Senator Cantwell. Well, now just talking locally for a 
second within the region.
    Ms. LaBorde. Actually I think it will even be more 
successful than PCSRF in leveraging dollars. What we have heard 
of--and Guido, you are probably a better expert on this--is the 
larger private funding sources are very interested in a 
stronghold approach. Bringing back listed species that are 
already down to 50, 75, 100 fish, a long-term investment. Will 
it ever happen? A huge lift. And ESA is working on that. They 
are much more interested in looking at how do you move forward 
on the stronghold piece and have really been supportive of 
being able to match public funds that come in inside watersheds 
to help them move forward with very concrete, specific goals 
and objectives that are very measurable. I think it is going to 
really leverage those funds.
    Senator Cantwell. How would we measure that? I mean, if you 
are saying there is a multiplier effect that is better than 
what they got, in these tough economic times, how would you 
show that support in advance? A demonstration of the interest 
in that level of support, I should say.
    Ms. LaBorde. The Moore Foundation is probably the premier 
private funder just on the issue of moving salmon and climate 
forward, right now, working with the Salmon Stronghold 
Partnership and the Wild Salmon Center to say, OK, can you get 
some Federal funds to help us now take this science to the 
managers and help apply it. We know enough that we can bring it 
into the decision process in some arenas. To me, that is the 
most exciting piece of a huge private funder stepping out in 
front of the issue, getting the best scientists in the 
Northwest together to look at this issue. Their findings will 
come out in April-May. Trout Unlimited is going to have some of 
their presentations at their May meeting. Just exciting work 
that will move all of us forward in how do we deal with salmon 
with climate change moving on. But it was that private money 
that leveraged all of that research forward.
    Mr. Rahr. Madam Chair, if I could add to that. The 
potential to lever private support, as Sara mentioned, is huge. 
This can create the framework that we can unlock that. What 
salmon systems have is people that really care about them, but 
it is important to create the conditions that we can use to 
unlock that.
    But one great example is on the Olympic Peninsula with the 
Ho River. It was in the Seattle Times day before yesterday that 
the Wild Salmon Center, other conservation groups worked with 
the Federal Government, state government, and timber companies 
to create a conservation corridor along the Ho River, which is 
one of the most important strongholds south of Canada. It is a 
relatively modest investment. The Ho, the habitat, is 
protected. The Ho Tribe has a source of wild salmon. The sport 
fishing community is vibrant. I mean, it really did work there. 
So there is an opportunity, a big opportunity, for leveraging.
    Senator Cantwell. But they, obviously, are seeking 
coordination for their interests. I mean, they want their 
dollars to be spent wisely, and that is why we are here with 
this legislation. Is that correct?
    Mr. Rahr. Well, yes.
    Senator Cantwell. Without a coordinated effort--which I 
wanted to go back to Dr. Reeves. You made this comment about 
intact networks, that you have to have these networks to have 
scale, that we have to be proactive about that because in 
response to change, we are losing some of that. Could you 
elaborate on that?
    Dr. Reeves. Yes. One of the things we need to recognize is 
that a salmon from one place is not the same salmon as from 
another place. These populations are really uniquely adapted to 
local conditions. Sometimes they can be large areas. Sometimes 
they can be small areas.
    And what allows them to be so well adapted to the local 
environment is their genetic and phenotypic diversity. What 
they need to be able to do is express that, have an environment 
in which those traits can be expressed. So what we need are 
these complex environmental places where you have a range of 
potential life history types or phenotypic types of fish to 
allow them to persist on the landscape because that is going to 
be the key response to change. Do we have that diversity out 
there? Do we have that potential for that to be expressed? And 
these intact networks--the more intact a watershed is, the 
ecosystem is, the more likely you are going to have that basis 
for these populations to respond to challenges in the future.
    Senator Cantwell. What are some of those things? I feel 
like I am going back to Ms. LaBorde when she talks about 
watersheds. But are some examples of those intact networks or--
sorry--conditions that would create an intact network?
    Dr. Reeves. Well, one would be just a variety of habitat. 
You have got flood plain habitats. You have got off-channel 
habitats. You have got diversity of habitats where different 
types of fish can persist. One would be that you have got a 
range of environmental gradients, say, from areas that are 
dominated by snow to areas that are dominated by rain. Within 
each of those, you are going to have really unique adaptation 
of these populations or within populations, and having that 
diversity of conditions on the ground--one of the things we 
tend to do is see systems become much more homogeneous rather 
than heterogeneous through activities. We tend to simplify 
them, and that simplification process then constricts or 
restricts the ability of these fish to express the different 
life history variation. And that inherent variation and the 
capability to express it is what is absolutely key to getting 
these fish through the challenges that they face in the future.
    Senator Cantwell. So what would be the example of 
difference in those networks, just for interest of the 
Committee between, say, Senator Begich's State and the State of 
Washington in some of those issues?
    Dr. Reeves. OK. Let me think about it.
    One is simply like with sockeye salmon, for example. You 
are going to see sockeye salmon in Alaska that may require the 
use of lakes to complete their freshwater life history cycle. 
At the same time, within that population, you may have sockeye 
salmon that are not requiring a lake and they can simply move 
straight--you know, what are called ``zero check fish.'' They 
can almost be moved down to the marine environment immediately 
or they can use river systems. So, you have that type of 
variation within the population.
    In the Northwest, a great example would be--the best 
example I can cite is on the Sixes River on the central coast 
of Oregon. And in that, what we have seen is there are five or 
six different life history types, everywhere from fish that 
leave immediately--these are fall Chinook and they can emerge 
from the gravel and they move immediately to the marine 
environment to fish that spend a whole year in fresh water and 
all within one population.
    And depending on the ocean conditions, one particular type, 
one of those sub-life history types, will be more successful 
than the other. So that variability allows the persistence of 
these populations. Again, that variability is premised upon the 
environment allowing those expressions to happen. And these 
intact watersheds are really key to maintaining that ability to 
express that variability.
    Senator Cantwell. And carrying that down the coast, what 
would California's issues be?
    Dr. Reeves. Oh, you know, some of the steelhead, for 
example. In steelhead, you have a range of life history 
expression, and you could have a resident rainbow trout giving 
rise to steelhead, and steelhead are the seagoing anadromous 
version of rainbow trout. But you can have resident 
populations. So by protecting that whole network, for example, 
and protecting the resident populations, you may actually have 
a source to jump-start the recovery of listed fish. Oftentimes 
what we are doing is we are just looking at the steelhead and 
we are saying, well, the other parts of the watershed may not 
be important, but the key to recovery of those steelhead may be 
those resident fish that we are not looking at. So, if you look 
at the whole watershed and the variability within it, that 
could be absolutely key and paramount to these recovery 
processes.
    Senator Cantwell. Thank you.
    Senator Begich, did you have further questions?
    Senator Begich. Maybe one or two, just very general for all 
four of you, if I could. Let us assume the perfect world, which 
the Chairwoman and I would love to live in, and that is, this 
bill passes right now. That would be the perfect world, that we 
can control that outcome and it happens. What would be the 
challenges that you would see based on this legislation for 
implementation on the ground? Because one thing we are very 
good at here, we try to work through all those elements, but it 
is hard once something hits the ground to understand what might 
happen from the people who practically have to deal with it.
    So maybe I will start with you, Dr. Reeves, and move down 
to Mr. Childers, if that is OK. Based on what we have here, 
what are going to be the challenges that we might have some 
impact on or we may not, but it is something we have got to 
think about as we move this forward?
    Dr. Reeves. Well, I think from a science perspective, the 
main challenges would be getting people to understand what new 
science needs to be brought to bear. Having people consider 
entire watersheds and the ecological processes within them is 
potentially a major hurdle. Right now----
    Senator Begich. If I could interrupt. The discussion we 
just had here, for example, of the different watersheds and the 
impacts on them.
    Dr. Reeves. Yes. So we are going to have to have a major 
shift. In much of the conservation community right now, our 
restoration efforts are focused on relatively small segments of 
stream, and they are dealing with basically improving that 
small segment. I think what this legislation and the ideas 
behind it point to is you need to think about the ecosystem and 
the ecological processes in maintaining and restoring those 
because that is going to be the key, I would argue, to the 
protection and recovery of these fish.
    Senator Begich. Thank you.
    We will kind of move down the line here. And if you do not 
have a comment, that is OK too.
    Mr. Rahr. Well, I will add one. I think it is important 
that we are able to develop and implement efforts that we can 
measure impact of over long periods of time that are really 
going to stick and not allocate our resources to things that 
are ephemeral and really get at some of the things that are 
necessary that we have to do to protect these systems. So that 
is going to be a challenge and it is going to take the 
cooperation of our partners at the local level to think big and 
think long-term and think of stuff that is really going to 
stick, not stuff that we would like to do, but stuff that we 
have got to do. That is more of a conceptual response.
    Senator Begich. If I can just ask a question before I move 
down the line here. Do you think the partners have the capacity 
to do that? Let me put it another way. Could they have capacity 
to do it?
    Mr. Rahr. Yes. The beauty of the stronghold strategy is 
these places are still functioning and so it has not really 
happened yet, otherwise they would not qualify. So you have a 
chance to get the community to say what do you want this place 
to look like in 40 years, which is a completely different way 
of thinking about what you want it to look like tomorrow. Once 
it drifts down the road toward decline, then you kind of get a 
shifting baseline thing and people have a different reality. So 
I mean, that is both a challenge and an opportunity to think 
long-term.
    Senator Begich. Very good. Thank you.
    Ms. LaBorde. I think the biggest challenge would be you 
holding us back because we are ready to go. With 11-12 years of 
salmon recovery, we know how to make things work at the 
watersheds. We know what it means to have a locally-based 
decision and process, and they are cranked up and ready to 
focus.
    Environmental capacity they have. Funding capacity--the 
State agencies, every one of them--you know their economic 
situation. So there will be a staff capacity. It will be hard 
to have staff to engage to be able to push the process and 
provide the technical assistance at the local level. But we 
have priorities identified. We have worked with local groups. 
We are excited to move this forward.
    Senator Begich. Very good.
    Mr. Childers?
    Mr. Childers. Thank you. In Alaska, it is quite a bit 
different. Basically in Alaska, we have inholdings of society 
surrounded by salmon strongholds. So it is quite a bit 
different. The issue that we are faced with really is the fact 
that since Alaska became a state and--well, since statehood, 
for certain, the fish have always come first, and now we are at 
a point where we may be looking at allocation issues for just 
allocation. Without being well enough educated--and I think 
that the population of Alaska needs to have this kind of an 
approach to be brought forward so that people begin to 
recognize just what sort of beauty there is in these salmon 
strongholds and what we would lose if we do not have them and 
also recognize that by not doing this, it is very clear what 
will happen ultimately. We will look just like everywhere else 
in the world. And we can do it probably faster now than we have 
ever been able to do it before. That is really frightening.
    Senator Begich. Very good.
    Senator Cantwell. Go ahead.
    Ms. LaBorde. Well, Senator, I think it comes down to the 
fact that this Act is founded on a couple key principles. One, 
salmon is a great critter. It adapts and it comes back. And if 
we can work in healthy systems that have the functioning pieces 
that salmon need and we also then--so we believe in the fish. 
We believe in the people, and we believe in the fishermen to 
make this all work. And that is what we believe that will make 
this successful.
    Senator Begich. Very good. Thank you very much.
    Senator Cantwell. That is almost a great ending note, but I 
have a few more questions.
    [Laughter.]
    Senator Cantwell. This is so important because we are going 
to get into this discussion about the Recovery Fund from our 
colleagues and the amount of money and all of this. And I want 
to make sure that we are well prepared to answer this.
    So, Mr. Childers, if we do not give more attention to the 
salmon--with Alaska being one-third of the population, if we do 
not give more attention to strongholds, will that not be a 
threat then to the Alaska population? I mean, will we not 
really be--I mean, is it not almost just too important to be 
taken for granted?
    Mr. Childers. Madam Chair, in my opinion it is. It is way 
too important to be taken for granted. I think that if there is 
not a very concerted effort to educate the residents of Alaska 
certainly and really the rest of the Nation to what will happen 
if we do not do this, if we do not identify these strongholds 
and identify the long-term needs for sustainability and the 
economic value that they actually bring forever--I mean, the 
net present value of a billion dollar salmon industry--it 
dwarfs short-term investments into things--I mean, these fish 
could be here forever and have been. The education needs to 
begin or we are going to begin rapidly repeating all of the 
problems that have led to the problems on the West Coast and 
the East Coast and in Europe.
    Senator Cantwell. Thank you.
    Then, Dr. Reeves, how will the strongholds be identified? 
How would you from a scientific perspective and definition and 
prioritization?
    Dr. Reeves. There are a number of tools that are available 
right now. One is called Marxan which has been used worldwide 
for the identification of areas for conservation, and it is 
basically an optimization program that looks at all the 
possible combinations that you can have to achieve your goal 
and it tries to do it in the most efficient way. And that is 
what we have been using in the initial identification process 
of strongholds. And it has to meet the criteria I listed in my 
testimony of irreplaceability and so on. What you can actually 
do is go through and you set your goals and objectives and come 
up with a prioritized list of these strongholds. You know, that 
is the scientific basis, and then there are the social-
political issues about how do we mix and match those to meet 
the objectives. There is a really strong foundation for doing 
this that we can use right now and are using right now in this 
process.
    Senator Cantwell. Is that not almost even a better leverage 
of science than is already used with the endangered stock? 
Because we are using that science in advance. You actually can 
leverage it for protection purposes.
    Dr. Reeves. Yes, that is absolutely right. Right now 
everything is being considered without looking at--not that 
they are not all important, but some places are going to be 
absolutely crucial, particularly in the short term. And this 
tool is one way of helping identify that.
    Senator Cantwell. So leveraging that science, Ms. LaBorde, 
do you think that we will actually see a decrease in funding 
costs in the future on recovery if we do stronghold right? I do 
not mean immediately because I know that there is an issue here 
of people being anxious about the short term, but in the long 
run.
    Ms. LaBorde. There is study after study that shows it costs 
more to restore a habitat or a function than it does to protect 
it and keep it intact. And then include all of the unbelievable 
economic benefits that clean water, water recharge areas, all 
of those other pieces you need for local communities that 
benefit from a healthy system.
    Senator Cantwell. So I guess I do not want to draw 
conclusions, but I would say from what Mr. Childers just said, 
that if you do not address this, then you could see the Pacific 
Coastal Salmon Recovery Fund being greatly increased in the 
future, people asking for additional funds to, again, deal with 
the problem behind the curve as opposed to in advance.
    Ms. LaBorde. That is right. If you want to meet the goal of 
recovering Pacific Northwest salmon, yes.
    Senator Cantwell. So this definitely meets the definition 
of an ounce of a prevention.
    Ms. LaBorde. Thank you, yes.
    Senator Cantwell. All right. Well, unless my colleague has 
any more questions, thank you all very much for being here. 
Thank you for your dedication to this important issue, and I 
look forward to working with my colleagues all up and down the 
coast on this important legislation and moving it as quickly as 
possible.
    The hearing is adjourned. Thank you.
    [Whereupon, at 11:04 a.m., the hearing was adjourned.]

                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Dr. Gordon H. Reeves

    Question 1. Why is this sort of stronghold management so important 
to ``complete'' the picture of Pacific salmon conservation?
    Answer. The foundation of the salmon network approach is well 
embedded in principles of conservation biology and has the potential to 
help prevent further declines of native salmon and trout and the 
ecosystems in which they reside. Protecting populations and their 
ecosystems is a primary principle of conservation biology. Conservation 
is most successful when actions are directed at protecting populations 
before they decline, and protecting ecosystems before they are degraded 
(McGurrin and Forsgren 1997), which is the foundation of a stronghold 
strategy. Populations that are in decline are much more difficult to 
conserve and to recover than are productive, intact ones. Focusing 
efforts on intact populations where they exist is a prudent component 
for the long-term conservation of native salmon and trout (Gustafson et 
al. 2007).
    Current species recovery efforts emphasize recovering weaker, and 
often declining, populations. However, recovery of declining 
populations and degraded or compromised ecosystems is difficult and 
costly, and results are generally limited. Increasing the focus on and 
recognizing the importance of intact habitats and associated 
populations helps to make recovery efforts more robust and increases 
the likelihood that listed organisms could recover.
    There are many benefits to including a stronghold network as one 
tool of a recovery effort. Strongholds have the potential to increase 
the overall effectiveness of a network system. Pinsky et al. (2009) 
found that less than one percent of the watersheds with a high 
diversity of Pacific salmon around the Pacific Rim were within any 
protected area. In the longer term, such a network would have a greater 
potential to: (1) contribute to the persistence of strong populations; 
(2) contribute to the recovery of depressed populations by providing an 
infusion of numbers and genetic and phenotypic diversity; and (3) 
provide a suite of ecological services to local communities.
Literature Cited
    Gustafson, R.G., R.S. Waples, J.M. Myers, L.A. Weitkamp, G.J. 
Bryant, O.W. Johnson, and J.J. Hard. 2007. Pacific salmon extinctions: 
Quantifying lost and remaining diversity. Conservation Biology 21: 
1009-1020.
    McGurrin, J. and H. Forsgren. 1997. What works, what doesn't, and 
why? Pp. 459-471. In: J.E. Williams, C.A. Wood, and M. P. Dombeck, 
editors. Watershed Restoration: Principles and Practices. American 
Fisheries Society, Bethesda, MD.
    Pinsky, M.L., D.B. Springmeyer, M.N. Goslin, and X. Augerot. 2009. 
Range-wide selection of catchments for Pacific salmon conservation. 
Conservation Biology: 680-691.

    Question 2. What benefit will the salmon stronghold approach have 
for salmon populations with regard to climate change?
    Answer. Pacific salmon in the Pacific Northwest and Alaska are 
especially vulnerable to potential impacts of climate change because of 
their dependence on both freshwater and marine ecosystems. Potential 
impacts in the marine environment include: (1) changes in the thermal 
regime (Mantua and Francis 2004) and timing and intensity of upwelling 
(Hsieh and Boer 2007); and (2) increased acidification (Orr et al. 
2005). Predicted impacts on freshwater ecosystems include: (1) 
alteration of flow and temperature patterns; and (2) increased 
frequency of disturbances such as wildfire and drought (Hamlet and 
Lettenmaier 2007). The primary cause of decreasing summer flow is 
increasing air temperatures, which are reducing snowpacks and melting 
existing snow accumulations earlier in the spring (Regonda et al. 2005; 
Stewart et al. 2005). As a result, stream runoff may shift 2 to 4 weeks 
earlier in the season (Regonda et al. 2005; Stewart et al. 2005) and 
subsurface aquifers may provide less groundwater for stream flow in the 
late summer and early fall (Hamlet et al. 2005). There will likely be 
wide variation in the expression of potential impacts of climate change 
within and among watersheds in any given area. The potential effects of 
climate change are relatively minor compared to the environmental 
variation faced by native fish over time (Waples et al. 2009). However, 
change is now occurring more rapidly than many of the past changes that 
these fish have experienced (IPCC 2007) and is following a period of 
extensive and fairly rapid ecosystem alteration.
    The potential impacts of climate change pose a major threat to 
native salmon and trout, particularly weak populations, in the Pacific 
Northwest and Alaska. Likely consequences include changes in the: (1) 
behavior and growth of individuals (Neuheimer and Taggart 2007); (2) 
phenology (i.e., timing of life-history events), growth, dynamics, and 
distribution of populations (Hari et al. 2006; Rieman et al. 2007); (3) 
persistence of species and fish communities (Hilborn et al. 2003); and 
(4) functioning of whole ecosystems (Moore et al. 2009).
    The vulnerability of salmon and trout species and population units 
to climate change will depend on the characteristics of the species or 
population, and local environmental conditions, as well as past habitat 
alteration, fragmentation, and loss. Larger, more productive 
populations have a better likelihood of adapting to climate change, in 
part, because of the inherent genetic and phenotypic diversity within 
them (Waples et al. 2009). However, Pacific salmon, particularly in the 
Pacific Northwest, no longer have the historical intact networks and 
diversity of habitats and have reduced genetic, life-history, and 
evolutionary potential that may reduce their ability to respond to the 
impacts of climate change. Conserving and creating networks of 
watersheds across large spatial scales is a key component of providing 
opportunities for native salmon and trout to adapt to climate change. 
Large networks, like that would be created from the proposed 
legislation, are more likely to provide: (1) diverse habitat required 
over the life span of these fish; (2) the complexity and area to absorb 
catastrophic disturbances without loss of entire populations; and (3) 
greater species, genetic and phenotypic diversity (Mantua and Francis 
2004, Fausch et al. 2009, Greene et al. 2009).
Literature Cited
    Fausch, K.D., B.E. Rieman, J.B. Dunham, M.K. Young, and D.P. 
Peterson. 2009. Invasion versus isolation: Trade-offs in managing 
native salmonids with barriers to upstream movement. Conservation 
Biology 23: 859-870.
    Greene, C.M., J.E. Hall, K.R. Guilbault, and T.P. Quinn. 2009. 
Improved variability of populations with diverse live-history 
portfolios. Biology Letters doi: 10.1098/rsb1.2009.0780.
    Gustafson, R.G., R.S. Waples, J.M. Myers, L.A. Weitkamp, G.J. 
Bryant, O.W. Johnson, and J.J. Hard. 2007. Pacific salmon extinctions: 
Quantifying lost and remaining diversity. Conservation Biology 21: 
1009-1020.
    Hamlet, A.F. and D.P. Lettenmaier. 2007. Effects of climate change 
on hydrology and water resources in the Columbia River basin. Journal 
of the American Water Resources Association 35: 1597-1623.
    Hamlet, A., P.W. Mote, M.P. Clark, and D.P. Lettenmaier. 2005. 
Effects of temperature and precipitation variability on snowpack trends 
in the western United States. Journal of climate 18: 4545-4561.
    Hari, R.E., D.M. Livingstone, Siber, R. Burkhardt-Holm, P., and H. 
Guttinger. 2006. Consequences of climate change for water temperature 
and brown trout in Alpine rivers and streams. Global Change Biology 12: 
10-26 doi: 10.11116.1365-2486.2005.01051.x
    Hilborn, R., T.P. Quinn, D.E. Schindler, and D.E. Rogers. 2003. 
Biocomplexity and fisheries sustainability. Proceedings of the National 
Academy of Sciences 100: 6564-6568.
    Hsieh, W.W. and G.J. Boer 2007. Global climate change and ocean 
upwelling. Fisheries Oceanography 1: 333-338.
    IPCC (Intergovernmental Panel on Climate Change). 2007. Climate 
change 2007: The physical science basis. (http://www.ipcc.ch)
    Mantua, N.J. and R.C. Francis. 2004. Natural climate change 
insurance for Pacific Northwest salmon and salmon fisheries: finding 
our way through the entangled bank. in: E.E. Knudsen and D. McDonald, 
editors. Fish in our future? Perspectives on fisheries sustainability. 
American Fisheries Society. Bethesda, MD. pages 127-140.
    Moore, M.V., S.E. Hampton, L.R. Izmest'eva, E.A. Silow, E.V. 
Peshkova, and B.K. Pavlov. 2009. Climate change and the world's sacred 
sea-Lake Baikal, Siberia. BioScience 59: 405-417.
    Neuheimer, A.B. and C.T. Taggart. 2007. The growing degree-day and 
fish size-at-age: the overlooked metric. Canadian Journal of Fisheries 
and Aquatic Sciences 64: 375-385.
    Orr, J.C., V.J. Fabry, O. Aumont, and 24 co-authors. 
2005.Anthropogenic ocean acidification over the twenty-first century 
and its impact on calcifying organisms. Nature 437/29 September 2005. 
Doi :10:1038/nature04095.
    Regonda, S.K., B. Rajagopalan, M. Clark, and J. Pitlick. 2005. 
Seasonal cycle shifts in hydroclimatology over the western United 
States. Journal of Climate 18: 372-384.
    Rieman, B.E., D. lsaak, S. Adams, D. Horan, D. Nage, and C. Luce. 
2007. Anticipated climate warming effects on bull trout habitats and 
populations across the interior Columbia River basin. Transactions of 
the American Fisheries Society 136: 1552-1565.
    Stewart, I.T., D.R. Cayan, and M.D.Dettinger. 2005. Changes toward 
earlier streamflow timing across western North America. Journal of 
Climate 18: 1136-1155.
    Waples, R., Beechie, T., and Pess, G.R. 2009. Evolutionary history, 
habitat disturbance regimes, and anthropogenic changes: What do these 
mean for resilience of Pacific Salmon Populations? Ecology and Society 
14(1): 3. [online] URL: http://www.ecologyandsociety.org/voll4/iss11/
art13/.

    Question 3. How will strongholds be identified?
    Answer. The identification and selection of a stronghold network is 
premised on principles of systematic conservation design, which are 
well established in the scientific literature (see Soule and Terborgh 
1999). These include: (1) comprehensiveness--the extent to which the 
network protects the desired level of biodiversity and abundance; (2) 
irreplaceability--the inclusion of areas or populations that are 
necessary to achieve the conservation goals; and (3) efficiency--the 
network is designed to achieve the conservation goals while minimizing 
the area involved.
    Advances in Systematic Conservation Planning (Margules and Pressey, 
2000) provide a structured, efficient, and scientifically defensible 
conservation framework for locating priority geographic areas and 
conservation networks. The primary planning process involves finding 
the most cost-effective and optimal set of areas to meet the desired 
conservation goals (Watts et al. 2009). Key components within this 
framework include: (1) compiling data on the biodiversity of the 
planning region; (2) identifying conservation targets and goals; (3) 
reviewing existing conservation areas; and (4) selecting additional 
conservation areas.
    Marxan is the most widely used Systematic Conservation Planning 
tool in the world (Ball and Possingham 2000), and has been applied 
primarily for the identification of marine and terrestrial reserve 
networks. Marxan provides optimal solutions to creating conservation 
area networks based upon explicit conservation targets, goals, and 
suitability costs. Scientists from the Wild Salmon Center, other NGO's, 
the Forest Service, and universities have adapted Marxan to aid in the 
identification of a network of salmon networks in the Pacific Northwest 
and Alaska. Marxan identifies sets of watersheds that meet the 
objective of the stronghold network in the most efficient manner and at 
the least cost. Some particularly high quality watersheds occur in 
many, if not all, of the potential sets and make the greatest 
contribution to meeting the established goals for the network. We have 
designated these as ``core'' watersheds. Core watersheds may not by 
themselves be sufficient to meet the desired goals and so often, some 
combination of additional watersheds is required. We have designated 
these as ``contributing'' watersheds. The final configuration of the 
network will be determined by the Steering Committee. This process will 
provide stakeholders and other interested parties the ability to 
establish desired goals for the network (for example, amount of species 
and life-history diversity to conserve), and then identify and develop 
a scientifically sound stronghold network that meets the goal at the 
least cost in terms of area involved and potential economic 
constraints.
Literature Cited
    Ball, I.R. and H.P. Possingham. 2000. Maxan (v.1.8.6): Marine 
reserve design using spatially explicit annealing. User Manual: http://
www.uq.edu.au/marine.
    Margules, C.R. and R.L. Pressey. 2000. Systematic conservation 
planning. Nature 405: 243-253.
    Soule, M.E. and J. Terborgh. 1999. Continental conservation: 
Scientific foundations of regional reserve networks. Island Press, 
Washington, D.C.
    Watts, M.E., I.R. Bull, and eight co-authors. 2009. Marxan and 
zones: software for optimal conservation based land- and sea-use 
zoning. Environmental Modelling and Software 24: 1513-1521.

    Question 4. What components will be part of the stronghold 
definitions so that funds can be prioritized?
    Answer. The output from Marxan can provide an avenue for 
prioritizing the allocation of funds for a salmon stronghold network. 
One possibility is to prioritize the core watersheds, which make the 
greatest contribution to the network. Marxan can also be altered to 
take into account factors which cannot be easily quantified in 
identifying a network (Ball and Possingham 2000). Such factors could 
include social and political concerns like unemployment, focus on 
Federal lands and other factors. These factors could be particularly 
important if a goal in the establishment of a network also includes the 
creation of jobs.
Literature Cited
    Ball, I.R. and H.P. Possingham. 2000. Maxan (v.1.8.6): Marine 
reserve design using spatially explicit annealing. User Manual: http://
www.uq.edu.au/marine.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Olympia J. Snowe to 
                          Dr. Gordon H. Reeves

    Question. What precedents exist for this type of management, and 
have stronghold management approaches resulted in measurable 
conservation gains for target species?
    Answer. A key purpose of conservation biology is ``To retain the 
actors in the evolutionary play and the ecological stage on which it is 
performed'' (quote of G.E. Hutchinson in Meffe and Carroll 1999). The 
establishment of strongholds, also known as reserves, is a primary tool 
for meeting this goal and has been employed around the world to help 
protect a vast number of organisms and resources (Margules and Pressey 
2000). Generally, reserves/strongholds are established in areas that 
have strong populations and intact, functioning ecosystems, because 
conservation actions are most successful before populations or 
ecosystems begin to decline. Strongholds have been established 
primarily to protect habitat and populations of marine and terrestrial 
species. The stronghold network proposed by the current legislation 
would be one of the first for freshwater fish.
    While many strongholds and stronghold networks have been 
established, it is difficult to fully assess their success (Gaston et 
al. 2006). The reasons for this include the: (1) paucity of systematic 
data; and (2) incompatibility of data that has been collected to 
measure the performance of the individual efforts. However, studies 
that have evaluated strongholds and strongholds networks found them to 
be generally successful in meeting their conservation objectives. The 
North American Flyway, which is a series of reserves on public and 
private lands along the migratory corridors of waterfowl that were 
established by the Migratory Bird Treaty Act, has helped to maintain 
healthy waterfowl populations (Nichols et al. 1995). Halpern (2003) 
reviewed the biological response to the establishment of 89 marine 
reserves worldwide. The density of fish was 2 times greater, biomass 
was 3 times greater, and size and diversity were 20-30 percent higher 
in reserves than in adjacent areas. Rates of declines of biodiversity 
in English reserves were generally lower than or similar to declines to 
outside areas (Gaston et al. 2006). Several studies have found that the 
positive effects of reserves increase with the size of the protected 
area.
    Scientists have suggested for several years that stronghold or a 
similar approach should be part of the conservation strategy for native 
freshwater fish. Williams et al. (1989) and Moyle and Yoshiyama (1994) 
were among the earliest to argue for this approach. The former noted 
that no ESA listed freshwater fish had recovered sufficiently to be 
delisted.
    Since that publication, the number of freshwater fish listed under 
the ESA continues to increase, while few have been delisted (Williams 
and Miller 2006). As Pacific salmon, and other native fish, in the 
western United States continue to decline, scientists are finding that 
protection of areas with the strongest and most diverse populations and 
most intact ecosystems may be most promising for recovery (Williams and 
Miller 2006, Williams et al. 2006, Gustafson et al. 2007). There is not 
an existing application of stronghold management for salmon or any 
other freshwater fish, particularly on a large spatial scale. Perhaps 
the best examples of stronghold management are the key watersheds, 
which are part of the Aquatic Conservation Strategy of the Northwest 
Forest Plan (NWFP) that guides management on Federal lands in western 
Oregon and Washington and northern California, within the range of the 
northern spotted owl (Strix occidentalis caurina). Key watersheds had 
currently good habitat, the best potential to respond to restoration, 
or were municipal water supplies, and were distributed across the area 
of the Northwest Forest Plan (Reeves et al. 2006). The purpose of the 
former two watershed types was to aid in the recovery of habitat of 
listed Pacific salmon and other fish. Ten years after the 
implementation of the NWFP, the proportion of key watersheds (70 
percent) whose condition improved was greater than that of non-key 
watersheds (50 percent). This condition improvement was achieved while 
allowing timber production and other activities to occur.
Literature Cited
    Andam, K.S., P.J. Ferraro, A. Pfaff, G. A. Sanchez-Azofeifa, and 
J.A. Robalino. 2008. Measuring the effectiveness of protected areas 
networks in reducing deforestation. Proceedings of the National Academy 
of Science 105(42): 16089-16094.
    Gaston, K.J., S.F. Jackson, L. Cantu-Salazar, and G. Cruz-Pinon. 
2008. The ecological performance of protected areas. Annual Review of 
Ecology, Evolution, and Systematics 39: 93-113.
    Gaston, K.J., K. Charman, S.F. Jackson and 12 co-authors. 2006. The 
ecological effectiveness of protected areas: The United Kingdom. 
Ecological Conservation 132: 76-87.
    Gustafson, R.G., R.S. Waples, J.M. Myers, L.A. Weitkamp, G.J. 
Bryant, O.W. Johnson, and J.J. Hard. 2007. Pacific salmon extinctions: 
Quantifying lost and remaining diversity. Conservation Biology 21: 
1009-1020.
    Halpern, B.S. 2003. The impact of marine reserves: Do reserves work 
and does reserve size matter? Ecological Applications 13: S117-S137.
    Margules, C.R. and R.L. Pressey. 2000. Systematic conservation 
planning. Nature 405: 243-253.
    Meffe, G.K, C.R. Carroll, and contributors. 1999. Principles of 
conservation biology. Second edition. Sinaeuer Associates, Sunderland, 
MA.
    Moyle, P.B. and R.M. Yoshiyama. 1994. Protection of aquatic 
biodiversity in California: five-tiered approach. Fisheries 19920; 6-
19.
    Nichols, J.D., F.A. Johnson, and B.K. Williams. 1995. Managing 
North American waterfowl: The face of uncertainty. Annual Review of 
Ecology and Systematics 26: 177-199.
    Reeves, G.H., J.E. Williams, K.M. Burnett, and K. Gallo. 2006. The 
aquatic conservation strategy of the Northwest Forest Plan. 
Conservation Biology 20: 319-329.
    Williams, J.E. and R.R. Miller 2006. Conservation status of the 
North American fish fauna in fresh water. Journal of Fish Biology 
37(sA): 79-85.
    Williams, R.N, J.A. Stanford, J.A. Lichatowich, and 7 co-authors. 
2006. Return to the river: Strategies for salmon restoration in the 
Columbia River basin. In R.N. Williams, editor. Return to the River: 
Restoring salmon to the Columbia River. Pages 629-666.
    Williams, J.E., J.E. Johnson, D.A. Hendrickson and 5 co-authors. 
1989. Fishes of North America: endangered, threatened, and of special 
concern. Fisheries 14(6): 2-21.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                               Guido Rahr

    Question 1. While each year we spend hundreds of millions of 
dollars on Pacific salmon recovery, the vast majority of our efforts 
are going toward salmon stocks that have severely declined and are in 
very poor shape. While focusing on depleted populations is essential, 
do you believe this sometimes occurs at the expense of protection for 
healthy ``stronghold'' salmon populations?
    Answer. Yes. Current Federal salmon funding is primarily directed 
toward recovery of populations listed as threatened and endangered and 
restoration of degraded watersheds. This is largely due to Endangered 
Species Act mandates and a lack of statutory direction to Federal 
agencies to focus resources on the conservation of healthy wild salmon 
populations and functioning watersheds.
    For example, while NOAA receives significant congressional 
direction in its appropriations bills, including specifics on how to 
spend grant funds, the agency has acknowledged that, in part because 
there is no organic act establishing the agency, it has no statutory 
funding direction. Accordingly, NOAA decides for itself all the details 
of most salmon grants (i.e., what purpose, how much, who gets it, 
matching funds, who partners). Though NOAA can currently undertake 
projects to conserve healthy wild salmon populations, the agency has 
not made this a priority because it has no such mandate.
    As a result, local stakeholders in salmon stronghold basins often 
have difficulty garnering sufficient resources to implement prevention-
based conservation measures to ensure that healthy wild salmon 
ecosystems remain healthy. Please see pages 5-6 of my written testimony 
for specific examples.

    Question 2. Do you think the neglect of healthy salmon populations 
is a fundamental flaw in our Nation's efforts to protect and restore 
wild Pacific salmon?
    Answer. Yes. Scientists have long endorsed the fundamental 
principle of conserving functioning ecosystems before investing in the 
restoration of those that are degraded. However, most U.S. laws and 
regulations that impact watershed health direct public resources toward 
restoration of basins that are highly degraded and recovery of 
populations that are in sharp decline. Restoration of impaired systems 
can be extremely expensive and benefits are often realized long after 
implementation. Salmon recovery is vital, but will take time. As this 
process advances, in the absence of a stronghold strategy, the 
potential opportunity costs of our recovery focus--the degradation of 
currently healthy ecosystems and reduced viability of strong wild 
populations--represent a fundamental flaw in Federal salmon 
conservation policy.
    To conserve wild salmon populations into the future, we must 
implement new management approaches that complement existing recovery 
efforts by focusing and leveraging investments within salmon 
strongholds. This stronghold approach must not only support on-the-
ground protection, restoration, and monitoring, but also provide 
opportunities to pilot innovative research and planning activities that 
address challenges common across multiple strongholds.
    While Federal agencies can currently undertake projects to conserve 
healthy wild salmon populations and their habitat, they rarely do so 
because they have no such mandate. The Pacific Salmon Stronghold 
Conservation Act provides the necessary congressional direction to 
focus Federal resources on conservation of healthy wild salmon 
ecosystems. This Act will bring together decision-makers representing 
resource management agencies, tribes, and conservation interests to 
provide the leadership and coordination necessary to achieve landscape-
scale conservation of the watersheds that have the greatest chance of 
supporting viable salmon populations into the next century. As such, 
this Act remedies a major flaw in our Nation's efforts to protect and 
restore wild Pacific salmon.

    Question 3. Do you believe the Pacific Salmon Stronghold 
Conservation Act will succeed in addressing some of the root causes of 
salmon decline, rather than just superficially treating the symptoms? 
If so, how?
    Answer. The ongoing and widespread declines in wild salmon 
populations can be traced to many root causes, such as demands for 
economic growth, inadequate science, cultural norms, and so on. 
Together these conditions have dominated well over a century of 
resource management decision-making impacting salmon, and while most, 
if not all, of these decisions appeared rational when considered in 
isolation, together they have conspired to bring about the cumulative 
effects seen today: 28 wild salmon and steelhead populations listed 
under the Endangered Species Act in the lower 48, thousands of river 
miles included on the 303(d) list (of impaired water bodies), and 
billions of dollars spent per year on the restoration of degraded 
habitats and recovery of listed populations. The common denominator 
among the forces that brought about these conditions and the Federal 
policy responses to them has been a consistent lack of investment in 
prevention.
    The Stronghold Act recognizes that the only way to maintain our 
remaining strong populations is to promote and invest in new management 
approaches rooted in preventing recurrence of the mistakes of the past 
while recognizing threats on the horizon. The Pacific Salmon Stronghold 
Conservation Act will succeed in addressing some of the root causes of 
salmon decline by focusing resources on activities that promote the 
development and implementation of prevention-based strategies in salmon 
strongholds, and conservation policies and management strategies that 
address threats and reduce limiting factors across multiple 
strongholds.
    This legislation aims to get ahead of the curve by supporting the 
protection and, if necessary, the restoration of ecosystem processes 
within healthy salmon-bearing watersheds before they decline. Funds 
provided under the Pacific Salmon Stronghold Conservation Act will 
finance locally-supported, prevention-based alternatives to habitat 
alteration, which promote the health of both stronghold watersheds and 
the local communities that rely on them. Examples of such prevention-
based strategies include wetland and riparian conservation easements, 
forest preservation for carbon sequestration, promotion of irrigation 
efficiencies on agricultural land, and improvements in planning for 
urban and rural development.
    In addition to supporting the development and implementation of 
high value conservation strategies at the watershed level, this Act 
will support innovative strategies that promote conservation across 
multiple strongholds. Many threats exist that transcend watershed 
boundaries, exacerbating the impacts of existing limiting factors and/
or creating new ones across multiple basins. Examples of such threats 
may include: climate change; land use policies, practices, or ownership 
patterns; non-native species proliferation; government subsidies and 
antiquated laws; and hatchery and harvest practices. Unlike basin-
specific limiting factors, which often require ``on-the-ground'' 
solutions implemented at the watershed or reach scale, these threats 
can be more effectively addressed through ``programmatic'' remedies 
that can reach across multiple strongholds.
    Because most Federal and state salmon conservation programs focus 
financial and technical support on specific watershed level restoration 
strategies, programmatic solutions are often difficult to design and 
finance. This is especially true for new and innovative approaches or 
policies that are untested, but may be applicable and effective across 
multiple basins. This Act will enable the Salmon Stronghold Partnership 
Board to develop and support innovative approaches that proactively 
respond to emerging threats across multiple stronghold basins and 
address inefficient policies that impede conservation of salmon 
strongholds. Please see pages 67 of my written testimony for examples 
of programmatic initiatives.

    Question 4. The Pacific Coastal Salmon Recovery Fund has a strong 
track record of leveraging additional State and local dollars for 
salmon recovery for every Federal dollar spent. Do you foresee the 
Salmon Stronghold bill having a similar -multiplier effect,'' promoting 
investment of additional non-Federal funds to support salmon stronghold 
protection and restoration activities?
    Answer. Along with local, state, NGO, and tribal interests, the 
Stronghold Partnership Board convenes six Federal agencies, each of 
which oversees programs that are evaluated through the Government 
Performance Results Act, Performance Assessment Rating Tool, and other 
performance evaluation approaches employed by the Federal Government. 
Accordingly, the Board recognizes and places a premium on the role that 
the Pacific Salmon Stronghold Conservation Act funds must play in 
leveraging non-Federal investment.
    Stronghold grants funds will support two types of projects: (1) 
``watershed level activities'' that implement high value conservation 
actions to address threats and limiting factors within strongholds; and 
(2) ``programmatic initiatives'' that seek to reduce threats or 
limiting factors occurring across multiple strongholds and in more than 
one state.

  <bullet> The types of `watershed level' activities that are funded in 
        strongholds will require a 1:1 ratio of Federal:non-Federal 
        match (unless the project is implemented entirely on Federal 
        lands). The non-Federal match required is greater than that 
        required under PCSRF, which is currently 33 percent (2:1). In 
        addition because of the collaborative nature of the projects 
        that will be supported, we have every confidence, that funds 
        provided under Pacific Salmon Stronghold Conservation Act will 
        have a multiplier effect, much like that of PCSRF. In fact, 
        because PCSRF funds have been spent at a proportionally lower 
        rate in strongholds than in recovery basins (hence the need for 
        the Stronghold Act), we believe that pent up demand for Federal 
        investment in strongholds may stimulate even greater support 
        from non-Federal partners than currently seen in recovery 
        basins. This is particularly true of large foundations, which 
        typically place greater priority on preventative and 
        protection-oriented strategies than those simply focused on 
        restoration.

  <bullet> Programmatic initiatives represent conservation strategies 
        that are carried out across more than one stronghold in more 
        than state. Because these initiatives will bring together more 
        than one state (and likely multiple NGO's), funds provided 
        through this Act are anticipated to leverage significantly more 
        state investment than the minimum 33 percent match required by 
        PCSRF. This ``primary leverage'' derived from considerable 
        state match will drive a multiplier effect similar to or 
        possibly greater than that of PCSRF.

    In summary, we are extremely confident in the breadth and depth of 
non-Federal support available for salmon stronghold conservation and 
envision a similar, if not greater, multiplier effect to that of PCSRF.

    Question 4a. Is this a good deal for Federal taxpayers?
    Answer. Conservation of healthy wild salmon populations and intact 
salmon habitat is much less expensive than recovery and restoration. 
For example, over the last two decades, the Federal Government has 
spent more than $8 billion to recover salmon and steelhead populations 
in the Columbia River basin alone. In its Draft Recovery Plan (March 
2010), the Lower Columbia Fish Recovery Board estimates that habitat 
restoration projects will cost approximately $1 million per mile for 
the larger river systems in the Lower Columbia River basin (page 10-7).
    Contrast this with the costs of proactively conserving a healthy 
wild salmon ecosystem--for example, the Hoh River on Washington's 
Olympic Peninsula. The Wild Salmon Center and our partners acquired 
4,500 acres of forest land along the Hoh River for roughly $9 million. 
These acquisitions provided long term protection for half of the 
private land along the Hoh River corridor and ensured that 80 percent 
of the floodplain and riparian lands are in conservation status. The 
Hoh River Trust recently purchased an additional 2,000 acres for $2 
million. In total, 7,000 acres and 29 river miles along the Hoh River 
were protected for $11 million--significantly less than it would have 
cost to restore the ecosystem. It is also important to note that some 
of this land will remain in timber and/or agricultural production 
(using sustainable and certified ``salmon friendly'' practices), so 
while harm to wild populations has been prevented, the potential for 
economic returns from the land has not been significantly diminished.
    By making strategic investments in proactive conservation of salmon 
strongholds now, we will save billions of dollars in future 
restoration, stock rebuilding, and emergency funding over the long run.

    Question 5. Some may have a concern that once this hill is enacted 
and implemented, the Pacific Salmon Stronghold Partnership will become 
just another layer in an already vast bureaucracy of salmon management? 
Are there steps for implementing this bill that you view as essential 
to make sure that we truly realize the added value we're trying to 
achieve by creating the Partnership?
    Answer. The governance structure that oversees the management of 
salmon resources is indeed broad and complex, and concerns about adding 
yet another layer are well founded. Fortunately, sponsors of the 
Pacific Salmon Stronghold Conservation Act took deliberate steps to 
avoid adding yet another layer of bureaucracy in its administration. 
First and foremost, the sponsors were careful to craft a bill that had 
no regulatory or enforcement authority. The vast majority of criticism 
leveled at the current governance structure stems from overlapping 
authorities and jurisdictions concerning harvest management, hatchery 
production, consultations required under the Endangered Species Act, 
and planning required under the National Environmental Policy Act. 
Nothing within this Act adds to or amends these requirements.
    Second, the centerpiece of this legislation is the establishment of 
a grant program to advance the Act's fundamental purpose of expanding 
Federal support for and attention to the conservation of wild salmon 
strongholds. In establishing this grant program, sponsors were careful 
to rely on existing grant mechanisms to avoid creating new processes. 
The well established and highly respected National Fish and Wildlife 
Foundation (NFWF) will act as the fiscal administrator of the grant 
program. NFWF will work with an existing partnership (the Salmon 
Stronghold Partnership Board) to establish priorities, and rely on 
existing state grant programs to select and administer projects 
specific to each state. Multi-state projects will be selected and 
administered by NFWF in collaboration with the Salmon Stronghold 
Partnership Board. No new entities will be created to manage the grants 
program.
    Finally, participation in the program is entirely voluntary, so any 
management and administration burdens assumed by grant recipients are 
done so willingly. Furthermore, this Act limits state and NFWF grant 
administration costs to just 5 percent, so these entities will not be 
able to significantly expand their management and administrative staff 
capacities through the stronghold effort.

    Question 6. Salmon are a treaty species whose range includes 
Pacific Rim countries. Won't a network of salmon strongholds require 
international cooperation?
    Answer. The North Pacific's marine and freshwater ecosystems and 
food webs are interdependent, linked by salmon as a keystone species. 
Pacific salmon populations spend a considerable part of their life-
cycle migrating across the North Pacific before returning to their 
natal rivers. As such, the management actions of one North Pacific 
nation affect the wild salmon populations of another. It is essential, 
therefore, that North Pacific nations work together to share best 
management practices, innovative conservation strategies, status and 
trends data, and lessons learned to conserve wild salmon populations 
into the future. Scientific, management, and conservation cooperation 
among the salmon-bearing countries of the Pacific Rim will be critical 
to maintaining a network of the most abundant and diverse wild salmon 
ecosystems across the species' range.
    The Salmon Stronghold Partnership and the introduction of the 
Pacific Salmon Stronghold Conservation Act are already fostering 
international cooperation with Canada. Referencing the Act, the Pacific 
Fisheries Resource Conservation Council, an independent advisory body 
to the Federal Minister of Fisheries and Oceans and the British 
Columbia Minister of Fisheries, stated that ``[t]he establishment of 
coordinated coast-wide Salmon Strongholds programs by both countries 
could provide a highly effective demonstration of environmental 
cooperation.'' See Applying the Salmon Stronghold Concept in Canada at 
20 (2009). The Council also recommended that ``[f]unding for a Salmon 
Stronghold initiative by the Government of Canada should be considered 
in light of the impending national funding in the United States.'' Id.

    Question 7. What are other Pacific Rim countries doing to conserve 
salmon strongholds?
    Answer. Efforts to conserve salmon strongholds are underway in both 
Canada and Russia. In Canada, the salmon stronghold concept was first 
discussed by fisheries managers and scientists in the 1990s due to 
increased deterioration of salmon habitat and the ineffectiveness of 
reactive salmon conservation policies. In 1999, the Pacific Salmon 
Foundation published a report entitled Living Blueprint for B.C. Salmon 
Habitat that identified the need for a policy shift in Canada toward 
proactive conservation of healthy wild salmon ecosystems. While the 
premise was accepted, a salmon stronghold policy was not immediately 
implemented due to salmon stock collapses and immediate threats that 
took precedent at the time.
    In 2005, Canada adopted a Wild Salmon Policy with a primary goal of 
restoring and maintaining healthy and diverse salmon populations and 
their habitats. The policy identifies conservation of wild salmon 
populations and their habitat as ``the highest priority for resource 
management decision-making.'' See Canada's Policy for Conservation of 
Wild Salmon at 8. The policy also recognizes the importance of 
conserving healthy wild salmon populations, stating ``[t]o safeguard 
the long-term viability of wild Pacific salmon in natural surroundings, 
the Department will strive to maintain healthy populations in diverse 
habitats.'' Id. However, it was not until 2009 that this recognition 
gained traction.
    The Pacific Fisheries Resource Conservation Council (PFRCC) 
published a report in June 2009 entitled Applying the Salmon Stronghold 
Concept in Canada. The report recommended that Canada: (1) adopt a 
salmon stronghold approach, (2) participate in the North American 
Salmon Stronghold Partnership, and (3) test the Salmon Strongholds 
approach in Canada, in conjunction with the Wild Salmon Center, through 
a six-month pilot project to determine the most practical and effective 
forms for Canadian involvement. See Applying the Salmon Stronghold 
Concept in Canada at 22-23.
    After publication of this report, PFRCC became an ex officio member 
of the North American Salmon Stronghold Partnership Board. They 
implemented a salmon stronghold pilot project on the Harrison River in 
June 2009, and the Harrison River basin was officially designated as 
Canada's first salmon stronghold in February 2010. Passage of the 
Pacific Salmon Stronghold Conservation Act will likely accelerate 
Canada's efforts to conserve salmon strongholds (see response to 
question #2 herein).
    Russia is also undertaking significant salmon stronghold 
conservation efforts. In 2006, Russia established the world's first 
salmon refuge on the Kamchatka Peninsula--a 544,000 acre headwaters to 
ocean salmon sanctuary aimed explicitly at protecting some of the most 
abundant runs of salmon and rich species diversity on the pristine Kol 
River. A globally-significant salmon stronghold, the Kol River contains 
one of the richest known assemblages of wild salmonids, including all 
six Pacific salmon species, as well as steelhead, rainbow trout, Dolly 
Varden char, and white-spotted char. The Wild Salmon Center has 
constructed a permanent biostation and laboratory facilities on the 
Kol, providing an unparalleled opportunity for scientists to study 
salmon in a pristine habitat. We are working collaboratively with the 
Kamchatka Administration, the Kol Protected Area Administration, and 
other national and international partners to support the management of 
the Kol River Salmon Protected Area and to develop new opportunities to 
protect priority watersheds throughout the peninsula.
    In addition, as a result of fifteen years of efforts by the Wild 
Salmon Center and our partners, the government of the Sakhalin Region 
in the Russian Far East granted permanent protected status to the 
67,305 hectare Vostochnii Nature Reserve, a salmon/marine nature 
preserve encompassing two entire ocean-draining basins, in 2007. The 
Vostochnii protects some of Sakhalin's last remaining old-growth 
conifer forests, providing ideal conditions for supporting robust runs 
of all five salmon species found on Sakhalin. Logging and unsustainable 
commercial fishing in the Pursh-Pursh, Vengeri and neighboring Langeri 
basins have been stopped, and poaching for salmon roe (caviar), which 
is epidemic in the Russian Far East, has been practically eliminated.
    In 2009, the Russian Federal Fishery Agency passed a decree on 
creating Federal Fishery Protected Zones (FFPZ) and held a 
prioritization workshop for high priority rivers that established three 
categories of FFPZ's--the first being the protection of the wild salmon 
gene pool (salmon strongholds). Using criteria that were informally 
agreed upon for the three types of reserve zones, a list of rivers for 
the six regions was developed with the participation of the Federal 
Fishery Agency, Regional Administration authorities, and other 
government bodies. Once implemented, the reserve zones for healthy wild 
salmon populations will provide critical Federal protection for some of 
the best wild salmon ecosystems in the Russian Far East.

    Question 8. What lessons has the Wild Salmon Center learned from 
its overseas experiences working to conserve salmon strongholds in 
other countries?
    Answer. Wild Salmon Center has learned a great deal from our work 
to conserve salmon strongholds in other countries. The biggest lesson 
we have learned is that if we do not heed the mistakes that we've made 
in Europe, Japan, Canada, and the East Coast of the U.S., we will fail 
to conserve wild salmon populations for future generations. The 
Achilles heel for salmon is that history keeps repeating itself--we 
need to break the cycle. Some of the key mistakes we've made are: (1) 
taking action to recover wild salmon stocks only after they have 
reached low levels of abundance, (2) replacing native, locally-adapted 
genetic stocks with hatchery-bred salmon, and (3) focusing on 
restoration once a healthy watershed has been damaged instead of 
protecting it at the forefront.
    Once lost, habitat is politically and economically expensive to 
reclaim. It is much cheaper and easier to protect habitat than to 
restore it after it has been damaged. This lesson can be illustrated in 
Japan. More than 98 percent of Japan's salmon rivers have been dammed 
and artificially modified, so that commercial fisheries now rely 
heavily on hatcheries in order to maintain their productivity. 
Hatcheries will never be able to replace highly productive wild salmon 
ecosystems. While there are still a few free-flowing rivers left in 
Japan, the extensive loss of wild salmon ecosystems cannot be remedied. 
However, we can learn from this mistake by conserving our remaining 
healthy wild salmon ecosystems in Japan and elsewhere.
    We have also learned that it takes local leadership and 
collaborative multi-stakeholder cooperation to achieve lasting wild 
salmon conservation. For example, on Sakhalin Island in the Russian Far 
East, a long-term, public-private partnership between international, 
regional and local organizations has achieved lasting and substantial 
gains in protecting and restoring the ecological health of the eastern 
(Okhotsk Sea) coast of Smirnykh District, and in particular three 
highly productive river basins that form an ecological anchor for the 
region: the Pursh-Pursh, Vengeri and Langeri rivers. This integrated 
landscape-scale conservation project combines significant habitat 
protections and innovative strategies to ensure the sustainability of 
wild salmon fisheries, and comprehensive stakeholder engagement. 
Innovative elements include establishing one of the first, government-
endorsed public-private watershed councils in Russia, raising 
environmental and social standards for resource extraction companies, 
and leading the demonstration of the local economic benefits that can 
be gained from adopting sustainable commercial fishing practices. 
Project partners are also combating poaching directly through 
organizing community anti-poaching brigades and patrolled checkpoints 
on access roads in collaboration with local enforcement agencies. As a 
result, poaching and illegal access to the most pristine areas of the 
rivers has been brought under control for the first time, and can be 
viewed as a model for addressing poaching elsewhere in the Russian Far 
East. The creation of a partnership across local, regional, and 
international jurisdictions, uniting business, communities, and 
government to achieve a common goal, has been central to success in the 
Sakhalin region and is a sound replicable model.
    Another lesson learned is that Pacific salmon are a global 
resource, so we cannot merely consider our own nation when developing 
strategies to conserve and manage wild salmon populations. Since wild 
Pacific salmon spend a portion of their life-cycle migrating across the 
North Pacific Ocean, management practices in one country affect the 
salmon populations of another. It is critical that we work with 
neighboring countries to ensure sustainable harvest practices, limit 
the impacts of hatcheries, and conserve a network of the healthiest 
wild salmon ecosystems across the North Pacific.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                               Guido Rahr

    Question 1. The National Marine Fisheries Service (NMFS) has 
dedicated significant resources to Pacific salmon conservation and 
management--upwards of $117 million in 2010 alone for the Pacific 
Coastal Salmon Recovery Fund (PCSRF) and other ``salmon management 
activities.'' NMFS also receives funding from two international funds 
with an endowment of approximately $135 million through the U.S./
Canadian Pacific Salmon Commission. S. 817 would authorize an 
additional $30 million annually to establish a grant program that would 
focus on maintaining currently healthy habitat for Pacific salmon. What 
authorities does the legislation bring to fisheries habitat 
conservation that does not already exist?
    Answer. The Pacific Salmon Stronghold Conservation Act provides 
congressional direction to focus Federal resources on preventative, 
proactive efforts to conserve healthy wild Pacific salmon ecosystems 
through the establishment of a Salmon Stronghold Partnership program 
and the Salmon Stronghold Partnership. By directing the National 
Oceanic and Atmospheric Administration (NOAA) to establish a salmon 
stronghold watershed grants and technical assistance program, this Act 
provides clear statutory funding direction to focus resources on the 
conservation of healthy wild salmon populations and their habitat as a 
complement to ongoing salmon recovery efforts. This legislation also 
authorizes Federal participation in the Salmon Stronghold Partnership 
and requires Federal agencies responsible for acquiring, managing, or 
disposing of Federal lands within salmon strongholds to cooperate with 
NOAA to conserve salmon strongholds. None of these authorities 
currently exists.
    Though NOAA uses an assortment of authorities when it administers 
grants today--from the Endangered Species Act and the Marine Mammal 
Protection Act to the Pacific Salmon Treaty--these authorities provide 
almost no specific congressional direction to the agency, and are 
primarily focused on the recovery of threatened and endangered salmon 
stocks. Further, while NOAA receives significant congressional 
direction in its appropriations bills, including specifics on how to 
spend grant funds, the agency has acknowledged that, in part because 
there is no organic act establishing the agency, it has no statutory 
funding direction. As a result, NOAA determines the guidelines and 
details of most salmon grants (i.e., what purpose, how much, who gets 
it, matching funds, who partners) on its own, and allocates the 
majority of its salmon funding toward recovery and restoration efforts.
    This is illustrated through the existing funding sources mentioned 
above. NOAA dedicates significant funding to support Pacific salmon 
conservation and management activities, primarily through the Pacific 
Coastal Salmon Recovery Fund (PCSRF), Salmon Management Activities 
related to the implementation of the Pacific Salmon Treaty, and Pacific 
Salmon Commission Restoration and Enhancement funds. Unfortunately, 
none of these funding sources supports prevention-based strategies to 
conserve strong wild salmon populations before they decline or healthy 
salmon-bearing watersheds before they are degraded. Further, they fail 
to support innovative strategies to address threats to healthy wild 
salmon populations that transcend watershed and state boundaries.
    For example, the Pacific Coastal Salmon Recovery Fund supports 
projects necessary for the conservation of salmon and steelhead 
populations that are listed as threatened or endangered under the 
Endangered Species Act (ESA), or identified by a state as at-risk or to 
be so-listed; for maintaining populations necessary for exercise of 
tribal treaty fishing rights or native subsistence fishing; or for 
conservation of Pacific coastal salmon and steelhead habitat. In 
Washington, Oregon, Idaho, and California, PCSRF funding is largely 
directed toward the Federal mandate to recover ESA-listed salmon and 
steelhead populations, and allocated based on priorities identified in 
salmon and steel head recovery plans. In Alaska, which currently has no 
ESA-listed salmon populations, PCSRF funding is limited to habitat 
conservation efforts. As such, it cannot be used to proactively tackle 
other factors that may pose serious threats to salmon populations like 
climate change, development, and non-native species proliferation, all 
of which the Pacific Salmon Stronghold Conservation Act seeks to 
address through innovative, prevention-based strategies.
    Similarly, Pacific Salmon Commission Restoration and Enhancement 
funds (``Northern and Southern funds'') are primarily directed toward 
the enhancement of wild stock production and the development of 
improved information for resource management, rather than proactive 
strategies to conserve healthy wild salmon populations. The Pacific 
Salmon Commission has identified three primary goals for the Northern 
and Southern Boundary funds: (1) development of improved information 
for resource management, including better stock assessment, data 
acquisition and improved scientific understanding of limiting factors 
affecting salmon production in the freshwater and marine environments; 
(2) rehabilitation and restoration of marine and freshwater fish 
habitat, and improvement of habitat to enhance productivity and 
protection of Pacific salmon; and (3) enhancement of wild stock 
production through low technology techniques rather than through large 
facilities with high operating costs. Over the last few years, the 
majority of the Northern and Southern funds have been spent on Goals 1 
and 3, with only a small percentage allocated toward habitat 
restoration and rehabilitation. In addition, according to the Northern 
Fund Committee's 2009 Call for Proposals, ``[T]he Committee believes 
that large-scale habitat rehabilitation, habitat monitoring, habitat 
protection, and land acquisition are more appropriately addressed by 
other agencies and organizations.''
    By establishing a Salmon Stronghold Partnership program, this 
legislation will complement existing salmon funding sources and enable 
resource managers to get ahead of the curve in conserving wild salmon 
over the long term. In addition, this Act will enhance cooperation and 
coordination among Federal resource agencies and other stakeholders in 
implementing prevention-based strategies to conserve salmon strongholds 
across diverse land ownerships and jurisdictional boundaries.

    Question 1a. Could resource managers not already use their existing 
funds for this purpose?
    Answer. Though NOAA can currently undertake projects to conserve 
healthy wild salmon populations and their habitat, the agency rarely 
does so because it has no such mandate (see answer to question (1) 
above). That is why the Pacific Salmon Stronghold Conservation Act is 
so vital it requires NOAA to undertake a complementary approach to its 
current recovery focus by protecting and restoring healthy wild Pacific 
salmon ecosystems.
    In addition, current salmon funding programs are not built to 
address Pacific salmon conservation goals on a regional scale. For 
example, PCSRF funds are allocated on a state by state basis. Each 
state allocates funds to recovery basins for habitat protection and 
restoration actions, and priorities are determined by each recovery 
basin (e.g., Lead Entities in WA). While these efforts are critical, 
resource managers must also assess emerging threats that transcend 
watershed and state boundaries. These cross-cutting threats--like 
invasive species proliferation and climate change--have great potential 
to exacerbate the impacts of existing limiting factors, while creating 
new ones. Unlike basin-specific limiting factors, however, which often 
require ``on-the-ground'' solutions implemented at the watershed scale, 
these threats can be more effectively addressed through 
``programmatic'' remedies that operate across multiple strongholds. 
This Act will enable the Salmon Stronghold Partnership to develop and 
support these crosscutting, programmatic remedies.

    Question 1b. If the potential economic payback of stronghold 
activities is so great, why have they not focused more resources on 
such projects?
    Answer. This is partially due to the dire state of many Pacific 
salmon populations across the West Coast. As I mentioned in my 
testimony, salmon are now extinct over 40 percent of their native 
range, and many other salmon populations have declined to the point 
that they are protected under the Endangered Species Act. As a result, 
Federal agencies are spending the majority of their resources 
responding to the crisis of the day (like the Sacramento Chinook 
collapse) and restoring highly impacted systems.
    In addition, the failure to allocate resources to proactive 
conservation efforts is likely because the payback from those efforts 
is harder to account for. It is much easier to track the return of an 
investment in restoration, where miles restored or fish passage 
barriers removed are easily quantified, than it is to evaluate 
preventative measures that are targeted to maintaining healthy 
ecosystem functions. This is a paradox for two important reasons: (1) 
it is less expensive to conserve healthy wild salmon populations and 
intact watersheds than it is to rebuild imperiled stocks or restore 
degraded habitat; and (2) the desired outcome--a functioning ecosystem 
supporting healthy wild salmon populations--is far more likely to be 
secured through prevention-based strategies than through restoration 
approaches.
    If we do not implement a new policy to focus Federal resources on 
the conservation of healthy wild salmon ecosystems in the near term, we 
will continue to see the health of our wild salmon populations decline 
and may lose our opportunity to stem the tide of wild salmon population 
loss and extinction.

    Question 2. In 2006, the Departments of Commerce and Interior 
joined forces with the Association of Fish and Wildlife Agencies to 
publish the National Fish Habitat Action Plan, a document that 
developed a strategy to protect, restore, and enhance the Nation's 
fisheries ecosystems. This Action Plan established a Governing Board of 
up to 20 members from state and Federal agencies, the conservation and 
science communities, and industry representatives tasked with 
coordinating involvement and raising awareness of and funding for fish 
habitat considerations. How would the Stronghold Partnership differ 
from and coordinate with this Governing Board?
    Answer. The Salmon Stronghold Partnership Board differs from the 
National Fish Habitat Board in a number of ways, most notably in its 
membership, purpose, and scale of focus.
    The Salmon Stronghold Partnership is a public-private partnership 
among Federal, state, tribal, and local governments, private 
landowners, and nongovernmental organizations working across political 
boundaries, government jurisdictions, and land ownerships to identify 
and conserve the healthiest wild Pacific salmon ecosystems in Alaska, 
Washington, Oregon, Idaho, and California.
    The Salmon Stronghold Partnership Board is the executive body of 
the Salmon Stronghold Partnership. The Board will consist of 19 to 21 
representatives with strong scientific or technical credentials and 
expertise, as follows: one representative from each of the National 
Marine Fisheries Service (NM FS), the U.S. Fish and Wildlife Service 
(FWS), the Forest Service, the Environmental Protection Agency, the 
Bonneville Power Administration, the Bureau of Land Management, and the 
Northwest Power and Conservation Council; one representative from each 
of the States of Alaska, California, Idaho, Oregon, and Washington; not 
less than three and not more than five representatives from Indian 
tribes or tribal commissions located within the range of Pacific 
salmon; one representative from each of three non-governmental 
organizations with salmon conservation and management expertise; one 
national or regional representative from an association of counties; 
and representatives of any other entities with significant resources 
regionally dedicated to the protection of salmon ecosystems that the 
Board determines are appropriate. The Pacific Fisheries Resource 
Conservation Council, an independent advisory body to the Canadian 
Minister of Fisheries and Oceans and the British Columbia Minister of 
Fisheries, is also participating on the Board as an Ex Officio member.
    The primary purposes of the Board will be to: (1) develop and 
support strategies focusing on the conservation actions projected to 
have the greatest positive impacts on wild salmon abundance, 
productivity and/or diversity in and across salmon strongholds, and (2) 
provide criteria for the prioritization of projects funded under the 
Salmon Stronghold Partnership program. In developing proactive 
strategies to prevent the decline of healthy wild salmon ecosystems and 
criteria for the prioritization of projects, the Board will not limit 
its scope to habitat conservation. Instead, it will consider all of the 
factors affecting the health of salmon strongholds (e.g., harvest, 
hatchery influence, and habitat alteration) at both watershed and 
region-wide scales.
    In contrast, the National Fish Habitat Board focuses on fish 
habitat conservation--both healthy habitats and those that are 
degraded--at a nationwide scale in an effort to establish national 
goals and priorities, designate Partnerships, and review and make 
recommendations regarding fish habitat conservation projects. The Board 
will be composed of 27 members, including: the Director of the FWS; the 
Assistant Administrator of the NMFS; the Chief of the Natural Resources 
Conservation Service; the Chief of the Forest Service; the Assistant 
Administrator for Water of the Environmental Protection Agency; the 
President of the Association of Fish and Wildlife Agencies; the 
Secretary of the Board of Directors of the National Fish and Wildlife 
Foundation; four representatives of State agencies, one of whom shall 
be nominated by a regional association of fish and wildlife agencies 
from each of the Northeast, Southeast, Midwest, and Western regions of 
the United States; one representative of the American Fisheries 
Society; two representatives of Indian tribes, of whom one shall 
represent Indian tribes from the State of Alaska, and one shall 
represent Indian tribes from the other States; one representative of 
the Regional Fishery Management Councils; one representative of the 
Marine Fisheries Commissions; one representative of the Sportfishing 
and Boating Partnership Council; and ten representatives selected from 
each of the following groups: the recreational sportfishing industry, 
the commercial fishing industry, marine recreational anglers, 
freshwater recreational anglers, terrestrial resource conservation 
organizations, aquatic resource conservation organizations, the 
livestock and poultry production industry, the land development 
industry, the row crop industry, and natural resource commodity 
interests, such as petroleum or mineral extraction.
    The National Fish Habitat Board and Salmon Stronghold Partnership 
Board have three representatives from the same Federal agencies--NMFS, 
FWS, and the Forest Service--and two representatives from the same non-
governmental organizations (NGO's)--Trout Unlimited and The Nature 
Conservancy. Aside from these five members, and potentially one state 
representative (depending on the Western State appointment to the 
National Fish Habitat Board), membership is quite different among these 
two bodies. Both the Federal agencies and the NGO's participating on 
the Boards recognize the differences between these two efforts and the 
value of supporting both.
    The Salmon Stronghold Partnership Board will coordinate with Fish 
Habitat Partnerships (FHPs) that overlap with its focal area (i.e., 
salmon strongholds across Alaska, Washington, Oregon, Idaho, and 
California) to avoid duplication of efforts and potentially fill the 
gaps that Fish Habitat Partnerships do not address, either 
geographically or through programmatic initiatives that address 
challenges across multiple basins. This cooperation and coordination 
will be necessary in Alaska, since the state has been identified as a 
regional salmon stronghold and contains three recognized FHPs. Members 
of the Salmon Stronghold Partnership Board will initiate discussions 
with the Alaska FHPs at a National Fish Habitat meeting in Anchorage 
this summer to determine how the partnerships can work together in the 
State.

    Question 3. Some principles of conservation biology would support 
the stronghold concept. However, finding examples of existing 
``stronghold'' programs is difficult. How would you describe the 
defining characteristics of a species ``stronghold''?
    Answer. The Pacific Salmon Stronghold Conservation Act defines a 
``salmon stronghold'' as ``all or part of a watershed that meets 
biological criteria for abundance, productivity, diversity (life 
history and run timing), habitat quality, or other biological 
attributes important to sustaining viable populations of salmon 
throughout their range.'' S. 817, 111th Cong.  3(8) (2009). Because 
the stronghold approach seeks to sustain viable populations ``across 
their range,'' and abundance and diversity decrease dramatically from 
strongholds in the north to those in the south, the term ``stronghold'' 
is relative. Each stronghold is identified and can only be described 
within the context of the distinct geographic areas that conservation 
planners use to organize the enormous landscape that supports wild 
salmon. These areas are known as ecological regions, or ``eco-
regions.'' Within the eco-regions of CA, OR, WA, and ID (and southern 
British Columbia), partners are convening to evaluate wild populations 
and identify ``core strongholds.'' Because of the extraordinary 
abundance and diversity of wild salmon populations throughout Alaska, 
the Act recognizes the entire state as a salmon stronghold. Despite the 
variations across eco-regions in the lower 48 states, some common 
characteristics exist, which may be summarized as follows:

        1. Strongholds meet the highest values for wild salmon 
        abundance and diversity. Salmon strongholds support the 
        greatest assemblage of wild salmon species with high abundance 
        and productivity and minimal influence of hatchery-reared 
        populations within an eco-region. Wild populations demonstrate 
        a high diversity of life history strategies, providing a 
        significant buffer against population extirpation in the event 
        of a short or long term disturbance to the system. The first 
        step in identifying salmon strongholds is for experts within 
        each eco-region to score populations according to three 
        criteria: abundance and productivity, percent natural origin 
        spawners, and life history diversity.

        2. Strongholds make the highest proportional contributions 
        toward meeting conservation goals within an eco-region. In his 
        testimony on the Pacific Salmon Stronghold Conservation Act, 
        Dr. Gordon Reeves with the U.S. Forest Service stated, ``[T]he 
        identification and selection of a stronghold is premised on 
        principles of systematic conservation design, which are well 
        established in the scientific literature (see Soule and 
        Terborgh 1999). These include: (1) comprehensiveness--the 
        extent to which the network protects the desired level of 
        biodiversity and abundance; (2) irreplaceability--the inclusion 
        of areas or populations that are necessary to achieve the 
        conservation goals; and (3) efficiency--the network is designed 
        [in] the most efficient manner that achieves the conservation 
        goals while minimizing the area involved.'' By entering 
        stronghold data collected through ``expert scoring'' (#1 above) 
        into network design software, conservation planners can 
        identify those locations that support the highest proportions 
        of an eco-region's overall wild salmon production within a 
        small area (relative to the entire eco-region). Investment in 
        those locations--salmon strongholds--will yield the biggest 
        bang for our buck in conservation returns.

        3. Strongholds contain relatively unfragmented and ecologically 
        intact habitats. Scientists have conducted extensive research 
        that clearly demonstrates the adverse impacts of aquatic and 
        terrestrial habitat fragmentation and degradation on the 
        abundance and diversity of wild salmon populations. Salmon 
        strongholds contain high value and intact riparian, instream, 
        wetland, and (sometimes) estuarine habitats that are well 
        connected across the watershed. Trophic systems (the foodweb) 
        are intact, invasive species infiltration minimal, and key 
        areas of refugia are relatively unaltered. In short, the salmon 
        stronghold system is functioning with minimal human disturbance 
        relative to the other parts of the eco-region.

    Question 3a. What precedents exist for this type of management, and 
have stronghold management approaches resulted in measurable 
conservation gains for the target species?
    Answer. A key purpose of conservation biology is ``to retain the 
actors in the evolutionary play and the ecological stage on which it is 
performed'' (quote of G.E. Hutchinson in Meffe and Carroll 1999). The 
establishment of strongholds, also known as reserves, is a primary tool 
for meeting this goal and has been employed around the world to help 
protect a vast number of organisms and resources (Margules and Pressey 
2000). Generally, these are areas that currently have strong 
populations and intact, functioning ecosystems because conservation 
actions are most successful before populations or ecosystems begin to 
decline. Strongholds have been established primarily for marine and 
terrestrial systems. The stronghold network proposed by the current 
legislation would be one of the first for freshwater fish.
    While many strongholds and stronghold networks have been 
established, it is difficult to fully assess their success (Gaston et 
al., 2006). The reasons for this include the: (1) paucity of systematic 
data; and (2) incompatibility of data that has been collected to 
measure the performance of the individual efforts. However, studies 
that have evaluated strongholds and strongholds networks found that 
them to be generally successful in meeting their conservation 
objectives.
    For example, the North American Flyway, which is a series of 
reserves on public and private lands along the migratory corridors of 
waterfowl that were established by the Migratory Bird Treaty Act, has 
helped to maintain healthy waterfowl populations (Nichols et al., 
1995). Similarly, Halpern (2003) reviewed the biological response to 
the establishment of 89 marine reserves worldwide and found that the 
density of fish was 2 times greater, biomass was 3 times greater, and 
size and diversity were 20-30 percent higher in reserves than in 
adjacent areas. The effects of the reserves increased with the size. 
Rates of declines of biodiversity in English reserves were generally 
lower than or similar to compared to declines to outside areas (Gaston 
et al., 2006). In addition, trends were most positive in larger 
protected areas. For example, Andam et al., (2008) estimated that 
forest reserves in Costa Rica reduced deforestation by 10 percent.
    Scientists have suggested the stronghold (or similar) approach for 
several years. Williams et al., (1989) and Moyle and Yoshiyama (1994) 
were among the earliest to argue for this approach. Williams et al., 
noted that no freshwater fish that was listed under the Endangered 
Species Act (ESA) up to that time had been removed because it recovered 
sufficiently. The number of freshwater fish listed under the ESA 
continues to increase, while few have been delisted to date (Williams 
and Miller 2006).
    As Pacific salmon, and other native fish, in the western United 
States continue to decline, scientists are renewing the call for the 
protection of areas with the strongest and most diverse populations and 
most intact ecosystems (Williams and Miller 2006, Williams et al., 
2006, Gustafson et al., 2007). Unfortunately, I am not aware of any 
example of where the stronghold approach has actually been applied for 
salmon or any other freshwater fish, particularly on a large spatial 
scale. Perhaps the best examples are the key watersheds, which are part 
of the Aquatic Conservation Strategy of the Northwest Forest Plan 
(NWFP) that guides management on Federal lands in western Oregon and 
Washington and northern California, within the range of the northern 
spotted owl (Strix occidentalis caurina). Key watersheds had currently 
good habitat, the best potential to respond to restoration, or were 
municipal water supplies, and were distributed across the area of the 
Northwest Forest Plan (Reeves et al., 2006). The purpose of the former 
two types was to aid in the recovery of habitat of listed Pacific 
salmon and other fish. Ten years after the implementation of the NWFP, 
the proportion of key watersheds (70 percent) whose condition improved 
was greater than that of non-key watersheds (50 percent). This was 
achieved while allowing timber production and other activities to 
occur.
Literature Cited
    Andam, K.S., P.J. Ferraro, A. Pfaff, G. A. Sanchez-Azofeifa, and 
J.A. Robalino. 2008. Measuring the effectiveness of protected areas 
networks in reducing deforestation. Proceedings of the National Academy 
of Science 105(42) : 16089-16094.
    Gaston, K.J., S.F. Jackson, L. Cantu-Salazar, and G. Cruz-Pinon. 
2008. The ecological performance of protected areas. Annual Review of 
Ecology, Evolution, and Systematics 39: 93-113.
    Gaston, K.J., K. Charman, S.F. Jackson and 12 co-authors. 2006. The 
ecological effectiveness of protected areas: The United Kingdom. 
Ecological Conservation 132: 76-87.
    Gustafson, R.G., R.S. Waples, J.M. Myers, L.A. Weitkamp, G.J. 
Bryant, O.W. Johnson, and J.J. Hard. 2007. Pacific salmon extinctions: 
Quantifying lost and remaining diversity. Conservation Biology 21: 
1009-1020.
    Halpern, B.S. 2003. The impact of marine reserves: Do reserves work 
and does reserve size matter? Ecological Applications 13: S117-S137.
    Margules, C. R. and R. L. Pressey. 2000. Systematic conservation 
planning. Nature 405: 243-253.
    Meffe, G. K, C. R. Carroll, and contributors. 1999. Principles of 
conservation biology. Second edition. Sinaeuer Associates, Sunderland, 
MA.
    Moyle, P.B. and R.M. Yoshiyama. 1994. Protection of aquatic 
biodiversity in California: five-tiered approach. Fisheries 19920; 6-
19.
    Nichols, J.D., F.A. Johnson, and B.K. Williams. 1995. Managing 
North American waterfowl: The face of uncertainty. Annual Review of 
Ecology and Systematics 26: 177-199.
    Reeves, G.H., J.E. Williams, K.M. Burnett, and K. Gallo. 2006. The 
aquatic conservation strategy of the Northwest Forest Plan. 
Conservation Biology 20: 319-329.
    Williams, J.E. and R.R. Miller 2006. Conservation status of the 
North American fish fauna in fresh water. Journal of Fish Biology 
37(sA) : 79-85.
    Williams, R.N., J.A. Stanford, J.A. Lichatowich, and 7 co-authors. 
2006. Return to the river: Strategies for salmon restoration in the 
Columbia River basin. In R.N. Williams, editor. Return to the River: 
Restoring salmon to the Columbia River. Pages 629-666.
    Williams, J.E., J.E. Johnson, D.A. Hendrickson and 5 co-authors. 
1989. Fishes of North America: endangered, threatened, and of special 
concern. Fisheries 14(6): 2-21.

    Question 3b. If the concept of a ``stronghold'' is based largely on 
where the species has a relatively large population and intact habitat 
(i.e., mostly based on ecological criteria), how are human economic and 
social needs taken into account when selecting ``stronghold'' sites?
    Answer. The identification of salmon stronghold sites is based 
entirely on biological criteria, which includes abundance and 
productivity, ``wildness'' (influence of hatchery-born fish), and 
diversity of wild Pacific salmon and steelhead populations. Reliance on 
biological criteria in the determination of stronghold boundaries 
ensures that the effort to conserve strong populations is built on a 
foundation of solid science that accurately reflects population health 
and viability. This science-driven approach is essential if we are to 
accurately identify strongholds and carry out the intent of the Pacific 
Salmon Stronghold Conservation Act.
    While a portfolio of watersheds is conferred stronghold status 
based on science, economic and social needs will be taken into account 
when decisions are made concerning where funds provided under this Act 
are invested. The Stronghold Partnership's Charter states that the 
Salmon Stronghold Partnership Board will consider the extent to which a 
project will ``protect, improve, or promote local economic 
opportunities associated with healthy salmon stronghold habitats and/or 
populations, including responsible and sustainable resource use related 
to fishing and recreation'' when the Board determines annual priorities 
for funding. NASSP Charter, Section 5.2.5. By evaluating the potential 
of a project to deliver economic benefits to stronghold communities, 
the Board will consider not only the health of wild salmon populations, 
but also the communities and economies that they help sustain.
    The Board's intent to consider economic and social needs in its 
determination of funding priorities can also be illustrated through the 
``Rudio Creek'' project, which the Partnership helped fund in 2008. 
Undertaken through a broad partnership, the Rudio Creek project 
supported a rancher's efforts in the John Day basin to increase the 
efficiency of his irrigation practices while promoting the health of 
strong salmon and steelhead populations. The major objectives of the 
project were to keep water in a critical spawning and rearing 
tributary, Rudio Creek, while supporting the rancher's needs for 
improved and more dependable irrigation infrastructure. Recently 
completed, the project was hailed as a great success by the landowner 
and the range of state, Federal, and private partners involved. All of 
these parties applauded the project as a win-win in its capacity to 
conserve local natural resources, while promoting the economic health 
of a vital local ranching industry. Integrating all three components--
environmental, economic, and social needs of the communities that lie 
within strongholds--into the development of a project supports what is 
known as ``the triple bottom line,'' which is widely recognized as 
critical to building lasting partnerships and implementing broadly 
supported projects in rural regions.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Joe Childers

    Question 1. The salmon fisheries in Alaska are in a much healthier 
state than most salmon fisheries in the Pacific Northwest. Yet the 
vitality of these fishing communities depends upon the health of 
Alaska's salmon populations. What is the value of salmon fisheries to 
coastal communities who depend upon them?
    Answer. Alaska's salmon fisheries generated $370 million in ex-
vessel value in 2009, according to the Alaska Department of Fish and 
Game. This equates to roughly $1.1 billion in first wholesale value, 
according to the Alaska Seafood Marketing Institute. It is difficult to 
quantify how much of the fishing income is retained within fishing 
communities but Alaska residents comprise approximately 75 percent of 
salmon permit holders and roughly half of crew jobs, so it is expected 
that salmon income to harvester and processor sectors is likely to 
exceed $500 million in Alaska communities. In many of these communities 
there is very little other opportunity for employment. Many coastal 
communities depend on the local community's share of the 3 percent fish 
tax to support schools, police, public docks, and other services. 
Enhancement taxes from salmon fisheries are used within the region 
collected for enhancement projects that in return benefit all users, 
commercial, sport, and personal use.

    Question 2. How would Alaska and its communities change if your 
salmon populations experienced severe declines similar to those 
experienced by other regions?
    Answer. If Alaska suffered salmon declines as have been seen 
elsewhere, some Alaska coastal communities would cease to exist. With 
no option for other employment, residents would be forced to move away. 
For many families, commercial salmon fishing provides for the income to 
support a subsistence lifestyle. Without income from salmon harvest and 
processing, only a handful of major ports that have diversified 
groundfish, finfish, and shellfish fishing fleets or other job 
opportunities would survive. Loss of the salmon sector would likely 
also cripple many of these diversified ports with increased 
unemployment from the loss of processing, hatcheries, and management 
funding.

    Question 3. How would such declines impact fishermen from other 
states like Washington who also depend on Alaskan's salmon runs?
    Answer. 1,856 Washington State residents, 330 Oregon residents, and 
281 California residents held Alaska salmon fishing permits in 2009, as 
well as residents of 43 other states. These independent mostly small 
family business owners would likely be displaced and unemployed. Crew 
counts are not so closely counted, but in 2007 there were crew licenses 
issued to 8,400 non-Alaska residents, with the majority of these 
working on salmon vessels. These individuals would also likely be 
displaced. In addition value added processing and cold storage 
facilities with extensive historic ties to the Alaska salmon industry 
are located in many West coast communities, and many of these 
businesses would fail or face cutbacks in employees without Alaska 
salmon to process. If a major reduction in salmon production were to 
occur, the cost of almost all consumer goods in the state would rise 
due to the loss of the backhaul container capacity.

    Question 4. With so much money and attention going toward depleted 
salmon populations, do you feel like Alaska's largely healthy salmon 
populations get the `short end of the stick'?
    Answer. In some ways, yes. The kinds of projects, studies, and 
funding needed to maintain healthy salmon stocks are different than 
those intended to restore threatened salmon. We are not confident that 
the message sent regarding the demise of the West coast salmon habitat 
and subsequently the salmon, is well understood by the public in 
Alaska. It would be beneficial to describe for the Alaska public, the 
various policies adopted elsewhere that have proven to be so 
detrimental to salmon and salmon habitat, so that they can potentially 
be avoided in the future, everywhere.

    Question 5. If more attention isn't given to salmon strongholds in 
the future, would you consider that to be a threat to Alaska's salmon 
populations?
    Answer. Yes. Without this attention to salmon everywhere they 
exist, there will be little awareness of the wide range of threats to 
salmon everywhere. The same attention applied elsewhere to preserve 
salmon needs to be translated into public policy and applied on a 
project by project basis to prevent harm in Alaska.

    Question 6. Since Alaskan salmon stocks benefit not only fishermen 
from Alaska, but also fishermen from Washington State and Oregon, don't 
we all be have an interest in maintaining the healthy status of 
Alaska's salmon populations?
    Answer. Yes, there are financial benefits not only to Washington, 
Oregon, and California and to 43 other states that derive direct income 
from salmon fishing. The economic engine derived from salmon fishing 
employs many thousands of people on the West coast certainly, but also 
throughout the U.S. No less important, of course, is the fact that 
millions of Americans enjoy a sustainable and extremely healthful 
protein source.

    Question 7. Aren't Alaska's salmon populations simply too important 
to be taken for granted?
    Answer. Yes, we agree. Alaska is a salmon stronghold today. Not 
very long ago, so was the entire west coast, and before that so was the 
east coast. Alaska's salmon populations and watershed strongholds are 
nothing less than national treasures.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              Joe Childers

    Question 1. The National Marine Fisheries Service (NMFS) has 
dedicated significant resources to Pacific salmon conservation and 
management--upwards of $117 million in 2010 alone for the Pacific 
Coastal Salmon Recovery Fund (PCSRF) and other ``salmon management 
activities.'' NMFS also receives funding from two international funds 
with an endowment of approximately $135 million through the U.S./
Canadian Pacific Salmon Commission. S. 817 would authorize an 
additional $30 million annually to establish a grant program that would 
focus on maintaining currently healthy habitat for Pacific salmon. What 
authorities does the legislation bring to fisheries habitat 
conservation that does not already exist?
    Answer. Existing Federal authorities such as the Endangered Species 
Act and Pacific Coast Salmon Recovery Fund primarily target fish 
populations and habitats that are already suffering decline or imminent 
threats in a reactive manner. Yet it is very expensive and difficult to 
restore populations, undo environmental harm after it is done, or 
redirect harmful activities once established. The resulting history of 
salmon populations worldwide is a sad story of serial depletion.
    The Act would proactively provide the opportunity to identify 
salmon strongholds and then support cooperative projects to ensure the 
sustainability of the health of these systems.

    Question 1a. Could resource managers not already use their existing 
funds for this purpose?
    Answer. Perhaps, but the attention and funding is primarily 
directed at solving problems, not preventing problems with salmon 
populations. Existing problems always seem to take a funding priority, 
and direction from Congress that prevention of a problem is also a 
priority when Federal dollars are to be allocated is needed to assure 
existing habitat and populations are being protected.

    Question 1b. If the potential economic payback of stronghold 
activities is so great, why have they not focused more resources on 
such projects?
    Answer. We believe that outside Alaska, the damage to salmon 
populations was already set in place well before the initiation of the 
public consciousness of the value that salmon provide, and agency 
efforts to address situations of depletion. Harmful practices proceeded 
in many salmon bearing systems before the scientific knowledge existed 
to protect salmon while promoting resource and agricultural development 
and population expansion. We do not feel that the value of protecting 
salmon has truly been ``a part of the equation'' for most of the 
continuing history of the development of the United States. It is only 
recently that the term sustainability has been so prevalent in resource 
and development conversations and regulatory agency actions. The Salmon 
Stronghold Conservation Act would indeed have been more timely a few 
decades ago for most of the historical range of salmon in the U.S.

    Question 2. New England also has its share of healthy stocks, such 
as Maine lobster and sea scallops, that each bring over $300 million 
annually in landings value. The Gulf of Maine and Georges Bank could be 
considered strongholds for these critical species. Might this kind of 
stronghold partnership structure benefit marine species like lobster 
and scallops, as well as anadromous species like Pacific salmon?
    Answer. Yes. Viable healthy populations of many varieties of 
seafood could benefit from proactive attention to ensure the economic 
viability of communities that depend on them--and most importantly, to 
ensure continued public benefit through sustainable seafood supply.

    Question 3. In 2006, the Departments of Commerce and Interior 
joined forces with the Association of Fish and Wildlife Agencies to 
publish the National Fish Habitat Action Plan, a document that 
developed a strategy to protect, restore, and enhance the Nation's 
fisheries ecosystems. This Action Plan established a Governing Board of 
up to 20 members from state and Federal agencies, the conservation and 
science communities, and industry representatives tasked with 
coordinating involvement and raising awareness of and funding for fish 
habitat considerations. How would the Stronghold Partnership differ 
from and coordinate with this Governing Board?
    Answer. There are differences in the makeup of the governing bodies 
of the National Fish Habitat Action Plan Board from the Salmon 
Stronghold Partnership Board, though both share in common the 
representation of NMFS, USFWS, USFS, and the EPA. We reiterate our 
written comment that we would support increased representation of 
commercial fishing in the Strongholds Partnership Board.
    The Fish Habitat Action Plan is nationwide in scope and its efforts 
are spread among a wide array of species, including many that do not 
include the public benefit of food production through sustainable 
commercial fisheries. It focuses on fish habitat conservation and 
restoration efforts specific to a particular watershed.
    The Salmon Stronghold Partnership would narrow its focus to salmon 
only, while broadening its range to consider impacts and projects 
beyond habitat including water quality and quantity, climate change 
effects, hatchery opportunities and effects, and other potential 
opportunities to benefit salmon populations.

    Question 4. Some principles of conservation biology would support 
the stronghold concept. However, finding examples of existing 
``stronghold'' programs is difficult. How would you describe the 
defining characteristics of a species ``stronghold''?
    Answer. A stronghold is a watershed, area, region, or in the case 
of Alaska, a state that still retains healthy populations of salmon. 
These are places where the habitat and food webs of the freshwater 
streams and lakes are intact to provide the opportunity for salmon to 
return to suitable spawning habitat, water quality and quantity to 
provide for the incubation of eggs and the survival of juvenile salmon 
in their freshwater rearing habitats, passage to marine environment, 
marine food webs, and regulatory regimes that have enabled sustained 
populations to this time. Considering the original range of virtually 
every coastal watershed from Central California to Northern Alaska, 
these remaining places that support salmon populations are very special 
and deserving of the attention that will be provided by the Act.

    Question 4a. What precedents exist for this type of management, and 
have stronghold management approaches resulted in measurable 
conservation gains for the target species?
    Answer. We are not aware of direct comparison already in place. We 
see the strongholds concept as a practical application of ecosystem 
based management, which has become a very common slogan but is still in 
its infancy in actual application in resource management. The concept 
of the Salmon Strongholds Partnership Act is novel, and timely.

    Question 4b. If the concept of a ``stronghold'' is based largely on 
where the species has a relatively large population and intact habitat 
(i.e., mostly based on ecological criteria), how are human economic and 
social needs taken into account when selecting ``stronghold'' sites?
    Answer. In Alaska, salmon represent the largest employment 
component of the multi-billion dollar seafood industry with the 
majority of harvester, crew, and processor opportunities. While the 
seafood industry is diversified among coastal and offshore fisheries 
for a rich variety of species, salmon is still the lifeblood of 
Alaska's coastal economies while also providing economic benefits to 
all Alaskans through revenues and reduced cost of transportation for 
virtually all goods consumed in the State, by the filling of containers 
that otherwise would return to U.S. ports empty. Salmon is also the 
majority of subsistence harvest for many Alaskans that live in areas 
that do not support a cash economy or traditional employment 
opportunities. Salmon are integral to our tourism economy not only 
through sport fishing but in wildlife viewing activities such as bear 
viewing which is focused at places where for centuries bears have 
congregated to feed on returning salmon. In addition, Alaska's forests 
are dependent on nutrients that are moved onto land as bears feed. The 
loss of salmon in areas of Alaska would be a huge detriment in human 
economic and social terms.
    In summary, in Alaska salmon and human economic and social needs 
are inseparable.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Ms. Sara LaBorde

    Question 1. In these hard economic times, there have been questions 
about allocating additional funds to protect healthy salmon populations 
when funds are already provided for recovering struggling ones. Don't 
these stronghold efforts need to be in addition to current efforts to 
recover salmon stocks?
    Answer. Yes, additional funds are needed to support efforts to 
protect healthy populations and reduce the likelihood of additional 
populations being listed under the Endangered Species Act (ESA).
    The Pacific Coastal Salmon Recovery Funds (PCSRF) are vital to 
meeting the recovery efforts called for in salmon recovery plans 
developed for ESA-listed salmon populations.
    The PCSRF program is a very deliberate program with high standards 
and accountability. It is directed toward the Federal mandate to 
recover salmon and steelhead populations listed as threatened or 
endangered under the Endangered Species Act (ESA). The allocation of 
funds is driven by priorities developed by local watersheds to address 
actions outlined in NOAA-adopted salmon and steelhead recovery plans. 
For example, Pacific Coastal Salmon Recovery Funding (PCSRF) in WA, OR, 
ID, and CA is primarily allocated to projects that further protection 
and restoration of ESA-listed salmon and steelhead populations.
    As a consequence, basins with healthy wild salmon populations do 
not receive adequate funding for protection and restoration actions 
needed to ensure the populations remain in good shape (e.g., Smith 
River in CA; Olympic Peninsula rivers along WA's Pacific coast).
    It should be noted, that there is great economic benefit derived 
from the healthy salmon stronghold populations that are at risk when 
population crashes occur such as recent crashes in the Frazier and 
Sacramento salmon populations.
    Recovery efforts are vital, but are extremely costly and will take 
time. The Stronghold Act calls for recovery efforts to be complemented 
by strategic investments in salmon strongholds to secure genetically 
diverse source populations. This will be critical to ensure healthy 
wild salmon populations continue to thrive in light of climate change 
and other threats.
    It will also protect the valuable ecological services these 
watersheds provide (e.g., drinking water, irrigation, flood control, 
nutrient cycling, carbon sequestration, and pollutant filtering).

    Question 2. Can you explain how preserving the stronghold 
populations will assist in decreasing recovery costs in the future?
    Answer. Investing in salmon strongholds will save billions of 
dollars in the long run by preventing future ESA listings and related 
restoration costs. It is much more cost effective to work with local 
and regional communities and partners to protect functioning systems 
now--than to pay the high costs we have found it takes to repair and 
restore systems after they have been significantly impacted.
    Correcting historic actions, after the fact, is proving to be 
expensive: reforming economically important hatcheries, setting back 
protection levies, improving water withdrawal systems, providing 
passage to quality habitats upstream of barriers to migration are just 
a few examples.
    If the objective is to have sustainable salmon and steelhead 
populations--that are able to respond to changes in their watersheds--
it is vital to support and protect healthy ecosystem functions and the 
local communities that depend on them.
    By creating a partnership with local communities, Federal and state 
managers, tribes and private organizations, we can provide the support 
needed to ensure a watershed continues to provide the important 
functions needed for salmon to survive--clean water, spawning and 
rearing habitat, and reduced competition with hatchery fish on the 
spawning grounds.

    Question 3. As a state wildlife manager, what tools would the 
Pacific Salmon Stronghold Conservation Act give you that you currently 
don't have?
    Answer. Washington's Fish and Wildlife Commission recently adopted 
a fishery and hatchery reform policy that addresses needed hatchery and 
harvest reform issues for both listed and non-listed salmon and 
steelhead populations.
    As a state manager we are currently addressing harvest issues both 
locally with tribal co-managers and regionally through the Pacific 
Salmon Commission and Pacific Salmon Treaty. We are addressing hatchery 
reform issues, watershed by watershed, using the thoughtful 
recommendations and guidelines of the Congressionally-created Hatchery 
Scientific Review Group. Hatchery reform strategies are looked at from 
a watershed and a larger regional context.
    While there are vehicles to address harvest and hatchery issues at 
a broader scale, the Stronghold Act provides the framework to address 
other important factors affecting salmon at a broader regional scale as 
well.
    The Salmon Stronghold Act provides the following important tools:

  <bullet> Provides policy leadership to consider ways to ensure 
        healthy systems remain healthy and functioning.

  <bullet> Enables local communities, organizations, and state, Federal 
        and tribal managers to work at a regional level: from 
        California to Alaska to address large programmatic issues that 
        can benefit all salmon populations.

  <bullet> It creates a policy table that can address issues at local, 
        state and Federal levels. The Stronghold Steering Committee 
        includes every state fish and wildlife agency, Governor's 
        office and Federal natural resource agency. This is extremely 
        valuable to local governments or state managers frustrated when 
        bureaucratic processes or various agency silos impede 
        development or implementation of effective local solutions.

  <bullet> It builds on local and state funding and accountability 
        systems keeping the system efficient, effective and 
        accountable.

    Question 4. Do you believe the structure and makeup of the Salmon 
Stronghold Partnership will be valuable for Washington State in 
providing a forum to discuss salmon conservation across political 
boundaries?
    Answer. Yes.
    First, the Salmon Stronghold Partnership builds on local and state 
funding and accountability systems that reinforce program efficiency, 
effectiveness and accountability.
    In Washington State, we have worked hard at the watershed level 
through salmon recovery regions to develop a coordinated and integrated 
approach to salmon recovery and have attempted to use this framework in 
areas with healthy un-listed populations of salmon and steelhead.
    The State of Washington created and continues to support a locally-
driven approach to salmon restoration and protection. The annual 
habitat project lists developed in every watershed are based on a 
locally-driven approach. Salmon habitat restoration projects are 
developed and prioritized through the local ``Lead Entity'' groups. 
These groups, when initiated, could only be constituted if local 
governments were official members. This approach has provided a local 
ownership of habitat restoration actions and priorities. The state 
believes in and supports this process and continually looks for ways to 
strengthen it. This is a ``bottoms-up'' program directed by local 
governments and their local tribal, state and Federal partners with 
technical, policy, and fiscal oversight by the state (i.e., the Salmon 
Recovery Funding Board and Recreation and Conservation Office).
    The Stronghold Partnership will assist the development of these 
systems in areas with still healthy populations. It will help create a 
steering committee at the local level as well as connect to a much 
broader regional system that can address issues in a watershed as well 
as issues much larger in scale.

    Question 5. How do you think this bill would help achieve effective 
salmon management in watersheds with fragmented land ownership like the 
Wenatchee Basin?
    Answer. The Pacific Salmon Stronghold Conservation Act would help 
achieve effective salmon management in basins with fragmented 
ownership--like the Wenatchee Basin--by providing the funds necessary 
to initiate and complete land consolidation through voluntary land 
exchanges and acquisitions. Land consolidation across key salmon 
habitats will increase both the effectiveness and efficiency of the 
implementation of watershed conservation plans.
    Because salmon utilize most of the aquatic habitats in a watershed 
ranging from the high gradient tributaries in the upper watershed 
through the wetland habitats in the lower gradient portions, holistic 
watershed level planning is essential for effective lands management. 
Consequently, numerous partnerships have emerged over the last couple 
of decades that focus on developing watershed plans to coordinate and 
leverage the conservation strategies of multiple landowners across a 
variety of land uses.
    While these plans are effective in developing scientifically-driven 
strategies to conserve salmonid resources, their implementation is 
often compromised by the divergent land use goals of private, local, 
state, and Federal land owners. Where ownership is fragmented within a 
watershed, the conservation challenges created by conflicting landowner 
goals are greatly amplified. Conflicting goals can lead to inconsistent 
management of contiguous habitats, which eliminates conservation 
opportunities or diminishes the effectiveness of ongoing conservation 
investments. For example, the protection and restoration of upper 
watershed tributary habitats will be ineffective if they are, or later 
become, inaccessible due to fish passage barriers downstream. 
Similarly, the eradication of invasive species by one landowner will 
not work if the species are not eradicated, or are reintroduced, by 
neighboring landowners.
    In the Wenatchee Basin, the patchwork ownership pattern and the 
inefficiencies it promotes present challenges for both private 
landowners--who struggle with invasive species control, inefficient 
fire management, and trespass--and the conservation community, which 
must contend with spatially inconsistent implementation of conservation 
plans. Despite broad recognition of the inefficiencies created by 
fragmented land use, no state or Federal agency has made land 
consolidation a priority in the basin due in large part to the 
technical complexity of the task, the level of coordination needed, and 
a lack of funds available to support management of the process. Other 
salmon stronghold basins, like the John Day Basin in Oregon, have also 
identified fragmented land ownership as a limiting factor to their 
capacity to conserve wild salmon.
    Because it supports cross-cutting, programmatic initiatives that 
affect multiple strongholds, the Pacific Salmon Stronghold Conservation 
Act has the unique capacity to jumpstart locally-led efforts to 
implement land consolidation, which have been difficult to finance 
through existing programs. This Act would help eliminate significant 
inefficiencies resulting from fragmented ownership by providing 
opportunities to protect and restore key habitats that are now 
inaccessible, elevating this issue as a priority amongst Federal 
agencies, and providing funding and technical assistance to local 
partners to work with Federal, state and tribal governments and local 
landowners to facilitate consolidation. In doing so, this Act would not 
only address a key limitation to the long term health of salmon 
strongholds, but also promote efficiencies in many of the West's 
working landscapes.

    Question 6. Some may have a concern that once this bill is enacted 
and implemented, the Pacific Salmon Stronghold Partnership will become 
just another layer in an already vast bureaucracy of salmon management? 
Are there steps for implementing this bill that you view as essential 
to make sure that we truly realize the added value we're trying to 
achieve by creating the Partnership?
    Answer. It is important that the Stronghold Partnership continue to 
be a voluntary, incentive-based effort that will leverage resources to 
accomplish locally-supported goals shared by public and private sectors 
in salmon strongholds.
    It is also critical that the Stronghold partners provide a science-
based list of high conservation value actions within strongholds--that 
are supported by local communities, who themselves have ``opted in'' to 
the Stronghold Partnership. This will ensure that the actions provide 
good investment opportunities for interested donors/partners.
    A third component of the Stronghold Partnership is the call for 
utilizing a broad suite of voluntary, market-based approaches, such as 
conservation easements, resource banking, and third-party certification 
that is already being utilized by public and private entities 
throughout the country.
    It is also important that the Stronghold Partnership continue to 
utilize current state systems for prioritizing and funding watershed 
projects.
    Lastly, a key is the required participation from applicable 
Federal, state and local agencies and organizations to assist in 
development of locally based strategies to ensure healthy salmon 
populations.

    Question 7. Jurisdiction over salmon habitat crosses many Federal, 
tribal, state, and local boundaries. We need to avoid adding levels of 
bureaucracy and focus on making sure that goals and efforts among these 
institutions are well aligned. Having been part of these efforts in the 
past, do you believe that this Act promotes efficiency among these 
different entities?
    Answer. Yes.
    The Stronghold Act reinforces the use of locally and state 
developed prioritization, funding and accountability processes. We are 
also aided by the lessons learned through developing and implementing 
the salmon recovery plans. The Stronghold Partnership builds upon these 
lessons, processes and partnerships and provides the support for local 
communities to protect their stronghold populations.
    There are numerous important Federal and state agency programs that 
can benefit salmon and watersheds in agencies like U.S. Forest Service, 
U.S. Fish and Wildlife Service, Washington Department of Fish and 
Wildlife and Washington Department of Ecology.
    One of the objectives of the Stronghold Partnership is to work with 
the state and Federal partners in identifying and aligning these 
valuable programs to better meet local priorities for keeping the local 
watershed healthy for salmon and healthy for local communities. This is 
applicable to different aspects of state and Federal programs--even 
those not focused specifically on providing funds to watersheds--that 
still play an important role in ensuring stronghold watersheds continue 
to be significant contributors of salmon. U.S. Forest Service Roads 
maintenance program is one example.
    The Stronghold Partnership will utilize the current funding 
distribution structure in the State of Washington that coordinates the 
identification, review and selection of projects to make the most 
effective use of both the PCSRF funds and Salmon Stronghold funds. In 
that PCSRF funds are focused on ESA populations as a priority, 
Partnership activities will focus on meeting stronghold watershed needs 
through partnerships with private funders as well as more effective 
coordination of state and Federal activities in the watershed.

    Question 8. This bill affords opportunities for communities to 
become even more of a part of conservation of salmon populations. One 
of these opportunities is conserving habitat by providing ecosystem 
services. How do you see this opportunity expanding stewardship in 
communities that have healthy salmon populations?
    Answer. Voluntary payment for ecosystem services is one potential 
tool in addressing salmon conservation that enables local communities 
to work together to identify and provide effective stewardship of their 
watersheds and salmon populations.
    If in looking at the priority actions identified for the stronghold 
watershed, payment for ecosystems services is identified as a potential 
strategy, the local partner would look at the ecological goals 
determined by scientific analysis in the watershed (i.e.--ecosystem 
services per acre of land) and would inventory all existing incentive-
based programs available to landowners and land managers in key areas.
    If gaps exist, the Stronghold Partnership would seek to fill this 
gap by leveraging private funds through species banks or other 
mechanisms.
    For example, if ensuring functioning riparian corridors was a key 
local priority, riparian farmers might already be currently benefiting 
from a program to maintain stream vegetation buffers but private forest 
landowners might not be. The partnership might assess opportunities to 
recruit private capital to offer the same opportunity to private forest 
owners adjacent to rivers. Many private firms will consider voluntary 
contributions of this nature if the environmental and social benefits 
are clearly identified and are measurable.

    Question 9. What other opportunities for community involvement are 
provided for or emphasized that you see as beneficial for the success 
of the salmon stronghold strategy?
    Answer. The Salmon Stronghold Act will provide a high-level forum 
to provide this unifying framework where key public and private 
agencies and organizations can coordinate to improve ecosystem function 
through implementation of high value conservation actions within 
strongholds.
    Our goal is to improve policies affecting strong salmon 
populations, improving ecosystem functions. It will further our 
ability, at the state level, to transition to ecosystem management, as 
public and private resources are delivered as efficiently as possible 
directly to local entities implementing protection and restoration 
actions that are ecosystem based.

    Question 10. The stronghold approach focuses efforts and funding on 
healthy populations, rather than focusing, as has been done in the 
past, on recovering struggling populations. You mentioned the 
importance of focusing our conservation efforts on the healthiest wild 
salmon ecosystems. Is it accurate to state that a stronghold approach 
is, ultimately, a piece of the larger conservation puzzle?
    The stronghold approach is the critical--missing--piece of the 
larger conservation puzzle. As climate change occurs, ecosystems will 
adjust to these changes. Systems that are healthy and resilient will be 
best able to adapt to these changes. The most effective strategy for 
preparing for the future is to protect our healthy, functioning 
systems.
    Whether these changes can be absolutely predicted or not, we know 
that ecosystems and populations with an innate ability to adapt have a 
better chance of dealing with changes that might occur.
    By implementing a stronghold approach--we are strategically 
ensuring that the listed pieces of the puzzle don't continue to just 
get larger.

    Question 11. Why is this strategy an effective approach for 
rehabilitating the integrity of evolutionarily significant units?
    Answer. In the briefest terms, it will be impossible to 
rehabilitate listed ESUs if: (a) the strongest populations within the 
ESU deteriorate before restoration actions elsewhere in the ESU take 
effect or (b) if wild salmon near the listed ESU decline to the point 
where they can no longer provide seed stock to repopulate the listed 
populations, either via natural migration or hatchery intervention.
    At present, roughly one half of the Evolutionarily Significant 
Units (ESUS) of Pacific salmon--distributed across Washington, Oregon, 
California, and Idaho--are listed as threatened or endangered under the 
Federal Endangered Species Act.
    These ESUs are quite literally adrift on a sea of peril, threats to 
population viability that reflect the trajectories of human population 
growth, society's relentless need to utilize resources of land and 
water that the salmon depend on, the risks associated with fish 
hatcheries and harvest, and now, global climate change.
    Current efforts to rehabilitate these ESA listed ESUs will require 
time to bear fruit. Among current and future threats the salmon face, 
alteration of historical habitat conditions, coupled with local 
expressions of global climate change, are the most serious, and the 
most difficult to remediate. Restoring watersheds to salmon-suitable 
conditions will require decades. Aside from removing passage barriers 
like culverts, there are no quick fixes to restoring watershed 
functions required to sustain viable salmon ESUs.
    Salmon stronghold populations provide an anchor, metaphorically, to 
secure the ESU from further deterioration; strongholds also offer the 
core of adaptive genetic diversity essential to restoring the viability 
of populations across the listed ESU.
    What strength remains within listed ESUs is the strength in what we 
refer to as ``strong populations'' or `'salmon strongholds'' within or 
near the listed ESUs. These remaining centers of abundance, 
productivity, and diversity are the heart of our current ability to 
fish and to our hopes for recovering the listed ESUs to viability.
    In short, if one is aboard a ship at sea (an ESU), with fire (weak 
populations) distributed from stem to stern, it is crucial to secure 
strategically dispersed bases of operation (strongholds) from which one 
may send fire-crews forth to secure the ship. A single-minded focus to 
extinguish the flames (rehabilitate the weakest populations), without 
securing strategic operation bases (strongholds) is likely to result in 
failure.

    Question 12. The Pacific Salmon Stronghold Conservation Act would 
utilize payments for ecosystem services as part of its comprehensive 
approach to Pacific salmon conservation. What are the benefits of 
payments for ecosystem services, and can you provide some examples of 
how they work?
    Answer. Payments for ecosystem services expand the tools available 
to local communities in keeping their ecosystems functioning AND their 
working lands working.
    Voluntary payment for ecosystem services is one potential tool in 
addressing salmon conservation. If in looking at the priority actions 
identified for the stronghold watershed, payment for ecosystems 
services is identified as a potential strategy, the local partner would 
look at the ecological goals determined by scientific analysis in the 
watershed (i.e.--ecosystem services per acre of land) and would 
inventory all existing incentive-based programs available to landowners 
and land managers in key areas.
    If gaps exist, the Stronghold Partnership would seek to fill this 
gap by leveraging private funds through species banks or other 
mechanisms. For example, if ensuring functioning riparian corridors was 
a key local priority, riparian farmers might already be currently 
benefiting from a program to maintain stream vegetation buffers but 
private forest landowners might not be.
    The partnership might assess opportunities to recruit private 
capital to offer the same opportunity to private forest owners adjacent 
to rivers. Many private firms will consider voluntary contributions of 
this nature if the environmental and social benefits are clearly 
identified and are measurable.
    For example, Oregon recently enacted an Ecosystems Services Act 
(state statute), creating a state framework for accounting and 
coordination of ecosystem service markets in the state. The Oregon 
Department of Transportation operates a ``species bank,'' allowing for 
mitigation actions that produce the highest benefit for species or 
habitats.
    Existing ecosystem service initiatives enjoy the full support and 
participation of state authorities. The EPA-supported Willamette 
Partnership in Oregon has robust participation from state agencies and 
departments. Ecosystem service pilots in King County Washington are 
supported by the state, and California officially supports several 
ecosystem service pilots, including a voluntary ``species banking'' 
registry. This approach enjoys broad support from a wide range of 
stakeholders, including farmers, ranchers, regulated entities, 
conservation organizations, EPA, USDA and others.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Ms. Sara LaBorde

    Question 1. The National Marine Fisheries Service (NMFS) has 
dedicated significant resources to Pacific salmon conservation and 
management--upwards of $117 million in 2010 alone for the Pacific 
Coastal Salmon Recovery Fund (PCSRF) and other ``salmon management 
activities.'' NMFS also receives funding from two international funds 
with an endowment of approximately $135 million through the U.S./
Canadian Pacific Salmon Commission. S. 817 would authorize an 
additional $30 million annually to establish a grant program that would 
focus on maintaining currently healthy habitat for Pacific salmon. What 
authorities does the legislation bring to fisheries habitat 
conservation that does not already exist?
    Answer. The Pacific Salmon Stronghold Conservation Act provides 
congressional direction to focus Federal resources on preventative, 
proactive efforts to conserve healthy wild Pacific salmon ecosystems 
through the establishment of a Salmon Stronghold Partnership program 
and the Salmon Stronghold Partnership. By directing the National 
Oceanic and Atmospheric Administration (NOAA) to establish a salmon 
stronghold watershed grants and technical assistance program, this Act 
provides clear statutory funding direction to focus resources on the 
conservation of healthy wild salmon populations and their habitat as a 
complement to ongoing salmon recovery efforts. This legislation also 
authorizes Federal participation in the Salmon Stronghold Partnership 
and requires Federal agencies responsible for acquiring, managing, or 
disposing of Federal lands within salmon strongholds to cooperate with 
NOAA to conserve salmon strongholds. None of these authorities 
currently exists.
    Though NOAA uses an assortment of authorities when it administers 
grants today--from the Endangered Species Act and the Marine Mammal 
Protection Act to the Pacific Salmon Treaty--these authorities provide 
almost no specific congressional direction to the agency, and are 
primarily focused on the recovery of threatened and endangered salmon 
stocks. Further, while NOAA receives significant congressional 
direction in its appropriations bills, including specifics on how to 
spend grant funds, the agency has acknowledged that, in part because 
there is no organic act establishing the agency, it has no statutory 
funding direction. As a result, NOAA determines the guidelines and 
details of most salmon grants (i.e., what purpose, how much, who gets 
it, matching funds, who partners) on its own, and allocates the 
majority of its salmon funding toward recovery and restoration efforts.
    This is illustrated through the existing funding sources mentioned 
above. NOAA dedicates significant funding to support Pacific salmon 
conservation and management activities, primarily through the Pacific 
Coastal Salmon Recovery Fund (PCSRF), Salmon Management Activities 
related to the implementation of the Pacific Salmon Treaty, and Pacific 
Salmon Commission Restoration and Enhancement funds. Unfortunately, 
none of these funding sources supports prevention-based strategies to 
conserve strong wild salmon populations before they decline or healthy 
salmon-bearing watersheds before they are degraded. Further, they fail 
to support innovative strategies to address threats to healthy wild 
salmon populations that transcend watershed and state boundaries.
    For example, the Pacific Coastal Salmon Recovery Fund supports 
projects necessary for the conservation of salmon and steelhead 
populations that are listed as threatened or endangered under the 
Endangered Species Act (ESA), or identified by a state as at-risk or to 
be so-listed; for maintaining populations necessary for exercise of 
tribal treaty fishing rights or native subsistence fishing; or for 
conservation of Pacific coastal salmon and steelhead habitat. In 
Washington, Oregon, Idaho, and California, PCSRF funding is largely 
directed toward the Federal mandate to recover ESA-listed salmon and 
steelhead populations, and allocated based on priorities identified in 
salmon and steelhead recovery plans. In Alaska, which currently has no 
ESA-listed salmon populations, PCSRF funding is limited to habitat 
conservation efforts. As such, it cannot be used to proactively tackle 
other factors that may pose serious threats to salmon populations like 
climate change, development, and non-native species proliferation, all 
of which the Pacific Salmon Stronghold Conservation Act seeks to 
address through innovative, prevention-based strategies.
    Similarly, Pacific Salmon Commission Restoration and Enhancement 
funds (``Northern and Southern funds'') are primarily directed toward 
the enhancement of wild stock production and the development of 
improved information for resource management, rather than proactive 
strategies to conserve healthy wild salmon populations. The Pacific 
Salmon Commission has identified three primary goals for the Northern 
and Southern Boundary funds: (1) development of improved information 
for resource management, including better stock assessment, data 
acquisition and improved scientific understanding of limiting factors 
affecting salmon production in the freshwater and marine environments; 
(2) rehabilitation and restoration of marine and freshwater fish 
habitat, and improvement of habitat to enhance productivity and 
protection of Pacific salmon; and (3) enhancement of wild stock 
production through low technology techniques rather than through large 
facilities with high operating costs. Over the last few years, the 
majority of the Northern and Southern funds have been spent on Goals 1 
and 3, with only a small percentage allocated toward habitat 
restoration and rehabilitation. In addition, according to the Northern 
Fund Committee's 2009 Call for Proposals, ``[T]he Committee believes 
that large-scale habitat rehabilitation, habitat monitoring, habitat 
protection, and land acquisition are more appropriately addressed by 
other agencies and organizations.''
    By establishing a Salmon Stronghold Partnership program, this 
legislation will complement existing salmon funding sources and enable 
resource managers to get ahead of the curve in conserving wild salmon 
over the long term. In addition, this Act will enhance cooperation and 
coordination among Federal resource agencies and other stakeholders in 
implementing prevention-based strategies to conserve salmon strongholds 
across diverse land ownerships and jurisdictional boundaries.

    Question 1a. Could resource managers not already use their existing 
funds for this purpose?
    Answer. Though NOAA can currently undertake projects to conserve 
healthy wild salmon populations and their habitat, the agency rarely 
does so because it has no such mandate (see answer to question (1) 
above). That is why the Pacific Salmon Stronghold Conservation Act is 
so vital--it requires NOAA to undertake a complementary approach to its 
current recovery focus by protecting and restoring healthy wild Pacific 
salmon ecosystems.
    In addition, current salmon funding programs are not built to 
address Pacific salmon conservation goals on a regional scale. For 
example, PCSRF funds are allocated on a state by state basis. Each 
state allocates funds to recovery basins for habitat protection and 
restoration actions, and priorities are determined by each recovery 
basin (e.g., Lead Entities in WA). While these efforts are critical, 
resource managers must also assess emerging threats that transcend 
watershed and state boundaries. These cross-cutting threats--like 
invasive species proliferation and climate change--have great potential 
to exacerbate the impacts of existing limiting factors, while creating 
new ones. Unlike basin-specific limiting factors, however, which often 
require ``on-the-ground'' solutions implemented at the watershed scale, 
these threats can be more effectively addressed through 
``programmatic'' remedies that operate across multiple strongholds. 
This Act will enable the Salmon Stronghold Partnership to develop and 
support these cross-cutting, programmatic remedies.

    Question 1b. If the potential economic payback of stronghold 
activities is so great, why have they not focused more resources on 
such projects?
    Answer. This is partially due to the dire state of many Pacific 
salmon populations across the West Coast. As I mentioned in my 
testimony, salmon are now extinct over 40 percent of their native 
range, and many other salmon populations have declined to the point 
that they are protected under the Endangered Species Act. As a result, 
Federal agencies are spending the majority of their resources 
responding to the crisis of the day (like the Sacramento Chinook 
collapse) and restoring highly impacted systems.
    In addition, the failure to allocate resources to proactive 
conservation efforts is likely because the payback from those efforts 
is harder to account for. It is much easier to track the return of an 
investment in restoration, where miles restored or fish passage 
barriers removed are easily quantified, than it is to evaluate 
preventative measures that are targeted to maintaining healthy 
ecosystem functions. This is a paradox for two important reasons: (1) 
it is less expensive to conserve healthy wild salmon populations and 
intact watersheds than it is to rebuild imperiled stocks or restore 
degraded habitat; and (2) the desired outcome--a functioning ecosystem 
supporting healthy wild salmon populations--is far more likely to be 
secured through prevention-based strategies than through restoration 
approaches.
    If we do not implement a new policy to focus Federal resources on 
the conservation of healthy wild salmon ecosystems in the near term, we 
will continue to see the health of our wild salmon populations decline 
and may lose our opportunity to stem the tide of wild salmon population 
loss and extinction.

    Question 2. In 2006, the Departments of Commerce and Interior 
joined forces with the Association of Fish and Wildlife Agencies to 
publish the National Fish Habitat Action Plan, a document that 
developed a strategy to protect, restore, and enhance the Nation's 
fisheries ecosystems. This Action Plan established a Governing Board of 
up to 20 members from state and Federal agencies, the conservation and 
science communities, and industry representatives tasked with 
coordinating involvement and raising awareness of and funding for fish 
habitat considerations. How would the Stronghold Partnership differ 
from and coordinate with this Governing Board?
    Answer. The Salmon Stronghold Partnership Board differs from the 
National Fish Habitat Board in a number of ways, most notably in its 
membership, purpose, and scale of focus.
    The Salmon Stronghold Partnership is a public-private partnership 
among Federal, state, tribal, and local governments, private 
landowners, and nongovernmental organizations working across political 
boundaries, government jurisdictions, and land ownerships to identify 
and conserve the healthiest wild Pacific salmon ecosystems in Alaska, 
Washington, Oregon, Idaho, and California.
    The Salmon Stronghold Partnership Board is the executive body of 
the Salmon Stronghold Partnership. The Board will consist of 19 to 21 
representatives with strong scientific or technical credentials and 
expertise, as follows: one representative from each of the National 
Marine Fisheries Service (NMFS), the U.S. Fish and Wildlife Service 
(FWS), the Forest Service, the Environmental Protection Agency, the 
Bonneville Power Administration, the Bureau of Land Management, and the 
Northwest Power and Conservation Council; one representative from each 
of the States of Alaska, California, Idaho, Oregon, and Washington; not 
less than three and not more than five representatives from Indian 
tribes or tribal commissions located within the range of Pacific 
salmon; one representative from each of three non-governmental 
organizations with salmon conservation and management expertise; one 
national or regional representative from an association of counties; 
and representatives of any other entities with significant resources 
regionally dedicated to the protection of salmon ecosystems that the 
Board determines are appropriate. The Pacific Fisheries Resource 
Conservation Council, an independent advisory body to the Canadian 
Minister of Fisheries and Oceans and the British Columbia Minister of 
Fisheries, is also participating on the Board as an Ex Officio member.
    The primary purposes of the Board will be to: (1) develop and 
support strategies focusing on the conservation actions projected to 
have the greatest positive impacts on wild salmon abundance, 
productivity and/or diversity in and across salmon strongholds, and (2) 
provide criteria for the prioritization of projects funded under the 
Salmon Stronghold Partnership program. In developing proactive 
strategies to prevent the decline of healthy wild salmon ecosystems and 
criteria for the prioritization of projects, the Board will not limit 
its scope to habitat conservation. Instead, it will consider all of the 
factors affecting the health of salmon strongholds (e.g., harvest, 
hatchery influence, and habitat alteration) at both watershed and 
region-wide scales.
    In contrast, the National Fish Habitat Board focuses on fish 
habitat conservation--both healthy habitats and those that are 
degraded--at a nationwide scale in an effort to establish national 
goals and priorities, designate Partnerships, and review and make 
recommendations regarding fish habitat conservation projects. The Board 
will be composed of 27 members, including: the Director of the FWS; the 
Assistant Administrator of the NMFS; the Chief of the Natural Resources 
Conservation Service; the Chief of the Forest Service; the Assistant 
Administrator for Water of the Environmental Protection Agency; the 
President of the Association of Fish and Wildlife Agencies; the 
Secretary of the Board of Directors of the National Fish and Wildlife 
Foundation; four representatives of State agencies, one of whom shall 
be nominated by a regional association of fish and wildlife agencies 
from each of the Northeast, Southeast, Midwest, and Western regions of 
the United States; one representative of the American Fisheries 
Society; two representatives of Indian tribes, of whom one shall 
represent Indian tribes from the State of Alaska, and one shall 
represent Indian tribes from the other states; one representative of 
the Regional Fishery Management Councils; one representative of the 
Marine Fisheries Commissions; one representative of the Sportfishing 
and Boating Partnership Council; and ten representatives selected from 
each of the following groups: the recreational sportfishing industry, 
the commercial fishing industry, marine recreational anglers, 
freshwater recreational anglers, terrestrial resource conservation 
organizations, aquatic resource conservation organizations, the 
livestock and poultry production industry, the land development 
industry, the row crop industry, and natural resource commodity 
interests, such as petroleum or mineral extraction.
    The National Fish Habitat Board and Salmon Stronghold Partnership 
Board have three representatives from the same Federal agencies--NMFS, 
FWS, and the Forest Service--and two representatives from the same non-
governmental organizations (NGO's)--Trout Unlimited and The Nature 
Conservancy. Aside from these five members, and potentially one state 
representative (depending on the Western State appointment to the 
National Fish Habitat Board), membership is quite different among these 
two bodies. Both the Federal agencies and the NGO's participating on 
the Boards recognize the differences between these two efforts and the 
value of supporting both.
    The Salmon Stronghold Partnership Board will coordinate with Fish 
Habitat Partnerships (FHPs) that overlap with its focal area (i.e., 
salmon strongholds across Alaska, Washington, Oregon, Idaho, and 
California) to avoid duplication of efforts and potentially fill the 
gaps that Fish Habitat Partnerships do not address, either 
geographically or through programmatic initiatives that address 
challenges across multiple basins. This cooperation and coordination 
will be necessary in Alaska, since the state has been identified as a 
regional salmon stronghold and contains three recognized FHPs. Members 
of the Salmon Stronghold Partnership Board will initiate discussions 
with the Alaska FHPs at a National Fish Habitat meeting in Anchorage 
this summer to determine how the partnerships can work together in the 
State.

    Question 3. Some principles of conservation biology would support 
the stronghold concept. However, finding examples of existing 
``stronghold'' programs is difficult. How would you describe the 
defining characteristics of a species ``stronghold''?
    Answer. The Pacific Salmon Stronghold Conservation Act defines a 
``salmon stronghold'' as ``all or part of a watershed that meets 
biological criteria for abundance, productivity, diversity (life 
history and run timing), habitat quality, or other biological 
attributes important to sustaining viable populations of salmon 
throughout their range.'' S. 817, 111th Cong.  3(8) (2009). Because 
the stronghold approach seeks to sustain viable populations ``across 
their range,'' and abundance and diversity decrease dramatically from 
strongholds in the north to those in the south, the term ``stronghold'' 
is relative. Each stronghold is identified and can only be described 
within the context of the distinct geographic areas that conservation 
planners use to organize the enormous landscape that supports wild 
salmon. These areas are known as ecological regions, or ``eco-
regions.'' Within the eco-regions of CA, OR, WA, and ID (and southern 
British Columbia), partners are convening to evaluate wild populations 
and identify ``core strongholds.'' Because of the extraordinary 
abundance and diversity of wild salmon populations throughout Alaska, 
the Act recognizes the entire state as a salmon stronghold. Despite the 
variations across eco-regions in the lower 48 states, some common 
characteristics exist, which may be summarized as follows:

        1. Strongholds meet the highest values for wild salmon 
        abundance and diversity. Salmon strongholds support the 
        greatest assemblage of wild salmon species with high abundance 
        and productivity and minimal influence of hatchery-reared 
        populations within an eco-region. Wild populations demonstrate 
        a high diversity of life history strategies, providing a 
        significant buffer against population extirpation in the event 
        of a short or long term disturbance to the system. The first 
        step in identifying salmon strongholds is for experts within 
        each eco-region to score populations according to three 
        criteria: abundance and productivity, percent natural origin 
        spawners, and life history diversity.

        2. Strongholds make the highest proportional contributions 
        toward meeting conservation goals within an eco-region. In his 
        testimony on the Pacific Salmon Stronghold Conservation Act, 
        Dr. Gordon Reeves with the U.S. Forest Service stated, ``[T]he 
        identification and selection of a stronghold is premised on 
        principles of systematic conservation design, which are well 
        established in the scientific literature (see Soule and 
        Terborgh 1999). These include: (1) comprehensiveness--the 
        extent to which the network protects the desired level of 
        biodiversity and abundance; (2) irreplaceability--the inclusion 
        of areas or populations that are necessary to achieve the 
        conservation goals; and (3) efficiency--the network is designed 
        ``[in] the most efficient manner that achieves the conservation 
        goals while minimizing the area involved.'' By entering 
        stronghold data collected through ``expert scoring'' (#1 above) 
        into network design software, conservation planners can 
        identify those locations that support the highest proportions 
        of an eco-region's overall wild salmon production within a 
        small area (relative to the entire eco-region). Investment in 
        those locations--salmon strongholds--will yield the biggest 
        bang for our buck in conservation returns.

        3. Strongholds contain relatively unfragmented and ecologically 
        intact habitats. Scientists have conducted extensive research 
        that clearly demonstrates the adverse impacts of aquatic and 
        terrestrial habitat fragmentation and degradation on the 
        abundance and diversity of wild salmon populations. Salmon 
        strongholds contain high value and intact riparian, instream, 
        wetland, and (sometimes) estuarine habitats that are well 
        connected across the watershed. Trophic systems (the foodweb) 
        are intact, invasive species infiltration minimal, and key 
        areas of refugia are relatively unaltered. In short, the salmon 
        stronghold system is functioning with minimal human disturbance 
        relative to the other parts of the eco-region.

    Question 3a. What precedents exist for this type of management, and 
have stronghold management approaches resulted in measurable 
conservation gains for the target species?
    Answer. A key purpose of conservation biology is ``to retain the 
actors in the evolutionary play and the ecological stage on which it is 
performed'' (quote of G.E. Hutchinson in Meffe and Carroll 1999). The 
establishment of strongholds, also known as reserves, is a primary tool 
for meeting this goal and has been employed around the world to help 
protect a vast number of organisms and resources (Margules and Pressey 
2000). Generally, these are areas that currently have strong 
populations and intact, functioning ecosystems because conservation 
actions are most successful before populations or ecosystems begin to 
decline. Strongholds have been established primarily for marine and 
terrestrial systems. The stronghold network proposed by the current 
legislation would be one of the first for freshwater fish.
    While many strongholds and stronghold networks have been 
established, it is difficult to fully assess their success (Gaston et 
al., 2006). The reasons for this include the: (1) paucity of systematic 
data; and (2) incompatibility of data that has been collected to 
measure the performance of the individual efforts. However, studies 
that have evaluated strongholds and strongholds networks found that 
them to be generally successful in meeting their conservation 
objectives.
    For example, the North American Flyway, which is a series of 
reserves on public and private lands along the migratory corridors of 
waterfowl that were established by the Migratory Bird Treaty Act, has 
helped to maintain healthy waterfowl populations (Nichols et al., 
1995). Similarly, Halpern (2003) reviewed the biological response to 
the establishment of 89 marine reserves worldwide and found that the 
density of fish was 2 times greater, biomass was 3 times greater, and 
size and diversity were 20-30 percent higher in reserves than in 
adjacent areas. The effects of the reserves increased with the size. 
Rates of declines of biodiversity in English reserves were generally 
lower than or similar to compared to declines to outside areas (Gaston 
et al., 2006). In addition, trends were most positive in larger 
protected areas. For example, Andam et al., (2008) estimated that 
forest reserves in Costa Rica reduced deforestation by 10 percent.
    Scientists have suggested the stronghold (or similar) approach for 
several years. Williams et al., (1989) and Moyle and Yoshiyama (1994) 
were among the earliest to argue for this approach. Williams et al., 
noted that no freshwater fish that was listed under the Endangered 
Species Act (ESA) up to that time had been removed because it recovered 
sufficiently. The number of freshwater fish listed under the ESA 
continues to increase, while few have been delisted to date (Williams 
and Miller 2006).
    As Pacific salmon, and other native fish, in the western United 
States continue to decline, scientists are renewing the call for the 
protection of areas with the strongest and most diverse populations and 
most intact ecosystems (Williams and Miller 2006, Williams et al., 
2006, Gustafson et al., 2007). Unfortunately, I am not aware of any 
example of where the stronghold approach has actually been applied for 
salmon or any other freshwater fish, particularly on a large spatial 
scale. Perhaps the best examples are the key watersheds, which are part 
of the Aquatic Conservation Strategy of the Northwest Forest Plan 
(NWFP) that guides management on Federal lands in western Oregon and 
Washington and northern California, within the range of the northern 
spotted owl (Strix occidentalis caurina). Key watersheds had currently 
good habitat, the best potential to respond to restoration, or were 
municipal water supplies, and were distributed across the area of the 
Northwest Forest Plan (Reeves et al., 2006). The purpose of the former 
two types was to aid in the recovery of habitat of listed Pacific 
salmon and other fish. Ten years after the implementation of the NWFP, 
the proportion of key watersheds (70 percent) whose condition improved 
was greater than that of non-key watersheds (50 percent). This was 
achieved while allowing timber production and other activities to 
occur.

Literature Cited
    Andam, K.S., P.J. Ferraro, A. Pfaff, G. A. Sanchez-Azofeifa, and 
J.A. Robalino. 2008. Measuring the effectiveness of protected areas 
networks in reducing deforestation. Proceedings of the National Academy 
of Science 105(42): 16089-16094.
    Gaston, K.J., S.F. Jackson, L. Cantu-Salazar, and G. Cruz-Pinon. 
2008. The ecological performance of protected areas. Annual Review of 
Ecology, Evolution, and Systematics 39: 93-113.
     Gaston, K.J., K. Charman, S.F. Jackson and 12 co-authors. 2006. 
The ecological effectiveness of protected areas: The United Kingdom. 
Ecological Conservation 132: 76-87.
    Gustafson, R.G., R.S. Waples, J.M. Myers, L.A. Weitkamp, G.J. 
Bryant, O.W. Johnson, and J.J. Hard. 2007. Pacific salmon extinctions: 
Quantifying lost and remaining diversity. Conservation Biology 21: 
1009-1020.
    Halpern, B.S. 2003. The impact of marine reserves: Do reserves work 
and does reserve size matter? Ecological Applications 13: S117-S137.
    Margules, C.R. and R.L. Pressey. 2000. Systematic conservation 
planning. Nature 405: 243-253.
    Meffe, G.K, C.R. Carroll, and contributors. 1999. Principles of 
conservation biology. Second edition. Sinaeuer Associates, Sunderland, 
MA.
    Moyle, P.B. and R.M. Yoshiyama. 1994. Protection of aquatic 
biodiversity in California: five-tiered approach. Fisheries 19920; 6-
19.
    Nichols, J.D., F.A. Johnson, and B.K. Williams. 1995. Managing 
North American waterfowl: The face of uncertainty. Annual Review of 
Ecology and Systematics 26: 177-199.
    Reeves, G.H., J.E. Williams, K.M. Burnett, and K. Gallo. 2006. The 
aquatic conservation strategy of the Northwest Forest Plan. 
Conservation Biology 20: 319-329.
    Williams, J.E. and R.R. Miller 2006. Conservation status of the 
North American fish fauna in fresh water. Journal of Fish Biology 
37(sA): 79-85.
    Williams, R.N, J.A. Stanford, J.A. Lichatowich, and 7 co-authors. 
2006. Return to the river: Strategies for salmon restoration in the 
Columbia River basin. In R.N. Williams, editor. Return to the River: 
Restoring salmon to the Columbia River. Pages 629-666.
    Williams, J.E., J.E. Johnson, D.A. Hendrickson and 5 co-authors. 
1989. Fishes of North America: endangered, threatened, and of special 
concern. Fisheries 14(6): 2-21.

    Question 3b. If the concept of a ``stronghold'' is based largely on 
where the species has a relatively large population and intact habitat 
(i.e., mostly based on ecological criteria), how are human economic and 
social needs taken into account when selecting ``stronghold'' sites?
    Answer. The identification of salmon stronghold sites is based 
entirely on biological criteria, which includes abundance and 
productivity, ``wildness'' (influence of hatchery-born fish), and 
diversity of wild Pacific salmon and steelhead populations. Reliance on 
biological criteria in the determination of stronghold boundaries 
ensures that the effort to conserve strong populations is built on a 
foundation of solid science that accurately reflects population health 
and viability. This science-driven approach is essential if we are to 
accurately identify strongholds and carry out the intent of the Pacific 
Salmon Stronghold Conservation Act.
    While a portfolio of watersheds is conferred stronghold status 
based on science, economic and social needs will be taken into account 
when decisions are made concerning where funds provided under this Act 
are invested. The Stronghold Partnership's Charter states that the 
Salmon Stronghold Partnership Board will consider the extent to which a 
project will ``protect, improve, or promote local economic 
opportunities associated with healthy salmon stronghold habitats and/or 
populations, including responsible and sustainable resource use related 
to fishing and recreation'' when the Board determines annual priorities 
for funding. NASSP Charter, Section 5.2.5. By evaluating the potential 
of a project to deliver economic benefits to stronghold communities, 
the Board will consider not only the health of wild salmon populations, 
but also the communities and economies that they help sustain.
    The Board's intent to consider economic and social needs in its 
determination of funding priorities can also be illustrated through the 
``Rudio Creek'' project, which the Partnership helped fund in 2008. 
Undertaken through a broad partnership, the Rudio Creek project 
supported a rancher's efforts in the John Day basin to increase the 
efficiency of his irrigation practices while promoting the health of 
strong salmon and steelhead populations. The major objectives of the 
project were to keep water in a critical spawning and rearing 
tributary, Rudio Creek, while supporting the rancher's needs for 
improved and more dependable irrigation infrastructure. Recently 
completed, the project was hailed as a great success by the landowner 
and the range of state, Federal, and private partners involved. All of 
these parties applauded the project as a win-win in its capacity to 
conserve local natural resources, while promoting the economic health 
of a vital local ranching industry. Integrating all three components--
environmental, economic, and social needs of the communities that lie 
within strongholds--into the development of a project supports what is 
known as ``the triple bottom line,'' which is widely recognized as 
critical to building lasting partnerships and implementing broadly 
supported projects in rural regions.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
